<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Kohl, Reed, Cochran, Shelby, 
Collins, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY


            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI


    Senator Mikulski. Good morning. Today, the subcommittee 
begins its hearings to review the fiscal year 2013 Department 
of the Navy budget. I want to announce that there has been no 
coup. To see me in the chair is, I am sure, a surprise to me as 
much as it is to you. Senator Inouye cannot be here this 
morning for an unexpected reason that arose. So he asked me to 
chair the subcommittee.
    In the spirit of bipartisanship, I think, as characteristic 
of this subcommittee, it will run very smoothly.
    Because we are expecting really active participation from 
members, we are going to stick to the 5-minute rule. Members 
will be recognized in the order of arrival but, of course, 
starting with Senator Cochran.
    What I will do is wait until the very end, ask my questions 
then, and if there are any Inouye questions, I will ask them.
    Secretary of the Navy, Mr. Mabus, it is so good to see you 
again. I have got some questions for you, as you could imagine.
    The Chief of Naval Operations (CNO), Admiral Jonathan W. 
Greenert is here, as well as the Commandant of the Marine 
Corps, General James F. Amos. General Amos, I understand you 
are recovering from surgery, and you and your wife have 
determined that you can appear today. But anything we need to 
do to accommodate your situation, Sir, we will be happy to do 
it.
    We want to thank you for being here. And I am going to just 
move right along. And Senator Cochran, why don't I turn to you 
for an opening statement, and then we can turn directly to 
Secretary Mabus and get on with the hearing. Does that sound 
like a good way to go?


               OPENING STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. Madam Chairman, thank you very much. It 
certainly does.
    I am delighted to join you in welcoming this distinguished 
panel of witnesses, former Governor of our State of 
Mississippi, Secretary of the Navy, Ray Mabus, who is doing an 
outstanding job in his new capacity. And Admiral Greenert and 
General Amos, who are leaders of our military forces, Navy and 
Marine Corps forces, we appreciate so much your cooperation 
with our subcommittee in responding to our request to be here 
to review the budget for the Department of the Navy and our 
forces in the fleet and in the Marine Corps. And we look 
forward to our opportunity to question you about the priorities 
that we face.
    Thank you, Madam Chairman.
    Senator Mikulski. Mr. Secretary, fire at will.


              SUMMARY STATEMENT OF THE HONORABLE RAY MABUS


    Mr. Mabus. Senator Mikulski, Senator Cochran, Senator Reed, 
and Senator Coats, let me start by thanking you all for your 
support of the sailors, marines, and civilians in the 
Department of the Navy in ensuring that they get what they need 
to do their mission.
    I also want to say how happy I am to have my wing-man, 
General Amos, back after--yes, I think he is a ``winged man'' 
now, but after his surgery last week. And the fact that he is 
here today shows the level of dedication and resilience that 
the marines have, and the pride that he, I, the CNO, Admiral 
Greenert, take in leading the sailors, marines, and civilians 
of the Department of the Navy, who selflessly serve the United 
States, is exceeded only by the accomplishments of these brave 
people.
    Whatever is asked of them by the American people through 
their Commander in Chief, from Afghanistan to Libya, from 
assisting the stricken people of Japan to assuring open sea 
lanes around the world, from bringing Osama bin Laden to final 
justice to bringing hostages out of wherever they may be hidden 
by terrorists or pirates, they answer the call. They get the 
mission done.
    The CNO, the Commandant, and I are confident that the 
United States Navy and Marine Corps are well-prepared to meet 
the requirements of the new defense strategy, to maintain their 
status as the most formidable expeditionary fighting force the 
world has ever known. No one--no one--should ever doubt the 
ability, capability, or superiority of the Navy-Marine Corps 
team.
    As we reposition after two long ground wars, it was 
essential to review our basic strategic posture. The new 
guidance, developed under the leadership of the President and 
the Secretary of Defense, with the full involvement of every 
Service Secretary and Service Chief, responds to changes in 
global security. The budget presented to implement this 
strategy, which was also arrived at through full collaboration 
of all services, ensures the Navy and Marine Corps will be able 
to fully execute this strategy, while meeting the constraints 
imposed by the Budget Control Act of 2011.
    With this new strategy, which has an understandable focus 
on the Western Pacific and Arabian gulf region, maintains our 
worldwide partnerships and our global presence, using 
innovative, low-cost, light-footprint engagements, it requires 
a Navy-Marine Corps team that is built and ready for any 
eventuality on land, in the air, on and under the world's 
oceans, or in the vast cyber-seas, and operated forward to 
protect American interests, respond to crises, and to deter or, 
if necessary, win wars.
    The impact of two ground wars in the last decade on our 
Navy fleet and its force is unmistakable. A fleet that stood at 
316 ships and an end strength of more than 377,000 sailors on 
September 11, 2001, dropped to 283 ships and close to 49,000 
fewer sailors just 8 years later when I took office.
    This administration has made it a priority to rebuild our 
fleet. Despite the budget constraints imposed under the Budget 
Control Act of 2011, our plan assures that we will have no 
fewer ships at the end of the 5-year budget cycle than we have 
today, although the fleet of fiscal year 2017 will include more 
more-capable ships, equipped with state-of-the-art technology 
and manned, as always, by highly skilled people.
    Although we are presenting one 5-year budget plan, one 
Future Years Defense Plan (FYDP), this is certainly not a one-
FYDP issue. As the defense strategy states, we are building a 
force for 2020.
    In the years beyond the current FYDP, we have a plan to 
grow our fleet and ensure capability and capacity continue to 
match missions. In fact, our plan will have us again across the 
threshold of 300 ships by 2019. Overall, we will fully meet the 
requirements of the new status--of the new strategy and protect 
our industrial base.
    The Marine Corps will also return to its maritime roots and 
resume its traditional role as the Nation's expeditionary force 
in readiness. Our marines will retain the lessons of a decade 
of hard and effective fighting in Iraq and Afghanistan as they 
transition back to a middle-weight amphibious force, optimized 
for forward presence, engagement, and rapid crisis response. We 
will carefully manage the reduction in active duty end strength 
from 202,000 to 182,100 by the end of fiscal year 2016 in order 
to keep faith with our marines and their families to the 
maximum extent possible.
    This restructured Marine Corps, a plan that was arrived at 
after a year and a half of very careful study by the marines, 
will be smaller. But it will be fast; it will be agile; it will 
be lethal. The number of marines in certain critical jobs, like 
special forces and cyber, will be increased, and unit manning 
levels, and thus readiness, will go up.
    Both the Navy and Marine Corps will continue to decrease 
operational vulnerabilities in ways that are cost efficient. 
That means we will maintain our efforts to reduce our 
dependence on foreign oil and use energy more efficiently. 
These efforts have already made us better warfighters. By 
deploying to Afghanistan with solar blankets to charge radios 
and other electrical items, a marine patrol dropped 700 pounds 
in batteries from their packs and decreased the need for risky 
resupply missions.
    Using less fuel in theater can mean fewer fuel convoys, 
which will save lives. For every 50 convoys, we lose a marine, 
killed or wounded. That is too high of a price to pay.
    As much as we have focused on our fleet's assets of ships, 
aircraft, vehicles, and submarines, they don't sail, fly, 
drive, or dive without the men and women who wear the uniform 
and their families. They have taken care of us; they have kept 
the faith with us; and we owe them no less.
    The commitment to sailors, marines, and their families is 
whether they serve 4 or 40 years. It begins the moment they 
raise their hand and take the oath to defend our country. It 
continues through the training and education that spans their 
career. It reaches out to their loved ones because it is not 
just an individual who serves but the entire family.


                           PREPARED STATEMENT


    It supports our wounded warriors with recovery, 
rehabilitation, and reintegration. It continues with transition 
services for our veterans to locate new jobs and the GI bill 
for their continuing education or transfer for a family 
member's education. The list goes on and on and on, as it 
should. Our commitment to sailors and marines can never waver 
and can never end.
    For 236 years, from sail to steam to nuclear, from the USS 
Constitution to the USS Carl Vinson, from Tripoli to Tripoli, 
our maritime warriors have upheld a proud heritage, protected 
our Nation, projected our power, and provided freedom of the 
seas. In the coming years, this new strategy and our plans to 
execute the strategy will assure that our naval heritage not 
only perseveres, but that our Navy and Marine Corps continue to 
prevail.
    Thank you very much.
    [The statement follows:]

             Prepared Statement of the Honorable Ray Mabus

                              INTRODUCTION

    Chairman Inouye and Senator Cochran, I have the privilege of 
appearing today on behalf of the sailors, marines, and civilians who 
make up the Department of the Navy. This is the fourth year that I have 
been honored to report on the readiness, posture, progress, and 
budgetary requests of the Department. The pride the Commandant of the 
Marine Corps, General James F. Amos; the Chief of Naval Operations 
(CNO), Admiral Jonathan W. Greenert; and I take in leading the 
dedicated men and women of the Department who selflessly serve the 
United States in the air, on land, and at sea is exceeded only by the 
accomplishments of these brave and selfless individuals.
    Whatever is asked of them by the American people through their 
commander in chief--from Afghanistan to Libya, from assisting the 
stricken people of Japan to assuring open sea lanes around the world, 
from bringing Osama bin Laden to final justice to bringing hostages out 
of wherever they may be hidden by terrorists or pirates--they answer 
the call and get the mission done.
    As we pivot away from a decade of war on two fronts in two separate 
nations, the Commandant, CNO, and I are confident that the U.S. Navy 
and the Marine Corps are well-prepared to meet the requirements of the 
new defense strategy and maintain their status as the most formidable 
expeditionary fighting force the world has ever known. No one should 
doubt the ability, capability, or superiority of the Navy-Marine Corps 
team.
    The administration's defense strategic guidance, with its 
understandable focus on the Western Pacific and Arabian gulf region; 
its requirement to maintain our worldwide partnerships; and its call 
for a global presence using innovative, low-cost, light footprint 
engagements requires a Navy-Marine Corps team that is built and ready 
for war--on land, in the air, on and under the world's oceans, or in 
the vast ``cyberspace''--and operated forward to protect American 
interests, respond to crises, and deter and prevent war.
    This new strategy, developed under the leadership of the President 
and the Secretary of Defense, with the full involvement of every 
service Secretary and service Chief, responds to the dynamic global 
security environment, while meeting the constraints imposed under the 
Budget Control Act of 2011 (BCA) passed by the Congress.
    Our ability to meet the demands of this new strategy depends on the 
improvements we have begun and objectives we have set regarding how we 
design, purchase, and build new platforms, combat systems, and 
equipment; increase the development and deployment of unmanned systems 
to provide increased presence and enhanced persistence at lower cost 
and less danger; and how we use, produce and procure energy. Most 
importantly, our efforts and this new strategic guidance, and the 
budget that guidance informs will assure that we continue to keep faith 
with those who serve our country so selflessly and heroically, our 
sailors and marines, civilians, and their families.

                   FISCAL YEAR 2013 BUDGET SUBMISSION

Fleet Size
    On September 11, 2001, the Navy's battle force stood at 316 ships 
and 377,000 sailors. Eight years later when I took office, the battle 
force had fallen by 49,000 sailors, and to 283 ships. Today, 3 years 
into the Obama administration, the fleet increased to 285 ships of all 
types.
    Many have noted that we have the lowest number of battle force 
ships since 1917. But today's ``Fleet'' is best thought of as a fully 
integrated battle network comprised of sensors, manned and unmanned 
platforms, modular payload bays, open architecture combat systems, and 
smart, tech-savvy people. Thus, making comparisons between today's 
``total force battle network'' with the battle force of 1917 is like 
comparing a smart phone to the telegraph. Still, even though the ships 
coming into service today are vastly more capable than their 1917 
predecessors, at some point quantity has a quality of its own. This is 
why building up the number of ships in our Fleet has been a priority 
for this administration from day-one.
    The topline reductions mandated by the BCA made holding to current 
Fleet numbers a difficult challenge. However, I am pleased to report to 
you that we have developed a plan that delivers a Fleet with the same 
number of ships by the end of the future year's defense plan (FYDP), as 
we have today--all while still meeting our fiscal obligation to support 
a responsible end to our ground combat mission in Afghanistan. The 
fiscal year 2013-2017 shipbuilding plan maintains a flexible, balanced 
naval battle force that will be able to prevail in any combat 
situation, including in the most stressing anti-access/area denial (A2/
AD) environments.
    While our ship count stabilizes in this FYDP, our shipbuilding 
plans aim to build a Fleet designed to support the new defense strategy 
and the joint force for 2020 and beyond. The specific requirements for 
this future Fleet will be determined by an ongoing force structure 
assessment, which should be concluded later this year. Regardless of 
the final battle force objective, however, you can expect to see the 
Fleet's ship count to begin to rise as the littoral combat ship (LCS) 
and joint high-speed vessels (JHSVs) built during the next 5 years 
begin to enter fleet service beyond this FYDP and as we sustain our 
major combatant and submarine building profiles. As a result, even 
under the fiscal constraints imposed by the BCA, the battle force is 
projected to reach 300 ships by 2019.
    While the final ship count will be determined by the FSA, the 
decisions made during the recent President's fiscal year 2013 budget 
(PB-13) deliberations will result in a battle force consisting of:
      Nuclear-Powered Aircraft Carriers and Air Wings.--With delivery 
        of USS Gerald R. Ford, the first of a new class of nuclear-
        powered aircraft carriers, in 2015, we will have 11 CVNs in 
        commission and will sustain that number at least through 2040. 
        Our future carriers will be even more powerful, with new combat 
        capabilities resident in the F-35C Lightning II Joint Strike 
        Fighter, F/A-18E/F Super Hornet, EA-18G Growler electronic 
        attack aircraft, E-2D Advanced Hawkeye airborne early warning 
        aircraft, and new unmanned air combat systems.
      Nuclear-Powered Attack Submarines.--SSNs are the key to 
        sustaining our dominant lead in undersea warfare. While the 
        procurement of one Virginia-class submarine was delayed from 
        2014 to 2018 to help free up budget resources in the FYDP, the 
        planned fiscal year 2014-2018 Multiyear Procurement of nine 
        submarines remains intact. To mitigate the loss of large 
        undersea strike capability when SSGNs retire in 2026-2028, we 
        invested research and development for the Virginia Payload 
        Module (VPM). VPM could provide future Virginia-class SSNs with 
        an additional four SSGN-like large diameter payload tubes, 
        increasing each SSN's Tomahawk cruise missile capability from 
        12 to 40. While we are committed to a long-term force goal of 
        48 SSNs, low submarine build rates during the 1990s will cause 
        us to fall below that number for some time starting in the late 
        2020s. We continue to explore ways to limit the submarine 
        shortfall by increasing the near-term submarine build rate, 
        improving affordability, and maintaining the health of this 
        critical industrial base.
      Guided Missile Cruisers and Destroyers.--The Arleigh Burke-class 
        DDGs remain in serial production, with funding in place for a 
        nine-ship fiscal year 2013-2017 MYP. The next flight of DDG 51s 
        will introduce a more powerful and capable Air and Missile 
        Defense Radar in fiscal year 2016. We project that the new 
        defense strategy will require slightly fewer large surface 
        combatants so we will retire seven Ticonderoga-class CGs in 
        this FYDP--all but one before a planned mid-life ballistic 
        missile defense upgrade, and that one had serious structural 
        issues--achieving considerable cost savings at relatively low 
        risk. The long-term inventory of guided missile cruisers and 
        destroyers is projected to come down as combatants built at the 
        rate of 3-5 per year during the cold war begin to retire in the 
        2020s. We are exploring a variety of ways to mitigate these 
        losses.
      Littoral Combat Ships.--With their flexible payload bays, open 
        combat systems, ability to control unmanned systems, and superb 
        aviation and boat handling capabilities, LCSs will be an 
        important part of a more agile future Fleet. New crew rotation 
        plans, built on a modified version of the highly successful 
        SSBN two-crew model, will allow for substantially more LCS 
        forward presence than the frigates, mine counter-measures 
        ships, and coastal patrol craft they will replace, and will 
        free our more capable multimission destroyers for more complex 
        missions. Although forced to shift two LCSs outside the current 
        FYDP to achieve cost savings, we remain fully committed to our 
        plan to ultimately purchase 55 of these warships.
      Amphibious Ships.--Thirty amphibious landing ships can support a 
        two-Marine Expeditionary Brigade (MEB) forcible entry operation 
        with some risk. To generate 30 operationally available ships, 
        the strategic review envisions an amphibious force consisting 
        of 32 total ships, or 5 ships more than we have in commission 
        today. The ultimate fleet will consist of 11 big deck 
        amphibious ships, amphibious transport dock LPD-17s, and 10 
        landing ship, dock ships. To support routine forward 
        deployments of Marine Expeditionary Units, the amphibious force 
        will be organized into nine, three-ship Amphibious Ready Groups 
        (ARGs) and one four-ship ARG in Japan, plus an additional big-
        deck amphibious ship available to support contingency 
        operations worldwide. We will place two LSDs into reduced 
        operations status, allowing us to reconstitute an eleventh ARG 
        in the future, or to build up the number of ships in the active 
        inventory, if necessary. Consistent with these changes, we have 
        deferred procurement of a new LSD, aligning it with LSD-42s 
        planned retirement. We also intend to disband the third 
        maritime prepositioning force squadron that we placed in 
        reserve last year due to fiscal restraints and reorganize the 
        two remaining active squadrons with more capable ships, making 
        them more effective.
      New Afloat Forward Staging Bases.--Navy is proposing to procure a 
        fourth Mobile Landing Platform (MLP) in fiscal year 2014, 
        configured to serve as an Afloat Forward Staging Base (AFSB). 
        This AFSB will fulfill an urgent combatant commander request 
        for sea-based support for mine warfare, Special Operations 
        Forces, intelligence, surveillance and reconnaissance (ISR), 
        and other operations. To speed this capability into the fleet 
        and to ultimately provide for continuous AFSB support anywhere 
        in the world, we also intend to request congressional approval 
        to convert the fiscal year 2012 MLP into the AFSB 
        configuration, resulting in a final force of two MLPs and two 
        AFSBs. This mix will alleviate the demands on an already 
        stressed surface combatant and amphibious fleet while reducing 
        our reliance on shore-based infrastructure.
    Most of the ship reductions in the President's fiscal year 2013 
budget submission--16 fewer than the comparable years' in the fiscal 
year 2012 budget--are combat logistics and Fleet support ships and 
reflect prudent adjustments to our new strategy and a lower defense 
topline. For example, 8 of the 16 ships cut from our 5-year plan were 
JHSVs. These cuts reflect the new 10-ship JHSV requirement developed 
during our strategy review.
    In addition, we simply delayed purchasing three new oilers, which 
were part of an early changeover from single-hulled to more 
environmentally safe and internationally accepted double-hulled ships. 
Our current Fleet of oilers will not start to retire until the 2020s, 
so there is no impact on the number of available oilers for Fleet 
operations. Finally, an ocean surveillance ship was added to the Navy's 
plan last year to provide greater operational depth to our current 
Fleet of five ships; however, after careful consideration, we concluded 
we could meet our operational needs with five ships and could cut the 
sixth ship with manageable risk.
    Ships are not the only platforms in our ``total force battle 
network''. Accordingly, the new defense strategic guidance also 
required us to review and evaluate the needs of our naval aviation 
community going forward into the 21st century. We plan to complete our 
purchases of both the F/A-18 Super Hornet and the EA-18 Growler within 
the next 2 years. The Department recently completed a review of our 
aviation requirements for the F-35 that validates our decision to 
purchase for the Navy and Marine Corps 680 F-35s over the life of the 
program. While we plan to slow procurement over the next 5 years to 
address program risks, especially concurrency, we remain committed to 
procuring 680 aircraft. The F-35B, the short-take-off-vertical-landing 
variant, completed successful at-sea trials onboard the USS Wasp and 
overall testing is proceeding very well. For the carrier version, the 
F-35C testing exceeded the plan by 30 percent last year. In light of 
this encouraging testing performance, we are even more confident that 
this multirole, cutting-edge platform will more than meet our tactical 
requirements in the future security environment.
    The Navy and the Marine Corps continue to carefully monitor strike 
fighter capacity requirements as well. Changes in the Marine's force 
structure, accelerated transition from the legacy Hornet aircraft to 
the Super Hornets, and a reduction in use resulted in an appropriately 
sized strike fighter aircraft inventory. Based on current assumptions 
and plans, our strike fighter aircraft shortfall is predicted to remain 
below a manageable 65 aircraft through 2028 with some risk.
    In the far term, the Navy will need to replace its F/A-18E/F Fleet. 
Pre-Milestone A activities are underway to define the follow-on F/A-XX 
aircraft. Options include additional F-35s, a variant of the Unmanned 
Carrier-Launched Airborne Surveillance and Strike (UCLASS) system, a 
new manned/unmanned platform, or some combination of these. While we 
remain committed to the first-generation UCLASS, which will provide a 
low-observable, long-range, unmanned ISR-strike capability that will 
enhance the carrier's future ability to project power in anticipated 
A2/AD threat environments, the target date for a limited operational 
capability has shifted by 2 years from 2018 to 2020 to reduce schedule 
and technical risk, as well as to meet the savings targets mandated by 
the BCA.
    The planned reduction in our cruiser inventory has decreased 
requirements for MH-60R Seahawk helicopters, allowing us to reduce 
procurement in this program by nine aircraft. Fiscal constraints have 
also led us to reduce E-2D Hawkeye and P-8 Neptune procurement over the 
FYDP. We still intend to procure all the aircraft originally planned 
but at a slower rate.

Future Force Structure Assessment and Re-Designation of Primary Mission 
        Platforms
    Given the broad refocus of the Department of Defense (DOD) program 
objectives reflected in the new defense strategy, the Navy has 
undertaken analysis of the existing force structure requirements and, 
in conjunction with ongoing internal DOD studies and planning efforts, 
is reworking an updated FSA against which future requirements will be 
measured. The new FSA will consider the types of ships included in the 
final ship count based on changes in mission, requirements, deployment 
status, or capabilities. For example, classes of ships previously not 
part of the battle force such as AFSBs developed to support SOF/
nontraditional missions, patrol combatant craft forward deployed to 
areas requiring that capability, and Comfort-class hospital ships 
deployed to provide humanitarian assistance, an expanded core Navy 
mission, may be counted as primary mission platforms. Any changes in 
ship counting rules will be reported and publicized. Any comments on 
total ship numbers in this statement are based on current counting 
rules.
    As noted earlier, in the years beyond the current FYDP, we have a 
plan that puts us back on track to increase our Fleet and ensure 
capacity matches the demands of the mission. However, with the Fleet 
and force we have today, we will meet the requirements of the new 
strategy, continue to protect our national interests, preserve our 
ability to deter or defeat aggressors, and maintain the industrial base 
needed.

Marine Corps
    After a decade of hard fighting in Iraq and Afghanistan, the Marine 
Corps will return to its maritime roots and resume its traditional role 
as the Nation's naval expeditionary force-in-readiness. We will 
carefully manage reduction in active duty end strength from 202,000 to 
182,100 by the end of fiscal year 2016. Drawing upon its long history 
of aligning its training and structure with areas of operations, the 
Marines will continue to provide tailored security force assistance and 
to build partnership capacity missions with allies and other regional 
partners. Along these same lines, the Marine Corps will continue to 
leverage the experience gained over the past decade of nontraditional 
warfare to strengthen its ties to the special operations community. The 
resulting middleweight force will be optimized for forward presence, 
engagement, and rapid crisis response through strategic positioning at 
forward bases in the Western Pacific and Indian Oceans, as well as 
renewed participation in traditional Amphibious Ready Group/Marine 
Expeditionary Unit (ARG/MEU) exercises. The Marine Corps shall maintain 
required readiness levels throughout the transition process. Most 
importantly, we will drawdown without breaking faith with Marines and 
their families.
    In summary, the Department's strategy calls for a world-class Navy-
Marine Corps team, and our plan delivers one that is fully ready to 
meet the current and emerging challenges. We will maintain a strong 
naval presence in the Western Pacific, Indian Ocean, and the Middle 
East. This will be accomplished by adjusting basing assignments for 
some units from the Atlantic to the Pacific, as well as by increasing 
the number of units operating from ports located in theaters of 
interest. We are still committed to strategic dispersal. The Department 
will, for example, operate four LCSs from Singapore. Similarly, we will 
continue to expand our usage of AFSB and coastal patrol boats around 
Africa and in the Arabian gulf to counter the growth of piracy and the 
growing threat of swarming small boats as well as to help partner 
nations build their own maritime capacity while upholding our national 
interests. We also received two high-speed ferries from the Maritime 
Administration, which will most likely operate in the Western Pacific 
supporting the peacetime transport of U.S. Marine Corps forces deployed 
to Okinawa and Australia.

Seapower and Naval Presence
    Since the end of the second World War, the Navy-Marine Corps team 
has acted as the guarantor of the global maritime commons, upholding a 
sophisticated set of international rules that rest upon two 
inextricably linked principles: free trade and freedom of navigation. 
These principles have supported an era of unprecedented economic 
stability and growth, not just for the United States but for the world 
at large.
    This period of growth has resulted in a truly ``globalized'' 
economy which owes much to the unique scalability and flexibility of 
our naval forces. We can reroute Navy ships and Marine Corps units to 
create appropriate responses as actions unfold. We can shift force 
concentrations from the Atlantic to the Pacific or from the southern 
oceans to northern seas with ease. From a single JHSV to a Carrier 
Strike Group and from a Marine Fleet Anti-terrorism Security Team to an 
Expeditionary Unit, combatant commanders can scale naval forces and 
their responses appropriately to emerging challenges across the 
spectrum of engagement. Our forces are flexible enough to shift from 
supporting combat air patrols over Afghanistan to providing 
humanitarian assistance and disaster relief in Japan at a moment's 
notice. Much of their flexibility derives from the use of the high seas 
as a vast, unencumbered maneuver space. This freedom of navigation 
allows our naval forces to gather information, perform surveillance and 
reconnaissance of seaborne and airborne threats, defend regional 
partners, interdict weapons of mass destruction, disrupt terrorist 
networks, deter, and, if necessary, defeat prospective adversaries.

                             LAW OF THE SEA

    The traditional freedom of the seas for all nations developed over 
centuries, mostly by custom, have been encoded within the United 
Nations Convention on the Law of the Sea (UNCLOS). This important 
treaty continues to enjoy the strong support of DOD and the Department 
of the Navy. The UNCLOS treaty guarantees rights such as innocent 
passage through territorial seas; transit passage through, under and 
over international straits; and the laying and maintaining of submarine 
cables. The convention has been approved by nearly every maritime power 
and all the permanent members of the UN Security Council except the 
United States. Our notable absence as a signatory weakens our position 
with other nations, allowing the introduction of expansive definitions 
of sovereignty on the high seas that undermine our ability to defend 
our mineral rights along our own continental shelf and in the Arctic. 
The Department strongly supports the accession to UNCLOS, an action 
consistently recommended by my predecessors of both parties.

                        NAVAL OPERATIONS IN 2011

    Naval presence serves as a deterrent against those who would 
threaten the national interests of the United States even as it assures 
allies and partners of our consistent commitment. Our enduring national 
security interests require our continued presence to provide the 
President and our Nation with credible response options to deter 
conflict and, if necessary, defend the United States' national security 
interests from the sea. From counterinsurgency and security force 
assistance operations in Afghanistan to ballistic missile defense and 
humanitarian assistance missions in Europe and the Western Pacific and 
naval engagement in South America and Africa, our sailors and marines 
are making a difference around the globe every day. On any given day, 
more than 72,000 sailors and marines are deployed and almost one-half 
of our 285 ships are underway, responding to tasking where needed by 
the combatant commanders.
    Visiting our forward-deployed forces and meeting with allies and 
partners, commanders and staffs, and our marines and sailors on the 
ground provides insights as to how we can better support all of their 
critical efforts. In June, September, and again in December, I 
travelled to Helmand province in Afghanistan on behalf of the 
Department and visited forward operating bases. These were my fifth, 
sixth, and seventh trips to theater in Afghanistan. In each area, 
Taliban offenses and infiltration had been forcefully rebuffed. 
Critical relations had been built with local Afghan leaders and 
significant progress has been made towards the goal of creating 
effective Afghan security forces that will be able to build on these 
efforts. I also visited Camp Leatherneck and, among other things, 
toured the Concussion Restoration Care Center where I met with wounded 
warriors. At all of my stops, I expressed the appreciation of the 
American people for the courage and sacrifices of our marines and 
sailors who serve alongside them on the field of battle.
    For more than 6 decades, our Navy-Marine Corps team has been the 
strongest naval force afloat and we are committed to maintaining this 
position of influence. Our strength, versatility, and efficacy derive 
from our unique capacity for global reach, our focus on warfighting 
excellence and our commitment to maintaining naval presence in regions 
vital to our national interests. We cannot predict the exact nature of 
the challenges facing the Department in the 21st century, but a glimpse 
back at operations in 2011 illustrate the increasing variability of 
events that required a flexible naval response.
    Special Operations.--United States Navy SEALs remain decisively 
engaged throughout the globe conducting the Nation's most sensitive and 
important counterterrorism operations. They served with great 
distinction in Iraq and continue to serve in Afghanistan with telling 
effect. From the killing or capturing of the most wanted terrorists to 
the rescue and recovery of captured American citizens abroad, we ask 
them to do the most daunting of missions.
    Operations in Iraq, Afghanistan, and Libya.--Having completed 
operations in Iraq, the Department has maintained more than 23,000 
marines and sailors in Afghanistan, largely associated with Regional 
Command-Southwest based in Helmand province. This force provides 
security and seeks to build the self-defense capacity of our Afghan 
partners. Currently, the Navy has deployed just more than 8,000 sailors 
on the ground, 2,920 of whom are reservists, across the Central Command 
supporting joint and coalition efforts. Another 10,000 sailors are in 
the Arabian gulf and the Indian Ocean supporting combat operations from 
destroyers, submarines, supply vessels, and aircraft carriers, which 
launch around 30 percent of the aircraft conducting combat air patrols 
over Afghanistan. On the first day during the opening moments of 
Operation Odyssey Dawn in Libya, the U.S. Navy launched 122 Tomahawk 
cruise missiles from two surface ships and three submarines, including 
the guided missile submarine USS Florida, the first time one of these 
converted ballistic missile submarines has fired ordnance in live 
operations. Ground-based Navy E/A-18G Growlers flying combat missions 
in Iraq were repositioned to support Odyssey Dawn, and within 44 hours, 
engaged hostile forces in Libya. When violence erupted across northern 
Africa and the Middle East, significant portions of the USS Kearsage 
ARG and 26th MEU, then off the coast of Pakistan, were directed to take 
station off the coast of Libya.
    Ballistic Missile Defense.--Another newly emergent mission centers 
on the ballistic missile defense (BMD) capable Ticonderoga-class 
cruisers and Arleigh Burke-class destroyers that provide homeland 
defense-in-depth as well as the protection of U.S. and allied forces in 
distant theaters. As ballistic missile capabilities have proliferated 
around the globe, the demand for BMD capable ships has increased 
dramatically. For example, over the past year, BMD ships like the USS 
Ramage, USS Monterey, and USS Stout took up station in the Eastern 
Mediterranean to provide BMD for both Europe and Israel. Elsewhere, 
elements of Destroyer Squadron Fifteen provided similar support in the 
waters surrounding Japan.
    Humanitarian Assistance and Disaster Relief.--Following the 
devastating earthquake and tsunami last year that resulted in the 
deaths of more than 15,000 Japanese citizens, the displacement of 
thousands, and the worst nuclear accident since Chernobyl, the Ronald 
Reagan Strike Group, en route to support combat operations missions in 
Afghanistan, was diverted to Japan to provide humanitarian assistance. 
Upon arrival, instead of combat, the crews were employed to shuttle 
tons of water, food, and blankets to displaced victims ashore, while 
the strike group's ships simultaneously served as landing and refueling 
stations for Japanese self-defense force (JSDF) rescue helicopters 
operating in the region. The Reagan Strike Group supplemented units of 
the USS Essex ARG with its embarked 31st MEU, which is forward deployed 
in Japan, in what became known as Operation Tomodachi--``Friendship'' 
in Japanese. Elements of the USS Essex ARG airlifted more than 300 JSDF 
personnel and 90 vehicles from Hokkaido to disaster areas while USNS 
Safeguard and Mobile Dive and Salvage Unit One transported relief 
supplies to Yokosuka for distribution throughout the affected areas. 
Additionally, the Navy transported the equipment and personnel of the 
Pearl Harbor Naval Shipyard's Radiological Control Team as well as the 
Marine Corps' Chemical Biological Incident Response Force to Japan to 
assist with nuclear monitoring efforts.
    Anti-Piracy.--Throughout the year the Navy performed the critical 
mission of combating piracy and supporting the anti-piracy efforts of 
our allies and partners in the region. Ships operated in conjunction 
with allies and partners in the vicinity of the Horn of Africa to 
prevent the disruption of the free flow of trade in the Gulf of Aden. 
More recently elements of the Stennis Strike Group freed Iranian 
citizens who were being held hostage by pirates in the Arabian Sea. 
Their actions directly resulted in the capture or killing of 21 pirates 
and the freeing of 38 hostages.
    Partnership Stations and Maritime Exercises.--The Navy remains 
committed to building our partner nations' capacities to provide for 
their own maritime security. This year we once again created 
``partnership stations'' in the Pacific Ocean and Caribbean Sea, off 
the coast of South America and around the continent of Africa to work 
with local navies to educate their leaders, train their sailors, 
strengthen their material infrastructure, increase their maritime 
domain awareness, and raise their response capacity. USS Cleveland, USS 
Oak Hill, USS Robert G. Bradley, the hospital ship USNS Comfort and 
high-speed vessel Swift were strategically deployed to work with the 
maximum number of partner navies to provide medical care and security 
training while building local naval capacity to plan and conduct 
operations in the maritime environment.
    Last, with an eye to the future of naval and maritime operations in 
an increasingly ice-free Arctic, the Virginia-class submarine USS New 
Hampshire and the Seawolf-class submarine USS Connecticut conducted Ice 
Exercise 2011 with Canadian and United Kingdom counterparts in the 
Arctic Ocean.

                             AIR-SEA BATTLE

    The Navy and Marine Corps are working with the Air Force to 
implement the Air-Sea Battle concept which seeks to improve integration 
of air, land, maritime, space, and cyberspace forces in order to 
provide combatant commanders the range of military capabilities 
necessary to maintain operational access and deter, and if necessary 
defeat, an adversary employing sophisticated A2/AD capabilities and 
strategies.
    The Air-Sea Battle concept leverages the military and technological 
capabilities as well as unprecedented Naval and Air Force 
collaboration, cooperation, integration, and resource investments 
within the services' purview to organize, train, and equip.
    The jointly manned Air-Sea Battle Office has defined a series of 
initiatives to achieve the capabilities and integration required in 
future naval and air forces so that combatant commanders have the tools 
necessary to ensure U.S. freedom of action in future years.
    As we work to implement and enhance the Air-Sea Battle concept, the 
Navy continues to invest in capabilities to counter advanced A2/AD 
challenges, including:
  --BMD enhancements both in the Aegis Combat System and the Standard 
        Missile, as well as myriad ``soft-kill'' initiatives;
  --integration of advanced air and cruise missile defense 
        capabilities;
  --harpoon missile replacement, which will increase the range (and 
        speed) at which we can engage enemy surface combatants armed 
        with advanced anti-ship cruise missiles;
  --Virginia-class submarines and the VPM, which has the potential to 
        mitigate the loss of the SSGN undersea strike capacity when 
        they retire in the mid-2020s;
  --improvements in Joint Force Command, Control, Communications, 
        Computers; and intelligence, surveillance, and reconnaissance 
        capabilities which will significantly increase our information 
        gathering and warfighting coverage in access-challenged areas, 
        as well as provide counters to adversary capabilities; and
  --cyberspace capabilities.

                        DEPARTMENTAL PRIORITIES

    The Department must adhere to four key priorities with strategic, 
tactical, operational and management elements if we are to maintain our 
position as the world's most formidable expeditionary fighting force 
while continuously evolving our Navy and Marine Corps as a strategic 
asset that provides our Commander-in-Chief with the broadest range of 
options in a highly dynamic international security environment. These 
priorities remain:
  --taking care of our sailors, marines, civilians, and their families;
  --treating energy as a strategic national security issue;
  --promoting acquisition excellence and integrity; and
  --continuing development and deployment of unmanned systems.
    These principles guide the direction of the Department, from 
training our recruits at Great Lakes, Parris Island, and San Diego, to 
our ongoing operations in central Asia and the Western Pacific, to 
acquiring the Navy and Marine Corps of the future.
    In the end it all comes down to stewardship; the careful management 
of our people, platforms, infrastructure, and energy to guarantee that 
your Navy and Marine Corps are ready to defend our Nation's interests.
Taking Care of Sailors, Marines, Civilians, and Their Families
    As we move forward, the Department is committed to our most 
important asset--our sailors, marines, civilians, and their families. A 
large part of our commitment is the careful attention to pay and 
benefits. No one's pay will be cut; only the growth of pay is slowed in 
the later years of our 5-year plan. Specifically, we are proposing 
continued pay raises at 1.7 percent for military personnel in fiscal 
year 2013 and fiscal year 2014, in line with the private sector, 
recognizing the continued stress on our forces and their families, and 
providing time for families to adjust.
    We support asking the Congress to establish a commission with 
authority to conduct a comprehensive review of military retirement in 
the context of overall compensation. The Commission should seek ways to 
identify improvements in the military retirement system, ensuring any 
proposed change to military retirement supports required force profiles 
of DON in a cost-effective manner. We believe that the Commission 
should protect, through grandfathering, the retirement benefits of 
those currently serving.
    With so much of our defense strategy dependent upon our Navy and 
Marine Corps, we must ensure that our resources support the most combat 
effective and the most resilient force in our history. We must set high 
standards, but at the same time we must provide individuals with the 
services needed to meet those standards. The Department will soon 
announce the 21st century sailor and marine initiative, which is a set 
of objectives and policies across a spectrum of wellness that maximizes 
sailor and marine personal readiness. The program consists of five 
pillars:
  --readiness;
  --safety;
  --physical fitness;
  --inclusion; and
  --the continuum of service.
    Readiness will ensure sailors, marines, civilians, and their 
families are prepared to handle the mental and emotional rigors of 
military service. Both services are introducing campaigns this year to 
deglamorize, treat, and track alcohol use. We will also develop new 
means to reduce suicides and increase our family and personal 
preparedness programs. This includes zero tolerance for sexual assault. 
The DON Sexual Assault Prevention and Response Office was created and 
made part of the secretarial staff to keep the issue at the front of 
the discussion, to strengthen the lines of communication with the Navy 
Judge Advocate General (JAG) and Naval Criminal Investigative Service 
(NCIS), and to make sure the Secretariat received frequent updates 
about the incidents of sexual assault and our progress towards reducing 
the number of attacks. We are continually working to improve the 
reporting, investigation, and disposition of sexual assault cases 
ensuring commanders, investigators, and prosecutors receive sufficient 
training and appropriate resources. Last year, JAG finalized a complete 
revision of the advanced trial advocacy courses that train litigators 
involved in sexual assault cases as well as filled the Deputy Director 
of the Trial Counsel Assistance program position with a senior civilian 
sexual assault litigator. JAG and NCIS are working aggressively to 
educate lawyers and agents on the unique aspects of sexual assault 
cases. NCIS has hired personnel to provide assistance and support to 
NCIS special agents; this will enable special agents to focus on 
conducting investigative activities, trial preparation, and 
prosecutorial testimony relative to adult sexual assaults.
    Our efforts to ensure the safest and most secure force in the 
Department's history extend to encouraging the safe use of motor 
vehicles and motorcycles.
    Physical fitness is an important central pillar that resonates 
throughout the 21st century sailor and marine program. Personal fitness 
standards throughout the force will be emphasized. We will also improve 
nutrition standards at our dining facilities with the introduction of 
``Fueled to Fight''. Fueled to Fight ensures that healthy food items 
will be available and emphasized at every meal.
    The Department will be inclusive and consist of a force that 
reflects the Nation it defends in a manner consistent with military 
efficiency and effectiveness. The Department will also reduce 
restrictions to military assignments for personnel to the greatest 
extent possible, consistent with our mission and military requirements. 
We must ensure that all who want to serve have opportunities to succeed 
and barriers that deny success are removed. Nothing reflects our core 
values of honor, courage, and commitment better than having an 
organization characterized by fairness and dedication. Last year for 
the first time ever, 16 women were assigned to submarines. This will 
expand command-at-sea opportunities and eventually increase the chances 
for more women to be promoted to admiral. Additionally, we need an 
officer corps that is representative of the enlisted force it leads. 
Through increased minority applications from diverse markets, the 
United States Naval Academy and Naval Reserve Officers' Training Corps 
(NROTC) programs are achieving historical racial and ethnic diversity 
rates. The United States Naval Academy received nearly 7,000 minority 
applications for its class of 2014, nearly double that of the class of 
2010. Along with recent NROTC additions at Harvard, Yale, Columbia, and 
Arizona State University (with the largest undergraduate population in 
the country), next we are establishing an NROTC unit at Rutgers 
University. Not only is it one of the Nation's top engineering schools, 
but more than one-half of its class of 2014 identify themselves as 
minority.
    The final pillar, continuum of service, will provide the most 
robust transition support in the Department's history. Individuals 
choosing or selected for either separation or retirement will be 
afforded a myriad of assistance programs and benefits that are 
available to them as they transition to civilian life. These programs, 
which include education benefits, transition assistance, career 
management training, counseling, life-work balance programs, and 
morale, welfare, and recreation programs, have been recognized by human 
resource experts as some of the best corporate-level personnel support 
mechanisms in the Nation.
    Because the Navy and the Marine Corps were highly successful in 
meeting their recruiting goals, we have been able to be very selective, 
accepting only the very best candidates who are morally, mentally, and 
physically ready to serve. Historically high-retention rates have put 
us below our active duty manning ceiling of 322,700 sailors and 202,100 
marines. Our recruiting classes have gotten smaller, as have our ``A'' 
school classes, and promotion rates from E-4 to E-6 have fallen as 
well. More officers in the O-5 and O-6 pay grades are choosing to 
remain on active duty rather than retire, leading to smaller promotion 
selection groups and repeated adjustments to promotion zones.
    We have attempted to deal with this challenge within the enlisted 
ranks by instituting the ``Perform to Serve'' program that used a 
detailed algorithm to advise personnel specialists on who should be 
allowed to re-enlist, but this approach did not fully address either 
the systemic manning challenge confronting us or the unsustainable 
overmanning in certain enlisted ratings. This past year, given fiscal 
constraints and manpower draw-downs, we decided to confront the problem 
head on and convened special administrative enlisted retention boards, 
senior enlisted continuation boards, and officer selective early 
retirement boards to pare back overmanned enlisted ratings and officer 
ranks. It was a difficult decision to use these force management tools, 
but the future of the Department requires us to fix the problem now 
rather than further delaying a decision.
    Another vital support program that we remain committed to is the 
support we provide to our wounded warriors. Since 2001, more than 900 
sailors and nearly 13,000 marines have been wounded as a result of 
combat operations in Iraq and Afghanistan. This year we completed the 
alignment of the Army's Walter Reed Medical Center with our own 
National Naval Medical Center in Bethesda, and we continued to invest 
in the doctors, techniques, and technologies to care for the injuries 
that have become representative of modern warfare:
  --traumatic brain injury;
  --amputations;
  --burns; and
  --post-traumatic stress disorder.
    The requirements for the Purple Heart were updated to include the 
immediate and lasting damage associated with brain injuries.
    Part of our commitment centers around the families and caregivers 
that support our wounded warriors as they endure the challenges of 
recovery, rehabilitation, and reintegration. The 2010 National Defense 
Authorization Act provided a Special Compensation for Assistance with 
Activities in Daily Living to help offset income lost by those who 
provide nonmedical care and support to servicemembers who have incurred 
a permanent catastrophic injury or illness.
    Driven by the moral obligation to assist our injured heroes, the 
Department has set a goal of being able to offer every combat wounded 
sailor or marine an opportunity to continue their service as a civilian 
on the Navy/Marine Corps team. Our Wounded Warrior Hiring and Support 
Initiative aims to increase the number of veterans with a 30 percent 
and above service-connected disability into our workforce. Through this 
initiative, we have hired more than 1,000 veterans with 30 percent and 
above service-connected disability rating in fiscal year 2010 and 
fiscal year 2011. Our Naval Sea Systems Command alone hired 509 
service-disabled veterans for fiscal year 2011, exceeding its goal of 
hiring one veteran for each day of the fiscal year. We recently held 
our second annual Wounded Warrior Hiring and Support Conference to 
provide prospective employers and human resource professionals with the 
tools and resources to enable them to hire, train, and retain our 
wounded warriors in the civilian workplace.
    This past August the President announced his Veteran's Employment 
Initiative that extends tax credits to businesses that hire veterans. 
We work with the Departments of Veterans Affairs and Labor to establish 
programs that ease the transition of veterans into the civilian world. 
We are also heavily engaged through the Yellow Ribbon Program in 
supporting the reintegration efforts of our reserve forces.
    I want to address the defense budget proposals regarding healthcare 
costs. The DON and DOD on the whole continue to face rapidly rising 
costs in healthcare. In 2001, DOD healthcare costs were approximately 
$19 billion. By 2010 that amount had risen to $51 billion and as a 
percentage of our budget is approaching 10 percent. This rate of rise 
cannot be sustained. We continue to streamline our staffs and standard 
operating procedures in an ongoing effort to manage costs while 
retaining quality patient care and overall customer satisfaction. One 
area where we continue to be challenged is system accessibility for our 
retiree community, especially in areas where bases have been closed due 
to the base realignment and closure process, leaving behind a large 
retiree population with no local access to military treatment 
facilities. Increasing use of the affordable Mail Order Pharmacy 
program and implementing modest fee increases, where appropriate, would 
go far toward ensuring the long-term fiscal viability of the system 
while preserving equity in benefits for our retirees.
    I consider my obligations to the well-being of every sailor and 
marine, and every family member under their care to be sacrosanct. We 
worked carefully to develop these proposals, with all participants--the 
Government, the providers of healthcare, and the beneficiaries-sharing 
in the responsibility to better manage our healthcare costs. I have 
previously asserted that as a former Governor, I well know that the 
growth in healthcare costs is an issue for the country, not just the 
military. But, we all have to do our part. The TRICARE benefit remains 
one of the best benefits in the country. I hope you will support our 
proposed changes.
    Also this past year the Department, along with the other military 
departments, worked with the U.S. Chamber of Commerce and more than 70 
employers to launch a program targeted at expanding the career 
opportunities for military spouses. The Military Spouse Employment 
Partnership seeks to help the business community recognize the skills 
and talents that military spouses bring to the workforce but are unable 
to fully leverage due to frequent moves of the servicemember in the 
family. This partnership between the military and the business 
community promises to tap into the energy of one of the most hard-
working, highly skilled, educated, and yet under-utilized segments of 
our population.
    Overall, the fiscal year 2013 budget reflects a responsible request 
for the fiscal support and resources required to support our marines, 
sailors, their families, and our retirees in the face of increasing 
operational pressures and financial demands upon them. Thank you for 
your continuing support.

Energy Security and Sustained Leadership
    We must reform how the Navy and the Marine Corps use, produce, and 
procure energy, especially in this fiscally constrained environment. We 
must use energy more efficiently; however, the Department must also 
lead on alternative energy or we will leave a critical military 
vulnerability unaddressed, further straining the readiness of our 
sailors and marines to be able to respond wherever and whenever called 
to defend and protect America's interests.
    Fuel is a tactical and operational vulnerability in theater; 
guarding fuel convoys puts our sailors' and marines' lives at risk and 
takes them away from what we sent them there to do:
  --to fight;
  --to engage; and
  --to rebuild.
The Department is also exposed to price shocks in the global market 
because too much fuel comes from volatile regions, places that are 
vulnerable to instability and ruled by regimes that do not support our 
interests. Every time the cost of a barrel of oil goes up $1, it costs 
the Department $30 million in extra fuel costs. In fiscal year 2012 
alone, in large part due to political unrest in oil-producing regions, 
the price per barrel of oil is $38 more than was budgeted increasing 
the Navy's fuel bill by more than $1 billion. These price spikes must 
be paid for out of our operations funds. That means that our sailors 
and marines are forced to steam less, fly less, and train less. The 
threat of price spikes is increased by the vulnerability of choke 
points. Energy analyst have speculated that if Iran ever succeeded in 
closing the Strait of Hormuz, the price of oil could rise by 50 percent 
or more in global markets within days.
    We would never let the countries we buy oil from build our ships or 
our aircraft or our ground vehicles, but we give them a say on whether 
those ships sail, whether those aircraft fly, whether those ground 
vehicles operate because we buy their oil. As a Nation we use more than 
22 percent of the world's fuel, but only possess less than 2 percent of 
the world's oil reserves. Even if we tap every domestic resource we do 
not have enough to meet all of our needs over time, and as a minority 
producer of fuel we will never control the price.
    That is why in the fall of 2009, I established five goals for the 
Department, the broadest of which is that by no later than 2020, 50 
percent of the Department's energy will come from alternative sources. 
These goals drive the Navy and the Marine Corps to use energy more 
efficiently, to explore wider use of alternative energy, and to make 
energy a factor in the acquisition of our next ships, tactical 
vehicles, and aircraft.
    As one example of our success, the Marine Corps continues to 
aggressively pursue technologies that will help achieve greater energy 
efficiency while increasing combat effectiveness in the theater. The 
Third Battalion, Fifth Marines, deployed to the Helmand Province in 
Afghanistan with solar blankets to power radios, LED lights to 
illuminate tents, and solar generators to provide power. One 3-week 
patrol was able to reduce their carrying weight by 700 pounds, reducing 
the number of dangerous resupply missions needed. Even in a tough fight 
in Sangin, the marines managed to cut fuel use and logistical support 
requirements by 25 percent at main operating bases and up to 90 percent 
at combat outposts by relying on these alternative energy technologies. 
The Marine Corps is committed to finding more innovative solutions to 
decreasing dependence on convoys by conducting two experimental forward 
operating bases per year (one in Twentynine Palms and one in Camp 
Lejeune).
    Another initiative to increase alternative energy supply is using 
advanced, drop-in biofuel in aircraft and ships. Our criteria for this 
fuel are straightforward. It must be ``drop in'' fuel requiring no 
changes to our aircraft or our ship or our infrastructure; it must be 
derived from nonfood sources; and its production should not increase 
our carbon footprint as required by law. In 2011, the Department 
completed testing on 50/50 blends of drop in biofuel and jet fuel on 
all manned and unmanned aircraft, including an F/A-18 Hornet at MACH 
1.7 and all six Blue Angels during an air show. The Department has also 
tested an experimental Riverine Command Boat, a self-defense test ship, 
a ridged hull inflatable boat, and a Landing Craft Air Cushion that 
traveled at more than 50 knots.
    In March of this past year, the President directed the Departments 
of Agriculture, Energy, and the Navy to partner with the private sector 
to catalyze a domestic, geographically dispersed, advanced biofuel 
industry for the United States. In response to this directive, Energy 
Secretary Dr. Steven Chu, Agriculture Secretary Tom Vilsack, and I 
signed a memorandum of understanding (MOU) committing our departments 
to jointly partner with industry to construct or retrofit multiple 
domestic commercial or pre-commercial scale advanced drop-in biofuel 
refineries capable of producing cost competitive fuels. Under the MOU 
we issued a request for information in August, which drew more than 100 
responses in 30 days from companies ranging from major oil companies 
and large defense contractors to small businesses.
    In December, Defense Logistics Agency energy awarded a contract on 
our behalf to purchase 450,000 gallons of biofuel; the single largest 
purchase of biofuel in Government history. The Department will use fuel 
from this purchase--awarded to the most competitive bidder under full 
and open competition--to demonstrate the capability of a carrier Strike 
Group and its air wing to burn alternative fuels in a full operational 
environment including underway replenishments for destroyers and 
refueling of helos and jets on the deck of an aircraft carrier. The 
demonstration will take place as part of the Rim of the Pacific naval 
exercise.
    We are also pursuing efficiencies measures in our fleet. The USS 
Makin Island, the Navy's first hybrid electric-drive ship, saved $2 
million on its maiden voyage from Pascagoula, Mississippi to its 
homeport in San Diego, California. It is estimated to save 
approximately $250 million in fuel costs over the course of its 
lifetime--approximately 40 years--at current energy prices.
    A hybrid electric drive system will also be installed as a retrofit 
proof of concept on the USS Truxtun (DDG 103)--an existing Navy 
destroyer. We estimate that successful testing will result in fuel 
savings of up to 8,500 barrels per year. If these tests are successful 
we will continue to install hybrid electric drives as a retrofit on 
other DDGs in the fleet. The U.S. Navy has been installing stern flaps 
to reduce drag and energy on amphibious ships in an effort to make them 
more fuel-efficient, which could save up to $450,000 annually in fuel 
costs per ship.
    Whether it is the procurement of new ships and aircraft or the 
retrofit of existing platforms, we are making energy a consideration in 
the acquisition process. In addition to traditional performance 
parameters such as speed, range, and payload, the Department is 
institutionalizing energy initiatives that will save lives, money, and 
increase warfighting capability. Analyzing energy costs during the 
``analysis of alternatives'' phase of major defense acquisition 
programs will ensure warfighters get the speed, range, and power they 
require, as well as help the Department manage the life-cycle costs of 
its systems. The Marine Corps pioneered this approach last year by 
including system energy performance parameters in developing a new 
surveillance system and the Navy has included energy criteria as part 
of the procurement of the LSD-X.
    All across our shore installations, the Navy and the Marine Corps 
are also undertaking energy-efficiency initiatives and installing 
alternative energy wherever practical. As just one example, at China 
Lake Naval Air Weapons Station we are a net contributor to the local 
power grid, creating more than 270 megawatts (MW) of clean, affordable 
geothermal power in partnership with the private sector.
    And in January, we tapped the vast renewable energy resources 
available at China Lake again breaking ground on a 13.8MW solar array, 
offsetting 30 percent of the base's electric load. The contract is a 
20-year power purchase agreement (PPA) having no upfront costs to the 
Navy and saving the Navy $13 million during its term.
    To meet the energy goal of 50-percent alternative energy ashore, I 
have directed the Navy and the Marine Corps to produce or consume one 
gigawatt of new, renewable energy to power naval installations across 
the country using existing authorities such as PPAs, enhanced use 
leases, and joint ventures. One gigawatt of renewable energy could 
power 250,000 homes, or a city the size of Orlando. This will be a 
broad and dynamic project that, over the life of the contract, will not 
cost the taxpayer any additional money, and will create domestic 
private sector jobs. This will be our path to unlocking our Nation's 
clean-energy potential that leaves our military more secure, agile, 
flexible, and ready.
    To further facilitate our partnerships with industry, the 
Department is trying to make our contracting opportunities more 
accessible. Two years ago, we introduced a Web site called Green Biz 
Ops which aggregates our energy and efficiency opportunities for 
procurement. This site helps all companies interested in doing business 
with the Navy--and especially small businesses--find opportunities in 
one place. In partnership with the Small Business Administration last 
year our agencies launched a ``2.0'' version of Green Biz Ops called 
the Green Procurement Portal which expands the site to include more 
features as well as energy opportunities across DOD and the Federal 
Government.
    To prepare our leadership to achieve our energy goals, this fall 
the Naval Postgraduate School (NPS) began offering a dedicated energy 
graduate degree program, the first military educational institution to 
do so. Later this year, NPS will launch an Executive Energy Series to 
bring our senior leadership together to discuss specific energy 
challenges that confront the Navy and the Marine Corps. This energy-
focused masters degree program and the executive energy series will 
target both the current and future civilian and military leadership of 
the Navy and the Marine Corps.
    Further, promotion boards have been directed to specifically 
consider the background and experience in energy some of our men and 
women in uniform are gaining today. Energy is not just an issue for the 
future or just the young officers and policy experts that attend NPS. 
It is an issue for all of us.
    Those who question why the Navy should be leading on energy should 
study their history. The Navy has always led in new forms of energy: 
shifting from wind to coal-powered steam in the middle of the 19th 
century, from coal to oil in the early 20th century, and pioneering 
nuclear power in the middle of the 20th century.

Promoting Acquisition Excellence and Integrity
    Especially given the fiscal reality of our budget deficit, we are 
fully cognizant of our responsibility to the President, the Congress, 
and the American people to spend this money wisely. What history shows 
us is that when budgets are tight we should get smarter about the way 
we spend our money. As noted earlier, rebuilding our fleet has been and 
will continue to be a top priority of this administration. Achieving 
this lies at the heart of the acquisition excellence initiative that 
has been a priority for the Department for almost 2 years now, because 
if we do not get smarter about how we buy, in addition to what we buy, 
we are not going to be able to afford the Navy and the Marine Corps 
that the Nation needs in the future.
    Improving how we buy means that we have to take actions against 
fraud and shoddy contractors. The Department's General Counsel and the 
Assistant Secretary of the Navy for Research, Development, and 
Acquisition are authorized to take the swiftest and strongest action in 
any case where bribery or attempts to gain preferential contracting 
treatment are substantiated. When a violation occurs, RDA may terminate 
the contract and assess damages immediately, in addition to pursuing 
suspension and debarment. The Department's Acquisition Integrity 
Program was recently recognized by the Government Accountability Office 
as one of the more effective at using suspension and debarment 
practices.
    The Department's role in the President's new defense strategy is 
clear and will drive acquisition programs underway or in development. 
We will carefully define program requirements and then drive 
affordability through aggressive ``should cost'' oversight and 
competition where possible, such as the fixed-price contracts we 
negotiated for the LCS or the multiyear procurements that we negotiated 
for Virginia-class submarines. Innovative funding strategies and stable 
industrial base workload further allow for efficiencies that provide 
opportunities to acquire more ships more affordably.
    To keep our technological advantage, we plan to invest in science 
and technology and research and development to maintain the knowledge 
base and keep it moving forward. This is the lesson of the 1920s and 
1930s when so much of the technologies that became critical to our 
victory in World War II were kept alive in military, academic, and 
industrial laboratories. Times and technologies change, and we need to 
preserve the capability to change with them. Proper funding of our labs 
and research centers is key to incubating the next ``game-changing'' 
breakthroughs that will sustain the United States military advantage 
over time.
    The acquisition workforce was downsized over the past 15 years and, 
in truth, was stretched too thin. Accordingly, and with your strong 
support, we are increasing the number of acquisition professionals and 
restoring to the Government the core competencies inherent to their 
profession and to our responsibilities in the Department to organize, 
train, and equip the Navy and the Marine Corps. The Department has 
grown its acquisition workforce by 4,400 personnel since starting the 
effort 2 years ago, increasing its technical authority and business 
skill sets.
    Additionally, the Department is keeping program managers in place 
longer to build up their experience, expertise, and oversight on 
individual programs. We are also investing in education for our program 
managers. As an example, we send all of our program managers to an 
intensive short course at the graduate business school at the 
University of North Carolina, specifically targeting a better 
understanding of our defense contractors:
  --what motivates them;
  --what are their financial situations; and
  --how can we work with them to achieve a win-win contract award for 
        both the taxpayer and the stockholder.
    We are also changing the way in which we evaluate our program 
leaders to incentivize them to work with their industry counterparts to 
manage costs.
    Over the FYDP, affordability will continue to be a central concern 
of this Department. As resources are tight, cost has got to be one of 
the primary considerations of every program, and it ought to be driven 
by ``should cost, will cost'', methods. ``Should cost'' scrutinizes 
each contributing ingredient of program cost and seeks to justify it. 
The ``will cost'' method represents an effort to budget and plan 
weapons acquisition programs using realistic independent cost estimates 
rather than relying on those supplied by the manufacturer. Make no 
mistake, our focus will remain on the security of our primary customer, 
the American people, for whom we will build the best possible Fleet for 
the future.
            Shipbuilding/Industrial Base
    A healthy industrial base is critical to supporting the 
Department's top priorities. The dangerous downward trend in our ship 
inventory has been and must stay reversed. Even though we face 
increased fiscal constraints, we still plan, as we noted earlier, to 
grow the fleet to 300 ships by 2019. We want to increase the number of 
our highly capable large surface combatants to meet the President's 
directive that we confront the growing ballistic missile threat to the 
United States and its allies, while strengthening our small combatant 
inventory to provide the presence needed to maintain freedom of 
navigation. We have to make significant investments in support vessels 
while continuing our investment in our nuclear submarine force and 
maintaining the viability of our last yard capable of building nuclear-
powered aircraft carriers.
    What all this means is that we will need to closely monitor the 
shipbuilding industrial base as we move forward. Much as with energy, 
we need to ensure diversity in supply moving forward. We need to 
strengthen our relationship with traditional shipbuilders, but we need 
to reach beyond them to small- and mid-tier shipbuilders to develop 
innovative designs and new construction techniques to meet emerging 
threats.

Developing and Deploying Unmanned Systems
    When I took office in 2009, unmanned systems were already at work 
within the Department. To assist our troops on the ground in Iraq and 
in Afghanistan we had either purchased or contracted for thousands of 
unmanned aerial vehicles that flew hundreds of thousands of hours in 
support of our mission. Despite their demonstrated utility, there was 
no vision of where unmanned systems belonged in the Navy and the Marine 
Corps future force structure or coherent plan to achieve that vision. 
Over the past 2 years, the Services have worked hard to develop a plan 
and the presence and reach of our unmanned systems have expanded, 
including the first expeditionary deployment of a Fire Scout Vertical 
Takeoff and Landing unmanned aerial vehicle, and the first successful 
flight of the unmanned combat air system, which will begin carrier 
demonstrations later this year. In total, nearly 1,500 unmanned aerial 
systems deployed into theater.
    In the fleet, unmanned systems need to be integrated into 
established operational communities. The Marine Corps have been out in 
front on this effort, having established four unmanned aerial system 
squadrons over the past quarter century, and the Navy is working on 
these capabilities as well. This past year a detachment of Helicopter 
AntiSubmarine Squadron 42 deployed with a SH-60B Helicopter and a MQ-8B 
Firescout and supported combat operations in Libya and counter piracy 
operations in the Gulf of Aden. In both environments, they leveraged 
the operational flexibility and low-signature characteristics of 
unmanned systems to support local commanders while keeping sailors and 
marines safe from danger. Additionally, our Tactical Air Control 
Community took possession of their first small tactical unmanned aerial 
system this past year and began to integrate it into the Surface 
Warfare community's day-to-day operations. In the future, the Maritime 
Patrol and Reconnaissance Aviation community, soon to take delivery of 
the P-8A Poseidon, will add the MQ-4C Broad Area Maritime Surveillance 
unmanned aerial system to their squadrons and hangars, extending the 
reach and persistence of maritime reconnaissance capabilities.
    We will test and field mine hunting and then mine sweeping 
capability of the Mine Countermeasures Mission Module in LCS, employing 
airborne and remotely operated vehicles to reduce the risk to sailors 
and the cost. Current developmental testing of the Increment I Mine 
Warfare mission package is underway in USS Independence, demonstrating 
mine hunting capability with the AN/AQS 20A mine hunting sonar set, 
towed by the remote multimission vehicle. Future increments will 
incorporate autonomous mine sweeping and the ability to find buried 
mines using unmanned surface and underwater vehicles.
    The UCLASS system is changing the way we plan to deliver 
reconnaissance and strike capabilities from our venerable aircraft 
carrier platforms. Designed to operate in contested airspace and 
conduct ISR or strike missions over extended periods of time, the 
UCLASS at sea will differ fundamentally from the standard operating 
procedures of both manned carrier aircraft or land-based unmanned 
aircraft. Unlike with a manned carrier aircraft that is mostly used to 
maintain the qualifications of its pilot, a UCLASS airframe will be 
employed only for operational missions and pilots will maintain 
qualifications in the simulator, extending its useful life expectancy 
considerably. Its airborne mission time will not be limited by human 
physiology but rather will be determined by the availability of tankers 
to refuel it, ordnance expenditure, or the need to change the oil after 
many hours of flight time. This will allow us to launch from greater 
distances, effectively negating emergent A2/AD technologies. We have 
only just begun to understand the potential of this unmanned system and 
the capabilities that will spiral from it.

                               CONCLUSION

    Our Constitution requires that the Congress ``maintain a Navy.'' We 
do so with the world's most advanced platforms, equipped with cutting-
edge weapons systems and manned by crews who receive the best training 
possible is a credit to our Nation. The Navy that fought and defeated a 
more advanced British Navy in the War of 1812 looked very different 
from the Navy of 2012. But our sailors and marines continue to live up 
to that legacy forged 200 years ago. Today, your Navy and Marine Corps 
are deployed across the spectrum of engagement from rendering 
humanitarian assistance to combat. They often seem to be everywhere 
except at home. They bring to these efforts skills, training, and 
dedication unmatched anywhere else in the world. The enduring support 
of this subcommittee for our key programs and our people enables us to 
fulfill the ancient charge of the founders that we should sail as the 
Shield of the Republic, and we thank you.
    The goals and programs discussed today will determine our future as 
a global force. At the direction of the President, we have worked to 
streamline our processes, to eliminate programs that no longer fit in 
the current strategic environment, and to construct new approaches to 
the challenges of the modern world while retaining the ability to deter 
regional conflict and respond rapidly and decisively to emerging 
crises. Our specific requests are reflected in the President's fiscal 
year 2013 budget submission.
    The process by which we arrived at these requests was both 
deliberate and determined. We are fully aware of the economic 
environment and the fiscal constraints that our Government faces today. 
We have attempted to balance these considerations with the President's 
requirement that we maintain a ready and agile force capable of 
conducting the full-range of military operations. We want to assure you 
that the Department has considered the risks and applied our available 
resources efficiently and carefully. This year's request aligns with 
the Defense Strategic Guidance and the priorities and missions 
contained within it while balancing trade-offs that you and the 
American taxpayer expect of us.
    For 236 years, from sail to steam to nuclear; from the USS 
Constitution to the USS Carl Vinson; from Tripoli to Tripoli; our 
maritime warriors have upheld a proud heritage, protected our Nation, 
projected our power, and provided freedom of the seas. In the coming 
years, this new strategy and our plans to execute that strategy will 
assure that our naval heritage not only perseveres, but that our Navy 
and Marine Corps continue to prevail.
    Thank you and Godspeed.

    Senator Mikulski. Thank you, Mr. Secretary.
    Admiral.

STATEMENT OF ADMIRAL JONATHAN W. GREENERT, CHIEF OF 
            NAVAL OPERATIONS, UNITED STATES NAVY
    Admiral Greenert. Thank you, Senator.
    Senator Mikulski, Vice Chairman Cochran, and distinguished 
members of the subcommittee, I am honored to appear before you 
for the first time to discuss the Navy's budget submission. 
Because of the dedication of our 625,000 active and reserve 
sailors and civilians, and their families, the Navy and our 
primary joint partner, the Marine Corps, remain a vital part of 
our national security. I am honored to serve and lead the Navy 
in these challenging times, and I thank the subcommittee for 
your continued support.
    This morning, I would like to address three points: the 
Navy's importance to the Nation's security; some enduring 
tenets and priorities that guided our decisions in this budget; 
and how these decisions shaped our budget submission.
    Today, our Navy is the world's pre-eminent maritime force. 
Our global fleet operates forward from U.S. bases and partner-
nation places around the world to deter aggression, respond to 
crisis, and, when needed and when called upon, win our Nation's 
wars.
    If you refer to the chartlet in front of you, you can see 
that on any given day we have about 50,000 sailors and 145 
ships underway, with about 100 of those ships deployed 
overseas. These ships and sailors allow us to influence events 
abroad because they ensure access to what I refer to as the 
maritime crossroads. These are areas where shipping lanes and 
our security interests intersect, and they are indicated on the 
chartlet by little orange bow-ties.
    We can remain forward in these areas because of the 
facilities and the support from nearby allies and partners. For 
example, in the Middle East, we have 30 ships and more than 
22,000 sailors at sea and ashore. They are combating piracy, 
supporting operations in Afghanistan, assuring our allies, and 
maintaining a presence in the region to deter or counter 
destabilizing activities. These forces rely on facilities in 
Bahrain, a U.S. partner for six decades.
    In the Asia-Pacific, we have about 50 ships supported by 
our base on Guam and facilities or places in Singapore, the 
Republic of Korea, and Japan. They will be joined next spring 
by our first littoral combat ship (LCS), USS Freedom, which 
will deploy to Singapore for several months to evaluate our 
operational concepts.
    In the Indian Ocean, we depend on Diego Garcia and the 
fleet tender and the airfield there for ship repair and 
logistics support.
    Around the Horn of Africa, we depend on the airfield and 
the port in Djibouti to support our forces conducting 
counterterrorism and counterpiracy operations.
    In Europe, we rely on places in Spain, Italy, and Greece to 
sustain our forces forward in support of our North Atlantic 
Treaty Organization (NATO) allies.
    And in our own hemisphere, our port and airfield at 
Guantanamo Bay will grow more important in the next several 
years as the Panama Canal is widened.
    When I assumed the watch as Chief of Naval Operations about 
6 months ago, I established three tenets, which I call 
``unambiguous direction'', for our Navy leadership. And they 
are warfighting first, operate forward, and be ready.
    Warfighting first. This means the Navy must be ready to 
fight and prevail today while building the ability to prevail 
tomorrow. This is our primary mission, and all our efforts must 
be grounded in this fundamental responsibility.
    Iran's recent provocative rhetoric highlights the need for 
us to have forward-deployed warfighting capability. In our 
fiscal year 2013 budget submission, we redirected funding 
toward weapons systems, sensors, and tactical training that can 
be more rapidly fielded to the fleet. This includes 
demonstrators and prototypes that could quickly improve our 
force's capability.
    Operate forward. This means we will provide the Nation an 
offshore option to deter, influence, and win in an era of 
uncertainty. Our fiscal year 2013 budget submission supports 
several initiatives to establish our forward posture at the 
maritime crossroads. These include placing forward deployed 
naval force destroyers in Rota, Spain, and forward stationing 
LCSs in Singapore, and patrol coastal ships in Bahrain. One 
ship that is operating from an overseas location can provide 
the same presence as about four ships rotationally deployed 
from the continental United States.
    We are also collaborating with the Marine Corps to 
determine the support and the lift needed for marines to 
effectively operate forward in Darwin, Australia, in the 
future.
    Be ready. That means we harness the teamwork, the talent, 
and the imagination of our diverse force to be ready to fight 
and to responsibly use our resources. This is more than 
completing required maintenance and ensuring parts and supplies 
are available. Being ready also means being proficient, 
confident, and understanding our weapons, our sensors, command-
and-control communications, and our engineering systems as 
well.
    Now, applying these tenets to meet the defense strategic 
guidance, we built our fiscal year 2013 budget submission to 
implement three main investment priorities.
    Number one, we will remain ready to meet our current 
challenges today. Consistent with the defense strategic 
guidance, we will continue to prioritize readiness over 
capacity and focus our warfighting presence in the Asia-Pacific 
and the Middle East. We will also sustain the Nation's most 
survivable strategic deterrent in our ballistic missile 
submarines (SSBNs).
    Priority two, we will build a relevant and capable future 
force. Our Navy will evolve to remain the world's pre-eminent 
maritime force, and our shipbuilding and aircraft construction 
investments will form the foundation of the future fleet.
    In developing our aircraft and ship procurement plans, we 
really focused on three approaches: one, to sustain the serial 
production of today's proven platforms, including Arleigh Burke 
destroyers, Virginia-class submarines, and our F/A-18 Super 
Hornets; number two, to promptly field new platforms in 
development, such as the LCS, the Joint Strike Fighter, the 
Ford-class carrier, the P-8A Poseidon aircraft, and the 
America-class amphibious assault ship; and three, we wanted to 
improve the capability of today's platforms through new 
weapons, sensors, and unmanned vehicles, including advanced 
missile defense radar, the Fire Scout, and its follow-on, the 
Fire-X. New payloads like these will help ensure we project 
power, despite threats to access, as described in the new 
defense strategic guidance. They will also enable our continued 
dominance in the undersea environment and support our goal to 
operate effectively in cyberspace and fully exploit the 
electromagnetic spectrum.
    In developing the future force, we will continue to 
emphasize jointness, as described in our Air-Sea Battle 
concept. And we will also emphasize affordability by 
controlling requirements creep and making cost an entering 
argument for new systems.
    And priority three, we will enable the support of our 
sailors, civilians, and their families. I am extremely proud of 
our people. We have a professional and a moral obligation to 
lead, to train, to equip, and to motivate them.
    Our personnel programs deliver a high return on investment 
in readiness. We fully funded our programs to address 
operational stress, to support our families, eliminate the use 
of synthetic drugs such as Spice, and to aggressively prevent 
suicides and sexual assaults.
    I support the compensation reforms included in the Defense 
Department's fiscal year 2013 budget submission, which I 
believe are appropriate changes to manage the costs of the All-
Volunteer Force.

                           PREPARED STATEMENT

    In closing, your Navy will continue to be critical to our 
Nation's security and prosperity by assuring access to the 
global commons and by being at the front line of our Nation's 
efforts in war and in peace. I assure the committee and the 
Congress and the American people that we will focus on 
warfighting first, we will operate forward, and we will be 
ready.
    I want to thank you, Senator Mikulski, and the subcommittee 
and your staff that are behind you and around this room for 
helping us in preparing our submission. And I thank you and the 
subcommittee for your support.
    Thank you.
    [The statement follows:]

           Prepared Statement of Admiral Jonathan W. Greenert

                              INTRODUCTION

    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the subcommittee, it is my honor and pleasure to appear before you 
to submit my first budget as Chief of Naval Operations (CNO). Thanks to 
our 625,000 active and reserve sailors and civilians and your continued 
support, the Navy-Marine Corps team remains vital to our national 
security and economic prosperity. Operating globally at the front line 
of our Nation's efforts in war and peace, our fleet protects the 
interconnected systems of trade, information, and security that 
underpin our own economy and those of our friends and allies. Our Navy 
and Marine Corps are the first responders to international crises 
through combat operations or humanitarian assistance. And after U.S. 
ground forces have drawn down in the Middle East, the naval services 
will remain on watch with offshore options to deter aggression and, 
when necessary, fight and win on, over, and under the sea. Despite the 
economic and military challenges facing our Nation, your Navy will 
evolve and adapt to fight and win our Nation's wars, remain forward, 
and be ready. I appreciate your continued support and look forward to 
working together in pursuing our national security objectives.

  THE NAVY HAS BEEN IMPORTANT TO OUR NATION'S SECURITY AND PROSPERITY

    Today, our Navy is the world's pre-eminent maritime force but that 
has not always been the case. Leading up to the War of 1812, Britain's 
Royal Navy held that distinction. Our own fleet, lacking warfighting 
capability, forward posture, and readiness, was bottled up in port 
early in the war. It was unable to break the British blockade of the 
Atlantic coast or stop the Royal Navy from wreaking havoc along the 
mid-Atlantic seaboard and burning parts of Washington, DC in 1814. Our 
Nation's economy suffered as shipping costs soared and imports from 
Europe and the Caribbean grew scarce. Soon, however, the fleet 
developed a warfighting focus and engaged the British, winning 
victories on Lake Erie, at New Orleans, and in the Atlantic that, 
combined with concerns about France, brought Britain to the negotiating 
table. However, outside of a determined effort from privateers, the 
U.S. Navy still could not project power away from home, could not 
control the sea, and could not deter aggression against our interests. 
We needed these key capabilities--outlined in our Maritime Strategy--
then, just as much as now. The War of 1812 offered a number of hard 
lessons, and for the next century our Navy focused on preventing an 
aggressor from restricting our trade or isolating us from the sea as 
our Nation expanded across the North American continent.
    Our Navy operated farther forward as our Nation's economy grew and, 
by necessity, became more integrated with Eurasia. In the midst of the 
world's first wave of globalization, the Great White Fleet from 1907 to 
1909 demonstrated to the world America's emerging power and capability 
to project it globally. These episodes of ``operating forward'' became 
sustained during World War I as our Fleet convoyed supplies and forces 
to Europe and combated German submarines across the Atlantic Ocean. And 
in World War II, our Navy established dominance in the air, sea, and 
undersea domains, going forward around the world to protect sea lanes 
and project power to Europe and Africa, and take the fight across the 
Pacific to Asia. We sustained our maritime dominance and remained 
forward and global throughout the cold war to contain Soviet expansion 
and provide tangible support to allies and partners with whom we were 
highly interdependent diplomatically, economically, and militarily.
    Our Navy today remains global, operating forward from U.S. bases 
and international ``places'' around the world. From these ``places'' we 
continue to support and operate with allies and partners who face a 
range of challenges, from piracy and terrorism to aggressive neighbors 
and natural disasters. ``Places'', from Guantanamo Bay to Singapore, 
enable us to remain present or have access to the world's strategic 
maritime crossroads--areas where shipping lanes, energy resources, 
information networks, and security interests intersect. On any given 
day over the last year, more than 50,000 sailors were underway or 
deployed on 145 of the Navy's 285 ships and submarines, 100 of them 
deployed overseas (see Figure 1). They were joined by more than 125 
land-based patrol aircraft and helicopters, 1,000 information dominance 
personnel, and more than 4,000 Naval Expeditionary Combat Command 
sailors on the ground and in the littorals, building the ability of 
partners to protect their people, resources, and territory.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 1.

    The security and prosperity of our Nation, and that of our friends 
and allies, depend on the freedom of the seas, particularly at the 
strategic maritime crossroads. Twenty percent of the world's oil flows 
through the Strait of Hormuz, the center of a region where more than 
12,000 sailors on 30 ships combat piracy, smuggling, terrorism, deter 
Iranian aggression, and fly about 30 percent of the close air support 
missions in Operation Enduring Freedom. These sailors directly 
supported the special operations forces mission that resulted in the 
death of Osama Bin Laden, provided ballistic missile defense to our 
Arabian Gulf partners, and just last month rescued the crew of the 
Iranian dhow, Al Morai, from Somali pirates. Our forces there depend on 
facilities in Bahrain, a United States partner for more than 60 years, 
for supplies, communications, and repairs, while our maritime patrol 
and reconnaissance aircraft, patrol craft, and minesweepers in the 
region are based on the island. Our forces at sea are joined by another 
10,000 sailors on the ground, most supporting our combat forces in 
Afghanistan as we continue to transition that effort to the Afghan 
Government.
    In the Asia-Pacific, about 40 percent of the world's trade passes 
through the 1.7-mile wide Strait of Malacca, while the broader region 
is home to 5 of our 7 treaty alliances and many of the world's largest 
economies. About 50 United States ships are deployed in the Asia-
Pacific region every day, supported by facilities (or ``places'') in 
Singapore, the Republic of Korea, and Japan in addition to our bases on 
Guam. Our forward posture and ready-and-available capability proved 
invaluable to our allies in Japan following the Great East Japan 
earthquake and tsunami last March. Twenty-four ships, 140 aircraft and 
more than 15,000 sailors and marines delivered more than 280 tons of 
relief supplies to beleaguered survivors as part of Operation 
Tomodachi. Working from offshore and unhindered by road and rail 
damage, Navy efforts helped save lives and fostered a stronger 
alliance.
    Our combined readiness with our Pacific allies and partners is a 
result of the nearly 170 exercises and training events we conduct in 
the region each year. Our Talisman Sabre exercise with Australia last 
year brought together 18 ships and more than 22,500 sailors and marines 
to practice operations from maritime security to amphibious assault. 
Our Malabar series of exercises continues to expand our 
interoperability with India, a key partner in an important part of the 
world. From simple maneuvers and replenishment-at-sea in 2002, Malabar 
has gone on to include dual carrier flight operations, gunnery 
practice, anti-submarine warfare (ASW) training, and maritime 
interdiction exercises. And this year, the U.S. Navy will host Rim of 
the Pacific (RIMPAC), the world's largest maritime exercise, bringing 
together more than 20,000 sailors from 14 nations to practice the 
entire range of maritime missions from counterpiracy to missile defense 
and ASW.
    Africa is adjacent to several key strategic crossroads:
  --Bab El Mandeb on the southern end of the Red Sea;
  --the Suez Canal at its northern end; and
  --the Strait of Gibraltar at the western edge of the Mediterranean.
Events at each of these crossroads can significantly impact the global 
economy and regional security. Supported by our air and port facilities 
in Djibouti (Camp Lemonier), our ships form the backbone of 
multinational forces from more than 20 nations that combat pirates and 
terrorists around East Africa and the Arabian Peninsula. In the 
Mediterranean and Northern Africa our forward forces enabled a rapid 
response to the Libyan civil war. During North Atlantic Treaty 
Organization (NATO) Operations Odyssey Dawn and Unified Protector, our 
ships and submarines fired 221 Tomahawk land attack missiles and 
Growler electronic attack aircraft (EA-18G) redeployed from Iraq in 
less than 48 hours to suppress and destroy Libya's air defense network. 
The Navy-Marine Corps team aboard USS Kearsarge supported NATO forces 
with air strikes and personnel recovery, while on USS Mount Whitney, 
NATO leaders managed and coordinated the fight.
    We continue our commitment to our NATO allies in the Mediterranean 
and other waters around Europe. Supported by facilities in Rota, Spain; 
Souda Bay, Greece; and Naples, Italy, our destroyers and cruisers 
conducted, among other critical U.S. and NATO missions, continuous 
ballistic missile defense patrols in the Mediterranean to counter the 
growing Iranian ballistic missile threat. Europe also continues to be a 
source of security. Our fleet trains routinely with allied navies from 
the Mediterranean to the Baltic in security cooperation exercises such 
as Proud Manta, NATO's largest ASW exercise. Outside the continent, we 
operate with our European allies and partners to address our shared 
concerns around the world, such as maintaining freedom of navigation 
through the Strait of Hormuz, countering piracy around the Horn of 
Africa, supporting our African partners with training and assistance, 
and responding to crises such as the conflict in Libya.
    In Latin America, the ongoing expansion of the Panama Canal will 
increase the importance of that strategic maritime crossroad. Today, 
the waters around Central America already experience a high level of 
illegal trafficking, which could adversely affect the increasing volume 
of shipping through an expanded canal. Our first littoral combat ship 
(LCS), USS Freedom, made its first operational deployment to the region 
in 2011, preventing more than 3 tons of cocaine from entering the 
United States as part of Joint Interagency Task Force--South. We 
leveraged our port and airfield in Guantanamo Bay, Cuba, to continue 
supporting operations in the Gulf of Mexico and Caribbean. And as the 
capability of our Latin American partners has grown, so has the 
sophistication of our cooperation. In 2011, we conducted ASW training 
with Brazil, Peru, Colombia, and Chile, where their diesel submarines 
helped to train our surface and submarine crews and our crews, 
exchanged lessons learned on effective undersea operations.

                     ESTABLISHING FIRST PRINCIPLES

    These are challenging and dynamic times for the U.S. military 
services and the U.S. national security enterprise. We need to remain 
focused on our enduring principles and contributions that hold true 
regardless of funding, force structure size or day-to-day world events. 
Upon taking office as the CNO, I established these first principles for 
Navy leaders to follow in my ``Sailing Directions''.
    I believe historical and current events demonstrate that the Navy 
is most effective and best able to support our national security 
objectives when fleet leaders and sailors are focused on three tenets:
  --warfighting first;
  --operate forward; and
  --be ready.
    I incorporated these tenets into ``Sailing Directions''. Similar to 
their nautical counterpart, my directions describe in general terms 
where the Navy needs to go in the next 10-15 years, and the approach we 
will take to get there. We applied ``Sailing Directions'' to the final 
decisions we made in building our fiscal year 2013 budget submission, 
and I believe they are consistent with the Defense Strategic Guidance 
that emerged from our collaborative efforts with the Chairman of the 
Joint Chiefs of Staff, the Secretary of Defense, and the President. I 
am in the process of drafting a ``Navigation Plan'' to define our 
course and speed now that our defense strategy is established and our 
budget request submitted.

              MY GUIDANCE FOR THE NAVY AND WHAT WE BELIEVE

    We use these three tenets--warfighting first, operate forward, and 
be ready--as ``lenses'' through which we view each decision as we 
organize, train, and equip the Navy.
    Warfighting First.--The Navy must be ready to fight and win today 
while building the ability to win tomorrow. This is our primary mission 
and all our efforts from the ``wardroom to the boardroom'' must be 
grounded in this fundamental responsibility. The recent posturing and 
rhetoric from Iran highlight the importance of our ability to deter 
aggression, promptly respond to crisis, and deny any aggressors' 
objectives. This requires getting relevant and effective warfighting 
capability to the fleet today, not waiting for perfect solutions on 
paper that may not arrive for 10 years. We can no longer afford, 
strategically or fiscally, to let the perfect be the enemy of the 
good--or the good enough--when it comes to critical warfighting 
capability. Our history and the contemporary cases of Iran, North 
Korea, violent extremists, and pirates show that conflict is unlikely 
to appear in the form of the scenarios for which we traditionally plan. 
Therefore, our ships, aircraft, and sailors that operate forward must 
be able to decisively act and defeat an adversary's actions in situ to 
deter continued aggression and preclude escalation. To that end, in our 
fiscal year 2013 budget submission we shifted procurement, research and 
development, and readiness funds toward weapons, systems, sensors, and 
tactical training that can be rapidly fielded to the fleet, including 
demonstrators and prototypes that can quickly improve our forces' 
capability. I request that you support those investments.
    Operate Forward.--The Navy-Marine Corps team provides the Nation 
offshore options to deter, influence, and win in an era of uncertainty. 
Our naval forces are at their best when they are forward, assuring 
allies and building partnerships, deterring aggression without 
escalation, defusing threats without fanfare, and containing conflict 
without regional disruption. We keep the fleet forward through a 
combination of rotational deployments from the United States, Forward 
Deployed Naval Forces (FDNF) in Japan, Guam, and Italy, and forward 
stationing ships in places such as Bahrain or Diego Garcia. Our ability 
to operate forward depends on our U.S. bases and strategic partnerships 
overseas that provide ``places'' where the Navy-Marine Corps team can 
rest, repair, refuel, and resupply.
    Our fiscal year 2013 budget submission supports several initiatives 
to establish our forward posture including placing FDNF destroyers in 
Rota, Spain, and forward stationing LCS in Singapore and patrol coastal 
(PC) ships in Bahrain. We are also now collaborating with Headquarters 
Marine Corps to determine the support and lift needed for marines to 
effectively operate forward in Darwin, Australia. In the FDNF 
construct, the ships, crews, and families all reside in the host 
nation. This is in contrast to forward stationing, where the ship's 
families reside in the United States and the crew rotates to the ship's 
overseas location for deployment. We will rely on both of these basing 
constructs and the ``places'' that support them to remain forward 
without increases to the fleet's size. I request your support funding 
for these initiatives so our Navy-Marine Corps team can continue 
delivering the rapid response our Nation requires of us. We will 
continue to pursue innovative concepts for operating forward such as 
rotational crewing and employing new classes of ships such as joint 
high speed vessels (JHSV), mobile landing platforms (MLP), and afloat 
forward staging bases (AFSB).
    Be Ready.--We will harness the teamwork, talent, and imagination of 
our diverse force to be ready to fight and responsibly use our 
resources. This is more than simply completing required maintenance and 
ensuring parts and supplies are available. Those things are essential, 
but ``being ready'' also means being proficient and confident in our 
ability to use our weapons, employ and rely on our sensors, and operate 
our command and control, communication, and engineering systems. This 
requires practice, so in our fiscal year 2013 budget submission we 
increased readiness and procurement funding for training deploying 
personnel and for exercise ordnance--funding that I request you 
support. Further, we are employing simulation and adjusting our Fleet 
Readiness and Training Plan (FRTP) to afford more time to train prior 
to deployment. Our fiscal year 2013 budget submission provides the 
opportunity to build on events such as this year's Bold Alligator, our 
largest amphibious assault exercise in more than a decade, which 
brought together more than 20,000 sailors and marines and 25 ships from 
five nations. Fundamentally, being ready depends on our ability to 
train, lead, and motivate our sailors and marines through events such 
as Bold Alligator. As we continue to move through challenging times 
strategically and fiscally, we will increasingly depend on their 
resolve and imagination.

PRESIDENT'S BUDGET FOR FISCAL YEAR 2013 SHAPED BY THREE MAIN PRIORITIES 
                    OF THE CHIEF OF NAVAL OPERATIONS

    The Budget Control Act of 2011 placed new constraints on our 
budget, which required hard choices and prioritization to address. I 
applied our tenets to my three main investment priorities as we built 
our fiscal year 2013 budget submission to support the new Defense 
Strategic Guidance.

Priority 1: Remain Ready To Meet Current Challenges, Today
    Readiness means operational capability where it needs to be to 
deter aggression, respond to crises, and win our Nation's wars. I will 
continue to prioritize readiness over capacity and focus our 
warfighting presence on the Asia Pacific and Middle East. Our fiscal 
year 2013 decision to decommission seven Ticonderoga-class guided 
missile cruisers (CG) and two dock landing ships (LSD) exemplify our 
resolve to provide a more ready and sustainable fleet within our budget 
constraints. The resources made available by these retirements will 
allow increased funding for training and maintenance. To ensure these 
investments improve readiness, we adjusted the FRTP to be more 
sustainable and provide units adequate time to train, maintain, and 
achieve the needed ``fit'' and ``fill'' in their manning between 
deployments. The FRTP is aligned to and supports the fiscal year 2013 
Global Force Management Allocation Plan (GFMAP), which is the 
authoritative, Secretary of Defense-approved plan for supporting 
combatant commander presence requirements.
    A ready fleet requires proper maintenance of our ships and 
aircraft, and our long-term force structure inventory plans require 
each of them to affordably reach expected service life. Our fiscal year 
2013 budget submission fully funds ship maintenance and midlife 
modernization periods. We are also continuing a series of actions to 
address surface ship material condition. We increased the number of 
sailors in select surface ships and established Integrated Material 
Assistance Teams to ensure adequate personnel for preventive 
maintenance and at-sea repairs. To improve maintenance planning and 
budgeting, the new surface ship life-cycle engineering and support 
organization develops comprehensive plans for maintenance and 
modernization of non-nuclear ships. These plans will allow us to refine 
our assessments of ship material condition, improve our ability to 
estimate maintenance costs, and identify actions needed to achieve 
expected service life. These initiatives, supported in this budget 
submission, have tangibly improved ship readiness and enable more 
efficient maintenance periods. Our fiscal year 2013 budget submission 
also funds aircraft depot maintenance requirements to 94 percent, 
meeting our goal for available airframes and engines.
    Readiness involves more than material condition. Our capabilities 
must also be ``whole'', meaning our weapons, combat systems, and 
sensors must be able to interface with one another, are available in 
adequate numbers, and our sailors are proficient and confident in their 
use. We emphasized training in our fiscal year 2013 budget submission--
allocating time, ordnance, and targets for increased live-fire training 
as well as funds to improve the fidelity, capacity, and 
interoperability of our fleet simulators. Our fiscal year 2013 budget 
submission also funds improved data links and radar reliability to 
enhance the interoperability and availability of weapons and sensors. 
In aviation, we fully funded the Flying Hour Program and invested in F/
A-18 A-F life-cycle sustainment and system capability upgrades to 
ensure these ``workhorses'' of the carrier air wing remain ready and 
relevant. F/A-18 A-F sustainment helps ensure our strike fighters reach 
their expected service lives and our strike fighter inventory remains 
sufficient to meet anticipated needs. Ashore, we fully funded air and 
port operations and nuclear weapons infrastructure and security. Our 
fiscal year 2013 budget submission accepts some risk in facilities 
sustainment and recapitalization, but we anticipate minimal impact on 
fleet readiness. We will continue to closely monitor our shore 
infrastructure to ensure it remains capable of supporting the needed 
level of fleet operations. Our fiscal year 2013 budget submission 
maintains funding for Homeport Ashore to provide quality housing for 
our single sailors and increases funding for family readiness programs 
such as child development centers.
    We must continue improving our fuel efficiency to sustain a ready 
and relevant fleet and our goal remains to reduce our tactical energy 
use 15 percent by 2020. We will combine modernization, research and 
development, acquisition, and efficient behavior by operators at sea 
and on the waterfront to achieve that goal. Our fiscal year 2013 budget 
submission continues to incorporate technological advances 
incrementally, but steadily. Our Lewis and Clark-class supply ships now 
employ all-electric propulsion, as will our new Zumwalt-class 
destroyers (DDG). Our new hybrid-electric powered amphibious assault 
ship USS Makin Island saved more than $2 million in fuel costs on its 
maiden voyage from the gulf coast to its San Diego homeport. The 
insights we gain from these efforts will be applied in developing 
requirements for future ships, where energy usage was established last 
year as a key performance parameter.

Priority 2: Build a Relevant and Capable Future Force
    Our Navy will evolve to remain the world's pre-eminent maritime 
force in the face of emerging threats and our shipbuilding and aircraft 
construction investments form the foundation of the future fleet. In 
developing our aircraft and ship procurement plans, we focused on three 
approaches:
  --sustaining serial production of today's proven platforms;
  --rapidly fielding new platforms in development; and
  --improving the capability of today's platforms through new payloads 
        of weapons, sensors, and unmanned vehicles.
    First, sustained production of today's platforms maintains the 
fleet's capacity, improves the affordability of ships and aircraft, and 
fosters the health of the industrial base. Examples of this serial 
investment in our fiscal year 2013 budget submission include Arleigh 
Burke DDG, MH-60R/S Seahawk helicopters, F/A-18 E/F Super Hornet and 
Virginia-class submarines (SSN). These proven ships and aircraft 
represent a known quantity to both the Government and contractor and 
provide opportunities for cost savings through multiyear procurement. 
Our fiscal year 2013 budget submission requests multiyear procurement 
of nine Arleigh Burke DDGs and nine Virginia SSNs. Your support for 
continued block purchases of DDGs and SSNs is essential to our fleet's 
capacity over the next decade when decommissionings and the procurement 
of the new ballistic missile submarine (SSBN) combine to reduce the 
number of these fleet workhorses. In addition to the capacity they 
bring, our experience with proven platforms also allows us to 
incrementally improve their capabilities with new weapons, sensors, and 
unmanned vehicles, such as we are doing with Arleigh Burke DDG by 
adding the Surface Electronic Warfare Improvement Program (SEWIP), SM-6 
missile, Advanced Missile Defense Radar (AMDR), and MQ-8 Firescout 
unmanned air vehicles.
    Second, we will rapidly field the classes of ships and aircraft in 
development which are needed to recapitalize the fleet and pace 
emerging threats. Each of these platforms are nearing completion or are 
in initial production and offer a significant return on our research 
and development investment over the past 2 decades. We will harvest 
this return and focus on capability improvement via new weapons, 
sensors, and unmanned systems before we begin our next generation of 
platforms. Our fiscal year 2013 budget submission prudently moves into 
sustained production of Freedom and Independence-class LCS, MQ-4C broad 
area maritime surveillance (BAMS) unmanned air system (UAS), Poseidon 
maritime patrol and reconnaissance aircraft (P-8A) and Lightning II 
strike fighter (F-35C). We slowed production of the F-35C to allow 
lessons from testing to be better incorporated into the aircraft, and 
it will be a key element of the future carrier air wing. The fiscal 
year 2013 budget submission continues funding for Gerald R. Ford 
aircraft carriers (CVN), although the delivery of CVN-79 was delayed to 
most cost effectively maintain our fleet of 11 CVNs by not delivering 
the ship ahead of need. Our budget submission continues funding for the 
Zumwalt-class DDG, which will provide an exceptional improvement in 
littoral and land-attack capability while also proving several new 
technologies to be incorporated into future ships. To sustain our 
capacity for amphibious operations, our fiscal year 2013 budget 
submission funds continued production of the America-class amphibious 
assault ships (LHA), the first of which (LHA-6) is nearing completion. 
Each of these new platforms is designed to be adaptable and allow 
future capability evolution through new payloads. The physical and 
electronic open architecture of LCS, for example, will allow it to 
change missions in a short refit, but will also allow it to be widely 
adaptable over its lifetime. The P-8A has a similar reserve capacity 
for adaptation, as well as an operating profile which will allow it to 
do a wide range of missions, depending on the weapons and sensors 
placed aboard.
    And third, we will evolve the force to maintain our warfighting 
edge by exploiting the ability of new payloads to dramatically change 
what our existing ships and aircraft can do. A focus on what our 
platforms carry will be increasingly important as anti-access/area-
denial (A2/AD) threats including new radars and more sophisticated 
surface-to-air and anti-ship missiles limit the ability of manned 
platforms to get close to an adversary in wartime. Our Air-Sea Battle 
concept, developed with the Marine Corps and the Air Force, describes 
our response to these growing A2/AD threats. This concept emphasizes 
the ability of new weapons, sensors, and unmanned systems to expand the 
reach, capability, and persistence of our current manned ships and 
aircraft. Our focus on payloads also allows more rapid evolution of our 
capabilities compared to changing the platform itself. This approach is 
exemplified by our fiscal year 2013 investment in LCS, which will carry 
an adaptable portfolio of unmanned vehicles, weapons, manned 
helicopters, and personnel. In aviation, new weapons such as the small 
diameter bomb, joint standoff weapon and Mark-54 torpedo will give our 
legacy aircraft the stand-off range, penetration, and lethality to 
defeat adversaries even if they employ advanced A2/AD capabilities.
    Our focus on payloads includes unmanned systems such as the 
Firescout UAS (MQ-8B), which already demonstrated in Libya and the 
Middle East how it can add significant capability to our legacy 
frigates (FFG) and amphibious transport dock (LPD) ships. Our fiscal 
year 2013 budget submission continues production of the MQ-8B and adds 
the longer-range, higher-payload MQ-8C. The submission also continues 
our investment in the unmanned combat air system (UCAS) demonstrator 
and the follow-on unmanned carrier launched air surveillance and strike 
(UCLASS) system, which will expand the reach and persistence of our 
current carrier-based air wings.
    Improved sensors and new unmanned systems are essential to our 
continued domination of the undersea environment. Our fiscal year 2013 
budget submission funds the development of Virginia SSN payload modules 
that will be able to carry a mix of missiles, sensors, and unmanned 
undersea vehicles (UUV) such as the new Large Displacement UUV. These 
undersea systems are joined by investments in the P-8A and Arleigh 
Burke DDG to improve cueing and close-in ASW operations. Our undersea 
superiority provides U.S. forces an asymmetric advantage in being able 
to project power or impose unacceptable costs on adversaries. Our 
fiscal year 2013 budget submission funds continued development of a new 
SSBN to begin replacing the Ohio-class late in the next decade and 
sustain the most survivable element of the Nation's nuclear triad. Our 
fiscal year 2013 budget submission also includes funding to study the 
possible use of Ohio-class guided missile submarine (SSGN) and 
Virginia-class SSN as platforms for a future conventional prompt strike 
capability.
    While we currently dominate the undersea domain, cyberspace, and 
the electromagnetic spectrum present a different set of challenges and 
a lower barrier to entry for our potential adversaries. Our fiscal year 
2013 budget submission furthers our goal to operate effectively in 
cyberspace and fully exploit the electromagnetic spectrum. Investments 
including SEWIP, EA-18G, Consolidated Afloat Network Enterprise System 
(CANES), Hawkeye (E-2D) early-warning aircraft, Next-Generation 
Enterprise Network and Mobile User Objective System (MUOS) support 
development of a common operational picture of cyberspace and the 
electromagnetic spectrum. They also support robust defense of our 
networks and improve our ability to use nonkinetic effects to defend 
our ships from attack, conduct offensive operations, and conduct 
superior command and control.
    It is imperative as we pursue these three approaches to the future 
force that we consider both affordability and ``jointness.'' Our fiscal 
situation makes affordability essential to sustaining the fleet's 
capacity and improving its capability. Working with the Secretary of 
the Navy's staff, we are ensuring cost is considered as an entering 
assumption in developing requirements for new systems, while 
controlling the ``requirements creep'' that impacts the cost of our 
programs already in development. Joint capabilities may also be a way 
to improve affordability, although we are primarily concerned with how 
they can improve our warfighting effectiveness. Our Air-Sea Battle 
concept describes how naval and air forces will develop and field 
capabilities in a more integrated manner to allow them to defeat 
improving A2/AD threats through tightly coordinated operations across 
warfighting domains. Using the Air-Sea Battle concept and Joint 
Operational Access Concept (JOAC) as the starting point, the Navy-
Marine Corps team will continue to expand our integration with the Air 
Force and Army in doctrine, systems, training, and exercises to sustain 
the ability of U.S. forces to project power.

Priority 3: Enable and Support our Sailors, Navy Civilians, and Their 
        Families
    Today's active and reserve sailors and Navy civilians are the most 
highly trained, motivated, and educated force we have ever employed. 
Our people are the source of our warfighting capability, and our fiscal 
year 2013 budget submission continues the investments needed to ably 
lead, equip, train, and motivate them.
    Our personnel programs deliver a high return on investment in the 
readiness of our sailors and civilians. We fully funded our programs to 
address operational stress, support families, prevent suicides, 
eliminate the use of synthetic drugs like Spice, and aggressively 
reduce the number of sexual assaults. I view each of these challenges 
as safety and readiness concerns that can be just as damaging to our 
warfighting capability as operational accidents and mishaps. To ensure 
sailors and their families have a quality environment in which to live, 
we sustained our support for quality housing, including Homeport Ashore 
for Sailors, and expanded our child development and youth programs.
    Our wounded warriors are a top priority. Our fiscal year 2013 
budget submission fully funds programs that support the mental, 
emotional, and financial well-being of our returning warriors and their 
families.
    The Navy continues to face a unique manpower challenge. Retention 
is high, attrition remains steady at a very low level, and highly 
qualified people continue to want to join the service. To continue 
bringing in new sailors with new and diverse backgrounds and ideas, we 
must have turnover in the force. To manage our end strength, sustain 
upward mobility, and address overmanning in some specialties, we 
selected 2,947 sailors for separation in 2012 by conducting an Enlisted 
Retention Board (ERB). These sailors served honorably and we are now 
focused on providing the best transition possible for them, including 
early retirement for sailors selected for ERB who will have completed 
at least 15 years of active service as of September 1, 2012. Thank you 
for providing this Temporary Early Retirement Authority in the fiscal 
year 2012 National Defense Authorization Act. We do not plan another 
ERB for fiscal year 2013. Nor do we plan to offer early retirement more 
broadly, but we will evaluate this option if overmanning in individual 
specialty ratings/warfare communities again becomes a concern.
    We will continue to use a range of force shaping tools to ensure we 
keep our best performers and align our people with needed skills and 
specialties. Perform-to-Serve (PTS), our centralized re-enlistment 
program, will remain the principal method to shape the force. While in 
some cases we will be unable to offer re-enlistment for sailors due to 
high retention and overmanning, PTS also offers sailors the opportunity 
to change specialties or enter the reserves when they come up for re-
enlistment if their current specialty is overmanned. We will continue 
to offer and regularly adjust selective re-enlistment bonuses and 
incentive pays for critical specialties to ensure we properly sustain 
the skills required in the force.
    By managing the size and composition of the force, we are able to 
bring in new sailors and civilians. Our fiscal year 2013 budget 
submission continues to invest in recruiting quality people, including 
diversity outreach and programs to develop science, technology, 
engineering, and mathematics candidates for the service. Our future 
depends on the innovation and creativity that people with diverse 
backgrounds, experience, and ideas can bring to the Navy.
department of defense and navy's turning point--and the need for a new 

                                STRATEGY

    We built our fiscal year 2013 budget submission by applying the 
tenets of warfighting first, operate forward, and be ready to our three 
enduring priorities. This approach focused our resources on investments 
that are most important to the Navy's ability to be relevant to the 
challenges we face as a Nation. Today, three main trends place America 
and our Navy at a turning point. First, the Federal Government has to 
get its fiscal house in order by reducing deficits and putting the 
Federal budget on a path toward balance. Second, the security 
environment around the world is becoming more dynamic as exemplified by 
the ``Arab Awakening,'' ongoing piracy and terrorism, and the continued 
threat of aggression from countries including Iran and North Korea. 
Third, after a decade of war in the Middle East, we are completing 
ground operations and stabilization efforts in Iraq and Afghanistan.
    This confluence of factors was emerging when I wrote my sailing 
directions and, as they clarified, were the drivers behind the 
``Defense Strategic Guidance Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense'' issued by the President and 
Secretary of Defense. The Defense Strategic Guidance was developed in a 
collaborative and transparent process, and I believe it is aligned with 
sailing directions. The guidance calls for a more agile, lethal, and 
flexible force to address the challenges and opportunities facing our 
Nation and has clear implications for the Navy as a force provider, 
including:

Emphasize Readiness Over Capacity
    We will not let the force become ``hollow'' by having more force 
structure than we can afford to maintain, equip, and man. Our fiscal 
year 2013 budget submission inactivates seven Ticonderoga CGs and two 
LSDs. These ships were in need of significant maintenance investment 
and 6 of the 7 cruisers required further investment to install 
ballistic missile defense capability. Inactivating these ships allowed 
almost $2 billion in readiness funding to be shifted to other portions 
of the fleet. This reduction in capacity and our shift to a more 
sustainable deployment model will result in some reductions to the 
amount of presence we provide overseas in some select areas, or a 
change in the nature of that presence to favor innovative and lower-
cost approaches.

Invest in Current Warfighting Capability
    Our ability to deter aggression rests on our current warfighting 
capability. During the final stages of developing our fiscal year 2013 
budget submission, we worked closely with the Office of the Secretary 
of Defense to shift more than $700 million into procurement, operations 
and maintenance, and research and development to rapidly improve the 
readiness of warfighting capabilities being deployed to the Middle East 
and Asia-Pacific. These changes focused on countering A2/AD threats 
through mine warfare (MIW), integrated air and missile defense, 
antisurface warfare (ASuW) against fast attack craft and ASW. Our 
investments included training targets and ordnance, mine warfare 
maintenance and prototype systems, antisurface and ASW sensors and 
weapons, and kinetic and nonkinetic systems for self-defense against 
torpedoes, cruise missiles, and ballistic missiles.

Maintain Middle East Presence and Rebalance our Focus Toward Asia-
        Pacific
    The Asia-Pacific and Middle East are the most consequential regions 
for our future security and prosperity. Two factors drive the Navy's 
ability to provide presence: The size of the fleet and the amount of 
time ships can remain deployed. Our fiscal year 2013 budget submission 
reduces the size of the fleet in the next year by decommissioning some 
ships, but the fleet returns to its current size by 2017 and grows to 
about 300 ships by 2019. We will work with the Joint Staff and 
Secretary of Defense's office to focus our presence on the Middle East 
and Asia-Pacific as part of the GFMAP. The mix of ships in the fleet 
between now and 2020 will evolve to include more small combatants and 
support vessels that can provide innovative, low-cost platforms for 
security cooperation and partnership building activities in Latin 
America and Africa. This will enable our carriers, large surface 
combatants, submarines, and amphibious ships to focus on the Middle 
East, Asia-Pacific, and Europe.
    As described above, we are fostering a series of bases and 
``places'' with our allies and partners around the world to provide 
access and support forward operations at the strategic maritime 
crossroads. Some of these facilities will host FDNF or forward 
stationed ships and aircraft, while others will extend the range and 
duration of deployments by providing places to rest, repair, refuel, 
and resupply. Our fiscal year 2013 budget submission includes funding 
to support these facilities, while we are studying options for 
rotational crewing which may allow overseas ``places'' to host crew 
exchanges for additional classes of ships such as we plan to do for 
LCSs and currently conduct for PCs, SSGNs, and mine countermeasures 
ships (MCMs).

Develop Innovative, Low-Cost, and Small Footprint Approaches to 
        Partnerships
    The United States will continue to be the security partner of 
choice, and the Navy will tailor our partnership efforts to be both 
affordable and appropriate. The evolution of the Fleet's mix over the 
next 8 years will provide ships suited to cooperative operations such 
as maritime security; building partner capacity; countering terrorism, 
illegal trafficking and proliferation; and providing humanitarian 
assistance/disaster response (HA/DR). Ships including LCS (with ASuW 
mission packages), JHSV, MLP, AFSB, hospital ships (T-AH) and combat 
logistics force ships will provide platforms to conduct the low-cost, 
small footprint missions called for in the Defense Strategic Guidance. 
These ships will free up higher-end combatants for other missions and 
will employ innovative crewing concepts such as civilian mariners and 
rotational military crews that will provide more time forward per ship.

    OUR FISCAL YEAR 2013 INVESTMENTS SUPPORT THE DEPARTMENT'S MOST 
                           IMPORTANT MISSIONS

    Within the fiscal constraints of the Budget Control Act of 2011, we 
applied our priorities and tenets to develop our fiscal year 2013 
budget submission, which strongly supports the missions described the 
new Defense Strategic Guidance.

Counterterrorism and Irregular Warfare
    We will support the joint force in an active approach to countering 
terrorist and extremist threats. With the drawdown in Afghanistan and 
sensitivity to U.S. forces ashore, these efforts will increasingly be 
conducted from the sea. The Navy's fiscal year 2013 budget submission 
increases our ability to support these operations through investments 
including the sea-based MQ-8B and longer-range, higher-payload MQ-8C 
UAS, MLP, AFSB, LCS, BAMS, tailored language and culture training, and 
increases in SEAL manning. Places including Djibouti, Singapore, 
Bahrain, and Guantanamo Bay, Cuba will continue to support small-
footprint, long-duration operations to counter illegal activities--
including terrorism, piracy, and trafficking--from the Horn of Africa 
and Arabian Gulf to the South China Sea and the Caribbean.

Deter and Defeat Aggression
    The Navy-Marine Corps team is the Nation's front line to deny an 
aggressor's objectives or promptly impose costs on the aggressor. Naval 
forces bring two essential qualities to this mission: Presence or 
prompt access forward where conflict occurs, and credible warfighting 
capability to counter the aggressor. Our fiscal year 2013 budget 
submission supports forward operations at the places where conflict is 
most likely or consequential--the strategic maritime crossroads. In 
addition to the readiness and operations funding that allow our forces 
to operate forward, our fiscal year 2013 budget submission also invests 
in establishing FDNF DDGs in Rota, Spain, forward-stationed LCSs in 
Singapore, additional forward stationed PCs in Bahrain and a 
sustainable tempo of rotational deployments.
    Our fiscal year 2013 budget submission improves the warfighting 
capability of the forces we send forward. The centerpieces of naval 
capability remain the Carrier Strike Group and Amphibious Ready Group. 
Our fiscal year 2013 budget submission sustains funding for CVNs and 
the strike fighters (F-35C and F/A-18 E/F), E-2Ds, and EA-18Gs they 
deliver to the fight, as well as the unmanned NUCAS and UCLASS aircraft 
that will expand the reach and persistence of the future air wing. To 
complement our aviation capabilities, our fiscal year 2013 submission 
funds a ``big deck'' LHA in fiscal year 2017 to support power 
projection by Marine Air-Ground Task Forces. These ships, aircraft, 
sailors, and marines have deterred and defeated aggression since World 
War II and will continue to do so well into the future.
    Our fiscal year 2013 budget submission invests in capabilities to 
counter specific types of aggression, such as Iranian threats to deny 
access to the Strait of Hormuz through mine warfare. While we develop 
the LCS as the future host of MIW capabilities, our fiscal year 2013 
budget submission invests in sonar upgrades and maintenance for our 
current MCMs, new mine detection and neutralization UUVs, establishment 
of an AFSB in the Arabian Gulf to support air and surface MIW 
operations, and sea-based intelligence, surveillance, and 
reconnaissance. Our fiscal year 2013 budget submission also funds ASW 
improvements geared toward the Iranian threat such as air-launched 
Mark-54 torpedoes and torpedo defense systems, as well as ASuW weapons 
to counter fast attack craft such as Griffin and Spike missiles for PCs 
and rockets for helicopters.

Project Power Despite A2/AD Challenges
    Potential adversaries are mounting strategies to prevent U.S. 
forces from entering their theater (anti-access) or operating 
effectively once within the theater (area-denial). These adversaries 
intend to prevent U.S. forces from defeating their aggression or coming 
to the aid of allies and partners. Both state and nonstate actors are 
undertaking these strategies using capabilities including mines, 
submarines, anti-ship cruise and ballistic missiles, anti-satellite 
weapons, cyber attack, and communications jamming. The Navy fiscal year 
2013 budget submission addresses these threats through a wide range of 
investments that support the multiservice Air-Sea Battle concept and 
the Joint Operational Access Concept (JOAC). In addition to the MIW, 
ASuW and ASW investments identified above, our fiscal year 2013 budget 
submission funds upgrades in electronic warfare (EW), integrated fire 
control, cyber operations, networks, Virginia SSN and payload modules, 
and the F-35C.
    The Navy's ability to retain access to international waters and 
airspace as well as critical chokepoints throughout the world would be 
enhanced by accession to UNCLOS. As the world's pre-eminent maritime 
power, the United States has much to gain from the legal certainty and 
global order brought by UNCLOS. The United States should not rely on 
customs and traditions for the legal basis of our military and 
commercial activity when we can instead use a formal mechanism such as 
UNCLOS. As a party to UNCLOS, we will be in a better position to 
counter the efforts of coastal nations to restrict freedom of the seas.

Counter Weapons of Mass Destruction
    The Navy's primary contribution to countering weapons of mass 
destruction (WMD) is interdicting WMD and their precursors through the 
international Proliferation Security Initiative (PSI). Our fiscal year 
2013 budget submission funds the readiness and force structure 
necessary to maintain forces forward at the strategic maritime 
crossroads where these interdictions are most common, while continuing 
to enable PSI by sustaining the command and control and sensors needed 
to find and track WMD transporters.

Operate Effectively in Space and Cyberspace
    As a forward-deployed force, our fleet is highly dependent upon 
space-based systems, cyberspace, and the electromagnetic spectrum. 
Naval forces rely on long-haul communications for command and control, 
positioning, navigation and timing, and administration. Given the 
growing A2/AD threat from communications jamming and anti-satellite 
weapons, our fiscal year 2013 budget submission includes investment in 
the maritime portion of the Joint Airborne Layer Network, a UAV-based 
system to assure our ability to communicate and conduct command and 
control.
    Cyberspace and the electromagnetic spectrum are a key area of 
emphasis for our future force development. In the past 2 years, we made 
significant investments in personnel for Navy Cyber Command/Tenth Fleet 
as well as U.S. Cyber Command, which continue in our fiscal year 2013 
budget submission. These highly skilled operators are developing a 
``common operational picture'' (COP) of cyberspace and the tools to 
effectively defend our interests within it. Cyberspace and the 
electromagnetic spectrum are inextricably linked, and in our fiscal 
year 2013 budget submission, we fund a range of EW and electronic 
support systems including EA-18G, SEWIP, Next-Generation Jammer, 
shipboard prototype and demonstrator systems, Ship Signal Exploitation 
Equipment (SSEE), and the E-2D. These systems sustain our ability 
exploit the electromagnetic spectrum for sensing and communication, 
while denying our adversaries accurate or effective information. We are 
also developing the conceptual and doctrinal framework to fully exploit 
the electromagnetic spectrum as a warfighting domain.

Maintain a Safe, Secure, and Effective Nuclear Deterrent
    The Navy provides the most survivable leg of the U.S. nuclear triad 
with the SSBN and associated nuclear command and control, maintenance, 
and support infrastructure. Our fiscal year 2013 program continues to 
fund the recapitalization of our Ohio-class submarines and the safe 
handling of Trident D-5 missiles through investment in an additional 
explosive handling wharf at Naval Base Kitsap. Consistent with the 
Defense Strategic Guidance, we delayed the Ohio replacement program by 
2 years. This delay will result in an SSBN force of 10 ships in the 
2030s and will require a high state of readiness to meet the Nation's 
strategic deterrence needs. Our fiscal year 2013 budget submission 
fully funds the maintenance and support to today's Ohio-class SSBNs to 
help maximize their operational availability throughout their service 
lives.

Homeland Defense and Support to Civil Authorities
    We maintain approximately 45 ships underway around the United 
States and another 50 available within days to meet U.S. Northern 
Command's homeland defense requirements through our FRTP. The Navy's 
fiscal year 2013 budget submission also funds DDG modernization that 
can support homeland ballistic and cruise missile defense missions.

Provide a Stabilizing Presence; Conduct Counterinsurgency, Humanitarian 
        Assistance/Disaster Relief and Other Operations
    Although our warfighting capability will be focused on the Middle 
East and Asia-Pacific, other regions will retain naval presence. The 
nature of that presence, however, will change over the next several 
years. While today DDGs and amphibious ships conduct security 
cooperation operations with partners in Latin America and Africa, our 
fiscal year 2013 budget submission funds procurement of JHSV, AFSB, 
MLP, and LCS and sustainment of PCs and T-AHs to take on these missions 
in the future. To support an expanding range of partnership missions, 
they will increasingly carry tailored force packages of marines to 
conduct security cooperation activities with partner armies and 
marines.
    These same ships will support humanitarian assistance operations 
and rapid response by U.S. forces to crisis or disaster. They can 
embark a wide range of interagency and nongovernmental personnel, 
allowing them to support the whole range of development, defense and 
diplomacy activities, and contribute to nonmilitary efforts to counter 
insurgencies and conduct stabilization operations. As naval forces, 
they can be backed up by the robust multimission capability and 
transportation capacity of amphibious ships and embarked marines.

        EVALUATING IMPACTS OF THE NEW DEFENSE STRATEGIC GUIDANCE

    The new Defense Strategic Guidance is not without risk. In 
particular, we will need to assess the impacts of capacity reductions 
on the force's ability to address highly likely or highly consequential 
security challenges. Senior defense leaders are conducting this 
assessment in a series of seminars over the next several months. Within 
the Navy, we are also re-evaluating our force structure requirements in 
light of the Defense Strategic Guidance. We are assessing the 
capabilities needed to implement the strategy, what force structure 
could deliver those capabilities, and the resulting inventory of ships 
and aircraft that will be required. The results of this assessment will 
indicate the risk in the ability of the Navy's investment plans to 
implement the Defense Strategic Guidance. The force structure 
assessment will also indicate what ships should be counted as part of 
the battle force, and the extent to which the Navy will need to 
implement innovative concepts such as rotational crewing to deliver the 
needed level of forward presence.
    We will also evaluate the impact of our investment plans on our 
industrial base, including ship and aircraft builders, depot 
maintenance facilities, equipment and weapons manufacturers, and 
science and technology researchers. Some of our suppliers, especially 
in specialized areas such as nuclear power, have the government as 
their only customer. Our fiscal year 2013 budget submission addresses 
the health of the industrial base, and we will work closely with our 
industry partners to manage the risk of any further budget reductions.
    Ship inactivations in the fiscal year 2013 budget submission, when 
combined with those of previous budgets, may cause an imbalance in the 
Fleet's overall distribution. We are assessing what will be affordable 
and appropriate in homeporting new ships or moving existing ships to 
ensure we efficiently employ our shore infrastructure, balance our port 
loading, and take advantage of collocating ships with common 
configurations and equipment.
    The healthcare proposals in the President's budget are consistent 
with our efforts over the last several years to pursue a multipronged 
strategy to control the rate of growth in defense health costs:
  --identifying more efficient processes internally;
  --incentivizing healthy behaviors and wellness; and
  --keeping our sailors and marines fit and ready to deploy.
    This budget maintains our commitment to those who serve and have 
served, and responsibly meets the demands dictated by Federal budget 
constraints. I hope you will agree, and support our efforts. I also 
support the establishment of a commission to study changes to the 
structure and benefits of our retirement program for those who have not 
yet entered the service. That assessment must include an evaluation of 
the combined impact to our future recruiting and retention of changes 
to retirement benefits, pay, and healthcare.

                               CONCLUSION

    I believe the risks of the new Defense Strategic Guidance are 
manageable and can be mitigated with good management of the joint 
force. Our Navy will continue to be critical to our Nation's security 
and prosperity by assuring access to the global commons and being at 
the front line of our Nation's efforts in war and peace. I assure the 
Congress, the American people, and those who would seek to do our 
Nation harm, that we will be focused on warfighting, operating forward, 
and being ready.

    Senator Mikulski. Thank you.
    General Amos.

STATEMENT OF GENERAL JAMES F. AMOS, COMMANDANT, UNITED 
            STATES MARINE CORPS
    General Amos. Madam Chairman, Vice Chairman Cochran, and 
members of the subcommittee, I am pleased to speak today on 
behalf of your United States Marine Corps.
    As we sit today in this chamber, 30,000 marines are forward 
deployed around the world defending our Nation's liberty, 
shaping strategic environments, engaging our partners and 
allies, and ensuring freedom of the seas while they deter 
aggression.
    Over the past year alone, the forward presence and crisis 
response of America's marines, working in concert with our most 
important joint partner, the United States Navy, has created 
opportunities and provided decision space for our Nation's 
leaders.
    Your marines were first on the scene to provide 
humanitarian assistance and disaster relief in Japan in the 
aftermath of last year's monumental natural disasters and the 
first to fly air strikes over Libya. They evacuated 
noncombatants from Tunisia and reinforced our embassies in 
Egypt, Yemen, and Bahrain. While accomplishing all of that, 
your Corps continued to conduct sustained combat and 
counterinsurgency operations in Afghanistan.
    Having just returned a little more than 3 weeks ago from 
visiting many of the nearly 20,000 marines and sailors 
currently deployed there, I can tell you firsthand that their 
professionalism and morale remain notably strong. There is an 
indomitable spirit displayed in all that they do. Their best 
interests and the needs of all our joint forces in combat 
remain my number-one priority.
    History has shown that it is impossible to predict where, 
when, and how America's interests will be threatened. 
Regardless of the global economic strain placed on governments 
and their military forces today, crises requiring military 
intervention will undoubtedly continue tomorrow and in the 
years to come.
    As a maritime Nation dependent on the sea for the free 
exchange of ideas and trade, America requires security both at 
home and abroad. To maintain a strong economy, to access 
overseas markets, and to assure our allies, in an era of fiscal 
constraint, the United States Marine Corps is our Nation's risk 
mitigator, a certain force during uncertain times, one that 
will be the most ready when the Nation is the least ready.
    There is a cost to maintaining this capability, but it is 
nominal in the context of the total defense budget and provides 
true value to the American taxpayer. This fiscal year, I am 
asking the Congress for $30.8 billion, a combination of both 
base and overseas contingency operations (OCO) funding.
    Your continued support will fund ongoing operations around 
the world, provide quality resources for our marines, our 
sailors, and their families. It will reset the equipment that 
is worn out from more than 10 years at war, and lastly, it will 
posture our forces for the future.
    When the Nation pays the sticker price for its marines, it 
buys the ability to respond to crises anywhere in the world 
through forward deployed and forward engaged forces. This same 
force can be reinforced quickly to project power and contribute 
to joint assured access anywhere in the world in the event of a 
major contingency. No other force possesses the flexibility and 
organic sustainment to provide these capabilities.
    As our Nation begins to direct its attention to the 
challenges and opportunities of a post-Afghanistan world, a 
world where the Middle East and the Pacific take center stage, 
the United States Marine Corps will be ever mindful of the 
traditional friction points in other regions and prepared to 
respond accordingly as needed.
    The strategic guidance directs that we rebalance and reset 
for the future. We have a solid plan to do so, and we have 
begun execution already. As we execute a strategic pivot, I 
have made it a priority to keep faith with those who have 
served during the past 10 years of war.
    Through judicious choices and forward planning, ever 
mindful of the economy in which we live, we have built a 
quality force that meets the needs of our Nation. By the end of 
fiscal year 2016, your United States Marine Corps will be 
streamlined down to 182,100 marines. This active-duty force 
will be complemented by the diverse depth of our operational 
reserve component that will remain at 39,600 strong.
    Our emerging United States Marine Corps will be optimized 
for forward presence, engagement, and rapid crisis response. It 
will be enhanced by critical enablers, special operators, and 
cyber warfare marines, all necessary on the modern battlefield.
    To build down the United States Marine Corps from its 
current end strength of 202,000, I will need the assistance of 
the Congress for the fiscal resources necessary to execute the 
drawdown at a measured and responsible pace of approximately 
5,000 marines a year, a rate that guards against a precipitous 
reduction that would be harmful to our force.

                           PREPARED STATEMENT

    As we continue to work with our Nation's leadership and my 
fellow joint partners, you have my assurance that your United 
States Marine Corps will be ever faithful in meeting our 
Nation's need for an expeditionary force in readiness, a force 
that can respond to today's crises with today's force today.
    Thank you for the opportunity to appear before you today. 
Madam Chairwoman and fellow members, I look forward to your 
questions.
    [The statement follows:]

              Prepared Statement of General James F. Amos

               THE INDOMITABLE SPIRIT OF THE U.S. MARINE

Your Marines are Ready Today
    We remain a Nation at war. Currently, nearly 20,000 marines are 
conducting combat operations in Afghanistan. Operation Enduring Freedom 
(OEF) remains our top priority. Having recently returned from visiting 
marines and sailors currently deployed throughout Central Command, I am 
pleased to report their professionalism and morale remains notably 
strong. Whether patrolling in Afghanistan or planning at the Pentagon, 
serving on Navy amphibious warships or engaging our partners around the 
world, the indomitable spirit of our greatest asset, the individual 
marine, stands ready--ready to safeguard our Nation's liberty, to 
ensure freedom of the seas, and to protect our Nation's interests 
abroad. With your assistance, we will continue to resource this 
National Treasure . . . the U.S. marine.

2011 Operational Highlights
    During the past year, marines have conducted counterinsurgency 
operations in Afghanistan and have responded to a rapid succession of 
unpredicted political upheavals, natural disasters, social unrest, 
piracy, and emerging threats in various unstable areas of the world's 
littoral regions.
            Operation Enduring Freedom
    We are seeing measurable progress along all lines of operation in 
the Helmand Province:
  --security;
  --reintegration;
  --rule of law;
  --governance;
  --development;
  --education; and
  --health.
    Over the past year, violence and the level of collateral damage 
have decreased significantly. Throughout 2012, marines in Regional 
Command-Southwest (RC(SW)) will continue transitioning to partnership 
training missions as we transfer even greater security responsibility 
to the maturing Afghan national security forces; police and army forces 
in Helmand Province have progressed in training and capability. There 
is a strong sense of optimism among our forces in Helmand Province.
            Operation Tomodachi
    Following a devastating earthquake and tsunami in Japan last 
spring, 3,600 marines and sailors from our amphibious forces in the 
Pacific responded within 24-hour notice. They served as the lead 
element of the joint force, delivered humanitarian aid (i.e. 500 tons 
of food and supplies; 2,150,000 gallons of water; and 51,000 gallons of 
fuel), rescued those in danger, provided consequence management, and 
facilitated the evacuation of almost 8,000 American citizens. For weeks 
following this disaster, Marine aircrews flew through a radioactive 
environment to save lives, deliver aid, and assist the afflicted.
            Operation Unified Protector/Odyssey Dawn
    Amidst a wave of civil turmoil spreading across Northern Africa, 
two amphibious warships with embarked marines sped to the Mediterranean 
and took up station off the coast of Libya. The 26th Marine 
Expeditionary Unit (MEU), an air-ground-logistics task force, provided 
our Nation's leaders invaluable decision time that allowed the 
determination of a way ahead and later integration with the joint force 
with the North Atlantic Treaty Organization to enforce a no-fly zone. 
Marine aviation assets were an important component of the joint force. 
Short take-off and vertical landing (STOVL) Harriers, operating from 
USS Kearsarge, conducted the first precision airstrikes and provided 
airborne command and control. Our KC-130Js evacuated noncombatant 
foreign nationals repatriating them to their homeland, and our MV-22B 
Ospreys rescued a downed American aviator using unprecedented 
operational reach.\1\
---------------------------------------------------------------------------
    \1\ The MV-22B Osprey rescue of an American combat aviator on March 
22, 2011, was conducted within 95 minutes over a distance of 300 
nautical miles (from launch aboard amphibious shipping to recovery of 
pilot and then back to shipping).
---------------------------------------------------------------------------
            Security Cooperation
    In 2011, we supported all six geographic combatant commands with 
task-organized forces of marines who conducted hundreds of security 
cooperation (SC) activities with the Armed Forces of more than 75 
countries. Aligned with Defense Strategic Guidance to ``develop 
innovative, low-cost, and small-footprint approaches to achieve our 
security objectives, relying on exercises, rotational presence and 
advisory capabilities'', our SC missions focus on internal defense and 
participation in coalition operations.\2\
---------------------------------------------------------------------------
    \2\ Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense, January 2012, p. 3.
---------------------------------------------------------------------------
            Embassy Reinforcement
    We continue providing security for 154 U.S. Embassies and 
consulates in 137 countries around the world through the Marine Corps 
Embassy Security Group. To augment this mission, marines from our Fleet 
Anti-Terrorism Security Teams rapidly deployed to reinforce Embassies. 
This past year they deployed to protect American lives and property in 
Bahrain, Egypt, and Yemen as crisis events unfolded across the Middle 
East.

The New Strategic Guidance; How Your Marine Corps is Changing
    New strategic guidance issued by the President and the Secretary of 
Defense provides the framework by which the Marine Corps will balance 
the demands of the future security environment with the realities of 
our current budget. The guidance calls for a future force that will 
``remain capable across the spectrum of missions, fully prepared to 
deter and defeat aggression, and to defend the homeland and our allies 
in a complex security environment''.\3\
---------------------------------------------------------------------------
    \3\ Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense, Fact Sheet, January 5, 2012 p. 2.
---------------------------------------------------------------------------
    We have built a quality force that is fully capable of executing 
its assigned missions. Our strategic guidance rightfully focuses our 
attention on the Pacific and Central Command regions. Navy-Marine Corps 
forward basing, response capabilities, and plans are already positioned 
to support that strategy, yet we will remain vigilant and capable to 
respond on short notice in other areas of the world as the Nation 
requires. Marines continually stand ready to contribute decisively to a 
joint force, and can help provide access for that force wherever 
needed.
    Though the fiscal choices made over the past year were difficult, 
we are confident that we are managing risk by balancing capacity and 
capabilities across our forces while maintaining the high levels of 
readiness for which the Nation relies on its marines. The Corps of 
today and tomorrow will maintain its high standards of training, 
education, leadership and discipline, while contributing vital 
capabilities to the joint force across the spectrum of military 
operations. The emerging strategy revalidates our role as America's 
expeditionary force in readiness. Our partnership with the Navy enables 
a forward-deployed and engaged force that shapes, deters, responds, and 
projects power well into the future.
    During our force structure assessment, we cross-checked 
recommendations against approved Department of Defense (DOD) Operations 
and Contingency Plans, and incorporated lessons learned from 10 years 
of combat. The resulting force structure decisions to support the new 
strategy are:
  --reduced the end strength of the active component of the Marine 
        Corps from 202,100 beginning this fiscal year to 182,100 by the 
        end of fiscal year 2016;
  --designed a force with capabilities optimized for forward-presence, 
        engagement, and rapid crisis response;
  --funded readiness levels required for immediate deployment and 
        crisis response;
  --properly re-shaped organizations, capabilities, and capacities to 
        increase aggregate utility and flexibility across the range of 
        military operations; also enhancing support provided to U.S. 
        Special Operations and Cyber Commands;
  --properly balanced critical capabilities and enablers across our 
        air-ground-logistics task forces, ensuring that identified low-
        density/high-demand assets became right-density/high-demand 
        assets;
  --incorporated the lessons learned from 10 years of war--in 
        particular, the requirements to field a force that is manned, 
        trained, and equipped to conduct distributed operations;
  --created an operational reserve component capability without any 
        reductions in reserve force structure; and
  --designed the force for more closely integrated operations with our 
        Navy, special operations, and inter-agency partners.
    Throughout this period of adjustment, we will ``keep faith with our 
marines, sailors, and their families''. Our approach to caring for them 
is based on our recognition and appreciation for their unwavering 
loyalty and unfailing service through a decade of combat operations. 
This strong commitment will not change.

Maintaining a High State of Readiness
    The Navy and Marine Corps team is the Nation's resource for 
mitigating risk. Given likely future operations set forth in the 
Defense Strategic Guidance ranging from defeating rogue actors to 
responding to natural disasters, the Nation can afford and should 
invest in the small premium it pays for high-readiness levels within 
its naval amphibious forces. Because our Nation cannot afford to hold 
the entire joint force at such high rates of readiness, it has 
historically ensured that marines remain ready; and has used us often 
to plug gaps, buy time for decisionmakers, ensure access or respond 
when and where needed.
    In order for the Marine Corps to achieve institutional readiness 
for crisis and contingency response, we must maintain balance in the 
following five pillars:
      High-Quality People (Recruiting and Retaining High-Quality People 
        Plays a Key Role in Maintaining our High State of Readiness).--
        Recruiting quality youth ultimately translates into higher 
        performance, reduced attrition, increased retention, and 
        improved readiness for the operating forces. By retaining the 
        highest-quality people, the Marine Corps will continue to 
        achieve success in today's dynamic environment and meet the 
        challenges posed to our Nation. We will not lower our 
        standards.
      Unit Readiness (Maintaining Readiness of the Operating Forces, 
        Including Appropriate Operations and Maintenance Funding to 
        Train to Core Missions and Maintain Equipment).--The Marine 
        Corps deploys units at high levels of readiness for assigned 
        missions. We source our best-trained, most-ready forces to meet 
        Geographic Combatant Commander requirements. One hundred 
        percent of deployed units report the highest levels of 
        readiness for their assigned mission. We will be ready to 
        deploy on a moment's notice.
      Capacity Versus Requirements (Force-Sizing To Meet Geographic 
        Combatant Commander Requirements With the Right Mix of Capacity 
        and Capability).--The Marine Corps must maintain a force that 
        meets our ongoing operational requirements to include our 
        commitment to OEF, our rotational presence abroad, our many 
        security cooperation and engagement activities, along with 
        anticipated missions as we reorient to the Pacific.
      Infrastructure Sustainment (Investing in Real Property, 
        Maintenance, and Infrastructure).--We must adequately resource 
        the sustainment of our bases and stations to maintain our 
        physical infrastructure and the means to train and deploy our 
        forces. As resources become more constrained, we will become 
        even better stewards of our installations to maintain our 
        facilities for the next generation of marines.
      Equipment Modernization (Ensuring Ground and Aviation Equipment 
        Matches the Needs of the Emerging Security Environment).--As we 
        explore options to adjust to changing fiscal realities, there 
        is a clear imperative for our Corps to reset portions of our 
        legacy equipment used in OEF and Operation Iraqi Freedom while 
        we modernize what we must to guarantee our dominance and 
        relevance against future threats.

                   FISCAL YEAR 2013 BUDGET HIGHLIGHTS

The Frugal Force
    The Marine Corps is fully aware of the fiscal challenges facing our 
Nation and has critically examined and streamlined our force needs for 
the future. We continually strive to be good stewards of the public 
trust by maintaining the very best financial management practices. The 
Marine Corps has undergone an independent audit in fiscal year 2010, 
and our fiscal year 2011 audit is still ongoing. We plan to pursue an 
independent audit again for fiscal year 2012 and fully expect an audit 
opinion for fiscal year 2011 and fiscal year 2012. To date, we are the 
only service to undertake such independent scrutiny. By the end of 
2012, we will complete initial Service-wide implementation of our 
Enterprise Resource Planning System--Global Combat Support System--
Marine Corps (GCSS-MC). GCSS-MC will significantly improve our 
inventory accountability and contribute to clean audit requirements. We 
are proud of our reputation for frugality and remain one of the best 
values for the defense dollar.
    We have four major accounts governing our operations:
  --investment;
  --operations and maintenance;
  --military construction (MILCON) and family housing; and
  --manpower.
    These are our priorities:
            Investment
  --Enhancing programs vital to our ground combat elements.
    --Light armored vehicles (LAV), high-mobility artillery rocket 
            system (HIMARS), small tactical unmanned aerial system 
            (STUAS).
  --Maintaining the same investment levels in other enabling programs.
    --Ground/Aviation Task Oriented Radar (G/ATOR), Next Generation 
            Enterprise Network (NGEN), Command and Control Situational 
            Awareness (C2/SA).
  --Fully funding critical research and development efforts.
    --Joint light tactical vehicle (JLTV), amphibious combat vehicle 
            (ACV).
  --Sustaining other ground and tactical vehicles until their 
        replacements can be procured.
    --High-mobility multi-purpose wheeled vehicle (HMMWV) and 
            amphibious assault vehicle (AAV).
  --Procuring full programs of record critical to aviation 
        modernization.
    --F-35B, H-1 Upgrades, MV-22B, KC-130J, CH-53K.
            Operations and Maintenance
  --Fully funding our education, training, and readiness accounts.
  --Resourcing civilian work force at fiscal year 2010 end-of-year 
        levels.
  --Enhancing support of Marine Special Operations Command (MARSOC) and 
        Marine Forces Cyber Command (MARFORCYBER).
  --Providing continued support to family readiness and Wounded Warrior 
        programs.
  --Supporting transition from the Navy/Marine Corps Intranet (NMCI) to 
        NGEN.
  --Maintaining energy mandates.
            Military Construction and Family Housing
  --Maintaining facility sustainment at 90 percent of required funding.
  --Increasing facilities demolition funds.
  --Preserving essential MILCON funding.
      Aviation.--Joint Strike Fighter, MV-22B Osprey.
      Ground.--Marine Corps Security Forces, Marine Corps University.
  --Preserving environmental restoration funding, family housing 
        operations and construction.
            Manpower
  --Reducing end strength from 202,100 marines to 182,100 marines by 
        the end of fiscal year 2016 in a responsible and measured way 
        to keep faith with all who have served.
  --Realigning force structure across the entire Marine Corps.
  --Maintaining our reserve component at 39,600 marines.
    During these times of constrained resources, we remain committed to 
refining operations, identifying efficiencies, and reinvesting savings 
to conserve scarce public funds. We have met or exceeded all DOD 
efficiency measures to date. This fiscal year, we are seeking $30.8 
billion ($23.9 billion baseline + $6.9 billion in overseas contingency 
operations) to fund our operations, provide quality resources for our 
marines, sailors, and their families, conduct reset of equipment worn 
from more than 10 years at war and posture our forces for the future. 
Marines account for only 8.2 percent \4\ of the total DOD budget. With 
that, our Nation gains the ability to respond to unexpected crises, 
from humanitarian assistance and disaster relief efforts to 
noncombatant evacuation operations, to counterpiracy operations, to 
full-scale combat. When the Nation pays the ``sticker price'' for its 
marines, it buys the ability to remain forward deployed and forward 
engaged, to reinforce alliances and build partner capacity.
---------------------------------------------------------------------------
    \4\ This percentage is based on the enacted fiscal year 2012 DOD 
budget authorization and is slightly larger than the 7.8-percent sum 
cited in the past. This percentage includes $3 billion in fiscal year 
2012 funding for amphibious warship new construction as well as Navy 
funding for chaplains, medical personnel, amphibious warships 
(operations and maintenance), and Marine Corps aircraft.
---------------------------------------------------------------------------
         THE ROLE OF MARINES IN THE FUTURE SECURITY ENVIRONMENT

The Future Security Environment
    The rapidly evolving events of the past year alone indicate a new 
constant. Competition for resources; natural disasters; social unrest; 
hostile cyber activity, violent extremism (criminal, terrorist, and 
religious); regional conflict; proliferation of weapons of mass 
destruction; and advanced weaponry in the hands of the irresponsible 
are becoming all too common. Marine Corps intelligence estimates 
rightfully point out that ``more than half of the world's population 
lives in fragile states, vulnerable to ruinous economic, ideological, 
and environmental stresses. In these unstable regions, ever-present 
local instability and crises will erupt, prompting U.S. responses in 
the form of humanitarian assistance and disaster relief operations, 
actions to curtail piracy, stability operations, and the rescue and 
evacuation of U.S. citizens and diplomats''.\5\ These and other sources 
of stress are challenging industrialized nations just as they do 
emerging and failed ones. Further increased fragility of the global 
systems impacts both international markets and our Nation's economic 
stability. These challenges are harbingers of potential crisis around 
the world and more specifically for naval forces in the littoral 
regions.
---------------------------------------------------------------------------
    \5\ Five Year Forecast: 2012-2017 Assessment of International 
Challenges and Opportunities That May Affect Marine Expeditionary 
Forces, January 2012, p. 1.
---------------------------------------------------------------------------
    History has shown that crises usually come with little or no 
warning; stemming from the same conditions of uncertainty, complexity, 
and chaos we observe across the world today. Regardless of the 
financial pressures placed on governments and markets today, crises 
requiring military intervention undoubtedly will continue tomorrow. In 
this environment, physical presence and readiness matter significantly. 
Since the 1990s, America has been reducing its foreign basing and 
presence, bringing forces back home. This trend is not likely to change 
in the face of the strategic and budget realities we currently face. 
There remains an enduring requirement to balance presence with cost. In 
the past, the Nation has chosen to depend on the Navy and Marine Corps 
to provide a lean and economical force of an expeditionary nature, 
operating forward and in close proximity to potential trouble spots. 
Investing in naval forces that can respond to a wide-range of crisis 
situations, creates options and decision space for our Nation's 
leaders, and protects our citizens and interests is a prudent measure 
in today's world.

The Navy and Marine Corps Team
    Partnered with the United States Navy in a state of persistent 
forward presence aboard amphibious warships, your United States Navy 
and Marine Corps team remains the most economical, agile, and ready 
force immediately available to deter aggression and respond to crises. 
Such a flexible and multicapable force that maintains high-readiness 
levels can mitigate risk, satisfy the standing strategic need for 
crisis response, and when necessary, spearhead entry and access for the 
joint force. More than 60 years ago and arising out of the lessons 
learned from the Korean War, the 82nd Congress envisioned the need for 
a force that ``is highly mobile, always at a high state of combat 
readiness . . . in a position to hold a full-scale aggression at bay 
while the American Nation mobilizes its vast defense machinery''.\6\ 
This statement continues to describe your Navy and Marine Corps team 
today. It is these qualities that allow your Marine Corps to protect 
our Nation's interests, reassure our allies, and demonstrate America's 
resolve.
---------------------------------------------------------------------------
    \6\ Committee report accompanying S. 677 and H.R. 666 of June 30, 
1951.
---------------------------------------------------------------------------
Reorienting to the Pacific
    As our security strategy looks increasingly toward the Pacific, 
forward-deployed naval forces will become increasingly vital. The 
``geographic realities'' of the Pacific theater demand naval 
responsiveness. The genesis of the amphibious and power projection 
capabilities of the Navy and Marine Corps traces back more than 70 
years to operations in the Pacific--where today key terrain and 
strategic chokepoints are separated by large expanses of ocean. The 
Pacific theater is where 30 percent of the world's population and the 
same percentage of our primary trading partners reside; where five 
major defense treaties are focused; \7\ where 50 percent of the world's 
megacities are situated; and where natural disasters over the past 
decade have required the greatest attention from the international 
community.\8\ The geography of the Pacific has not changed, though our 
tactics and operations continually evolve with the changing character 
and lethality of modern warfare. Approximately 24,000 marines already 
in the Pacific conduct an ambitious, annual training cycle of more than 
80 exercises, engagements and initiatives, in addition to the crises we 
respond to such as Operation Tomodachi in Japan last year.
---------------------------------------------------------------------------
    \7\ Philippines-U.S. Mutual Defense Treaty (1951); Australia, New 
Zealand, U.S. (ANZUS) Treaty; U.S. Alliance with South Korea (1954); 
Thailand (Manila Pact of 1954); U.S. Japan Security Treaty (1960).
    \8\ According to the United Nations Economic and Social Commission 
for Asia and the Pacific, during the period 2001 to 2010 in the Asia-
Pacific region more than 200 million people per year were affected by 
natural disasters. This total amounts to 95 percent of the total people 
affected by natural disasters annually. Approximately 70,000 people per 
year were killed due to natural disasters (65 percent of the world's 
total that died of such causes). An average of $35 billion of economic 
damage occurred per year to the region due to natural disasters.
---------------------------------------------------------------------------
    Forward presence involves a combination of land- and sea-based 
naval forces. Our enduring bases and presence have served U.S. national 
security interests well for decades. Our rotational presence in 
locations such as Japan, Korea, Australia, the Philippines, Thailand, 
and Singapore reassures our allies and partners. Sea-basing, the act of 
using amphibious warships with support from maritime prepositioned 
ships with various types of connectors, is uniquely suited to provide 
the geographic combatant commander with the flexibility to deploy 
forces anywhere in the Pacific region without having to rely on 
multiple bases ashore or imposing our presence on a sovereign nation. 
Sea-basing enables forward deployed presence at an affordable cost. 
Forward-deployed naval forces serve as a deterrent and provide a 
flexible, agile response capability for crises or contingencies. 
Maritime prepositioning offers the ability to rapidly support and 
sustain Marine forces in the Pacific during training, exercises, or 
emerging crises, and delivers the full-range of logistical support 
those forces require.

A Middleweight Force From the Sea
    As a ``middleweight force'', Marines do not seek to supplant any 
service or ``own'' any domain. Rather, Marine forces operate in a 
``lane'' that passes through all domains--land, sea, air, space, and 
cyber--operating capably and freely throughout the spectrum of threats, 
whether they be conventional, hybrid, irregular, or the uncertain areas 
where they overlap. Whereas other forces are optimized for a particular 
mission and domain, the Marine Corps is optimized for rapid deployment, 
versatile employment, and self-sustainment via Marine Air-Ground Task 
Forces (MAGTF), which are balanced, combined-arms formations under a 
single commander. All MAGTFs consist of four core elements:
  --a command element;
  --ground combat element;
  --aviation combat element; and
  --logistics combat element.
    MAGTFs are scalable in size and capability.
    Bridging a seam in our Nation's defense between heavy conventional 
and special operations forces (SOF), the United States Marine Corps is 
light enough to arrive rapidly at the scene of a crisis, but heavy 
enough to carry the day and sustain itself upon arrival. The Marine 
Corps is not designed to be a second-land army. That said, throughout 
the history of our Nation, its Marines have been called to support 
sustained operations from time to time. We are proud of our ability to 
contribute to land campaigns when required by leveraging and rapidly 
aggregating our capabilities and capacities. Primarily though, the 
Corps is a critical portion of our integrated naval forces and designed 
to project power ashore from the sea. This capability does not 
currently reside in any other service; a capability that has been 
called upon time and again to deter aggression and to respond quickly 
to threatening situations with appropriate military action.
    Marine Corps and SOF roles are complementary, not redundant. 
Special forces contribute to the counterinsurgency and counterterrorism 
demands of the geographic combatant commanders in numerous and 
specialized ways, but they are not a substitute for conventional 
forces, and they do not have a broader range of capabilities and 
sustainability. SOF lack the organic logistic capability and capacity 
to execute a noncombatant operation, serve as a ``fire brigade'' in a 
crisis or conduct combined amphibious and airborne assaults against a 
competent enemy. Middleweight naval forces, trained in combined arms 
warfare and knowledgeable in the art of maneuver warfare from the sea, 
are ideally trained and prepared for these types of operations.

The Littorals
    The United States remains a maritime Nation that relies heavily on 
the oceans and waterways of the world for the free exchange of ideas 
and trade. The maritime commons are where 95 percent of the world's 
commerce flows, where more than 42,000 commercial ships are under way 
daily, where most of the world's digital information flows via undersea 
cables, and where one-half the world's oil travels through seven 
strategic chokepoints. To secure our way of life and ensure 
uninterrupted freedom of navigation, we must retain the ability to 
operate simultaneously and seamlessly while at sea, ashore, from the 
sea, in the air, and perhaps most importantly, where these domains 
converge--the littorals. These littoral areas exist not only in the 
Pacific but throughout the world. Operating in the littoral environment 
demands the close integration of air, sea, and land power. By using the 
sea as maneuver space, flexible naval forces can quickly respond to 
crises in the bordering environment of the littorals.
    In the context of the new strategy, the Navy and Marine Corps team 
is increasingly relevant in meeting the exigent military needs of our 
Nation. Together, we provide the capability for massing potent forces 
close to a foreign shore, while maintaining a diplomatically sensitive 
profile. Additionally, when necessary, we are able to project this 
power ashore across the range of military operations at a time of our 
Nation's choosing. Amphibious capabilities provide the means to conduct 
littoral maneuver--the ability to maneuver combat-ready forces from the 
sea to the shore and inland in order to achieve a positional advantage 
over the enemy. Working seamlessly as a single naval force, your Navy 
and Marine Corps team provides the essential elements of access and 
forcible entry capabilities that are necessary components of a joint 
campaign.

Engagement
    In order to keep large crises from breaking out or spilling over to 
destabilize an entire region, 21st century security challenges also 
require expansion of global engagement with partner and allied 
nations--facilitated through persistent forward naval presence--to 
promote collective approaches to common security concerns. Our 
engagement contributions in support of the geographic combatant 
commanders minimize conditions for conflict and enable host nation 
forces to effectively address instability on their own as it occurs. 
They promote regional stability and the growth of democracy while also 
deterring regional aggression. History has shown that it is often far 
cheaper to prevent a conflict than to respond to one. This thrust will 
necessitate amphibious forces that are not only fighters, but who can 
also serve as trainers, mentors, and advisers to host nation military 
forces.

Integration with the Joint Force
    In our new defense strategy, the Marine Corps will fill a unique 
lane in the capability range of America's Armed Forces. Whether first-
on-the scene, part of, or leading a joint force, marines instinctively 
understand the logic and synergy behind joint operations. Our ability 
to deploy rapidly and globally allows us to set the stage and enable 
the transition to follow-on joint forces in a timely manner. Our MAGTF 
structure--with organic logistics, aviation, intelligence, fires, and 
other assets--enables us to seamlessly team with others and provides 
options for the joint force commander to:
  --provide a visible deterrent to would-be threats without requiring a 
        vulnerable presence ashore at fixed bases or airfields;
  --swiftly respond to small-scale crises with a range of options 
        beyond precision strike, potentially containing crises before 
        they erupt into major contingencies;
  --partner with the Navy and United States Special Operations Command 
        (SOCOM) to shape the operational environment;
  --use the sea as maneuver space, avoiding enemy strengths, and 
        striking his weaknesses;
  --directly seize or obtain operational objectives from the sea, 
        without the requirement for large force build-ups or sustained 
        presence ashore;
  --extend the operational reach of the Joint Force hundreds of miles 
        inland to achieve effects from the sea through organic MAGTF 
        assets; and
  --overcome anti-access and area denial threats in a single-naval 
        battle approach through the use of landing forces aboard 
        amphibious warships integrated with other capabilities to 
        include mine countermeasures and naval surface fires.

Day-to-Day Crisis Response
    Engagement and crisis response are the most frequent reasons to 
employ our amphibious forces. The same capabilities and flexibility 
that allow an amphibious task force to deliver and support a landing 
force on a hostile shore enable it to support forward engagement and 
crisis response. The geographic combatant commanders have increased 
their demand for forward-postured amphibious forces capable of 
conducting security cooperation, regional deterrence, and crisis 
response.
    Marines have conducted amphibious operations and responded to 
crises throughout the world more than 100 times in the past two 
decades. The vast majority of our expeditionary service has involved 
crisis response and limited contingency operations, usually conducted 
in periods when the Nation has otherwise been at peace. Some of these 
were relatively short-term rescue or raid expeditions, while others 
evolved into contingencies that were limited in force size but not 
limited in duration, complexity and level of integration with the other 
elements of national power. We will contribute to the missions of our 
Nation's security strategy in the same way.\9\ On a day-to-day basis, 
marines will be forward-deployed and engaged, working closely with our 
joint and allied partners. When crises or contingencies arise, these 
same marines will respond--locally, regionally, or globally if 
necessary--to accomplish whatever mission the Nation requires.
---------------------------------------------------------------------------
    \9\ The Marine Corps is capable of performing 9 of the 10 stated 
missions in the Defense Strategic Guidance to include:
      -- Counterterrorism and irregular warfare;
      -- Deter and defeat aggression;
      -- Project power despite anti-access/area denial challenges;
      -- Counter weapons of mass destruction;
      -- Operate effectively in cyberspace and space;
      -- Defend the Homeland and provide support to civil authorities;
      -- Provide a stabilizing presence;
      -- Conduct stability and counterinsurgency operations; and
      -- Conduct humanitarian, disaster relief; and other operations.
---------------------------------------------------------------------------
America's Expeditionary Force in Readiness
    The new strategic guidance underscores the Marine Corps role as 
America's expeditionary force in readiness. Reliant on a strategically 
relevant and appropriately resourced Navy fleet of amphibious warships 
and maritime prepositioning force (MPF) vessels, we are forward 
deployed and forward engaged: shaping strategic environments; training 
partner nation and allied forces; deterring adversaries; and responding 
to all manner of crises contingencies.\10\ Alert and ready, we respond 
to today's crisis with today's force . . . today. Marines are ready to 
respond whenever the Nation calls and wherever and however the 
President may direct.
---------------------------------------------------------------------------
    \10\ As of January 2012, approximately 30,000 marines were forward 
deployed in operations supporting our Nation's defense. This number 
includes approximately 19,500 marines in Afghanistan including those 
serving in external billets (transition teams, joint/interagency 
support, etc.), approximately 5,000 marines at sea on Marine 
Expeditionary Units (MEU), and approximately 6,000 marines engaged in 
various other missions, operations, and exercises. The 30,000 marine 
statistic does not include more than 18,000 marines permanently 
assigned to garrison locations outside the continental United States 
such as in Europe, the Middle East, the Pacific, etc.
---------------------------------------------------------------------------
          WE HAVE WORKED DILIGENTLY TO PREPARE FOR THE FUTURE

Force Structure Review
    In an effort to ensure the Marine Corps is organized for the 
challenges of the emerging security environment, we conducted a 
capabilities-based force structure review beginning in the fall of 2010 
to identify ways we could rebalance and posture for the future. The 
force structure review incorporated the lessons learned from 10 years 
of combat and addressed 21st century challenges confronting our Nation 
and its Marine Corps. The review sought to provide the ``best value'' 
in terms of capability, cost, and readiness relative to the operational 
requirements of our forward-engaged geographic combatant commanders. 
The results of that effort have been shared with the Congress over the 
past year. While affirming this strategy-driven effort, we have aligned 
our force based on the realities of constrained spending levels and 
strategic guidance.

End Strength
    During our comprehensive force structure review, we tailored a 
force structure to ensure a sufficient type and quantity of force 
available to meet the forward presence, engagement, and crisis response 
requirements of the geographic combatant commanders. The resulting 
force structure is intended to meet title 10 responsibilities, broaden 
capabilities, enhance speed and response options, and foster the 
partnerships necessary to execute the range of military operations 
while providing the ``best value'' to the Nation. This force structure 
also accounted for the addition of enabling assets (e.g. combat 
engineers, information operations specialists, civil affairs personnel, 
specialized intelligence marines, cyber operators, special operators, 
etc.) necessary to meet the demands of the battlefields of today and 
tomorrow.
    As directed, we will draw-down our force in a measured way 
beginning in fiscal year 2013. Our fiscal year 2013 programmed end 
strength is 197,300 marines. In accordance with Defense Strategic 
Guidance, we are resisting the ``temptation to sacrifice readiness in 
order to retain force structure''.\11\ Personnel costs account for 
about 60 cents of every marine $1; through our force structure efforts 
we balanced the requisite capabilities across a smaller force, in 
effect trading capacity for modernization and readiness.
---------------------------------------------------------------------------
    \11\ ``Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense'', January 2012, p. 7.
---------------------------------------------------------------------------
    The resulting 182,100 marine active-duty force, supported by our 
operational reserve component, retains the capacity and capability to 
support steady state and crisis response operations through rotational 
deployments, and to rapidly surge in support of major contingency 
operations. Although reshaping the Marine Corps from 202,100 marines to 
a force of approximately 182,100 marines entails some risk to our 
ability to simultaneously respond to multiple large-scale 
contingencies, it is manageable. We intend to leverage the diverse 
depth and range of assets within our reserve component both to mitigate 
risk and maximize opportunities where available.
    As we reduce end strength, we must manage the rate carefully so we 
reduce the force responsibly. We will draw-down our end strength by 
approximately 5,000 marines per year. The continued resourcing of this 
gradual ramp-down is vital to keeping faith with those who have already 
served in combat and for those with families who have experienced 
resulting extended separations. The pace of active component draw-down 
will account for completion of our mission in Afghanistan, ensuring 
proper resiliency in the force relative to dwell times. As our Nation 
continues to draw-down its Armed Forces, we must guard against the 
tendency to focus on pre-9/11 end strength levels that neither account 
for the lessons learned of 10 years at war nor address the irregular 
warfare needs of the modern battlefield. Our 182,100 Marine Corps 
represents fewer infantry battalions, artillery battalions, fixed-wing 
aviation squadrons, and general support combat logistics battalions 
than we had prior to 9/11. However, it adds cyber operations 
capability, Marine special operators, wartime enablers, and higher unit 
manning levels--all lessons gleaned from 10 years of combat operations; 
it is a very capable force.
    My promise to the Congress is that at the end of the day, I will 
build and maintain the best Marine Corps our Nation can afford with the 
resources it is willing to invest. We are also committed to keeping 
faith with marines, sailors, and their families who have sacrificed so 
much over the past decade at war. Personnel reductions that become 
precipitous are among the worst measures that can be employed to save 
money. Our All-Volunteer Force is built upon a reasonable opportunity 
for retention and advancement; unplanned and unexpected wholesale cuts 
undermine the faith and confidence in service leadership, and create 
long-term experience deficits with negative operational impacts. Such 
an approach would no doubt do significant long-term damage to our 
ability to recruit and maintain a quality force.

Civilian Marines
    Our civilian marines support the mission and daily functions of the 
Marine Corps and are an integral part of our total force. In 
recognition of the need to study and clearly define our civilian work 
force requirements to ensure we had the right workforce in the right 
location, at a cost that aligned with our budget, I directed a full 
review of the total force in late 2010. This measure necessitated a 
hiring freeze but resulted in prioritized requirements within 
affordable levels and the alignment of resources with capabilities. It 
also ensured the civilian labor force was shaped to support the mission 
of the Corps today and that projected for the future.
    During the fiscal year 2012 budget cycle, there was no growth in 
our fiscal year 2011 civilian work force levels due to necessary 
efficiency measures. Consequently, our civilian work force went from a 
planned level of 21,000 personnel in direct funded full-time equivalent 
(FTE) personnel to 17,501 personnel. This number of FTE personnel will 
remain constant in each year of the current future year's defense plan 
(FYDP)--there is no growth planned. The end result is a 17-percent 
reduction in planned growth between fiscal year 2011 and fiscal year 
2012 budget requests.
    Our fiscal year 2013 civilian personnel budget reflects efforts to 
restrain growth in direct funded personnel. By establishing budgetary 
targets consistent with current fiscal realities, we will be able to 
hold our civilian labor force at fiscal year 2010 end-of-year levels, 
except for limited growth in critical areas such as the acquisition 
workforce, the intelligence community, the information technology 
community (i.e. conversion from NMCI to NGEN), in-sourcing of security 
personnel (i.e. Marine Corps civilian law enforcement personnel), and 
personnel in our cyber community. Our civilian marine work force 
remains the leanest among DOD with only 1 civilian for every 10 
marines.

                             OUR PRIORITIES

Commandant's Four Priorities
    To best meet the demands of the future and the many types of 
missions marines will be expected to perform now and beyond the post-
OEF security environment, I established four enduring priorities in 
2010. To that end, we will:
  --provide the best trained and equipped marine units to Afghanistan. 
        This will not change and remains our top priority;
  --rebalance our Corps, posture it for the future and aggressively 
        experiment with and implement new capabilities and 
        organizations;
  --better educate and train our marines to succeed in distributed 
        operations and increasingly complex environments; and
  --keep faith with our marines, our sailors, and our families.
    We are making significant progress within each of these four 
critical areas; however, there are pressing issues facing our Corps 
today that require the special attention and assistance of the 
Congress. These include specific programs and initiatives within the 
command, ground, logistics, and aviation portfolios of the MAGTF.

Reset
    The Marine Corps is conducting a comprehensive review of its 
equipment inventory to validate reset strategies, future acquisition 
plans, and depot maintenance programming and modernization initiatives. 
As already stated, after 10 years of constant combat operations, the 
Marine Corps must reset the force coming out of Afghanistan. The reset 
of equipment retrograded to home station from Iraq (approximately 
64,000 principal items) is complete. However, the equipment density 
list currently supporting combat operations in Afghanistan totals 
approximately 95,000 principal items, of which approximately 42 percent 
was retransferred directly from Iraq to support the surge of 2009. The 
bulk of this transferred equipment included high-demand items such as 
communications equipment and vehicles to include the majority of our 
mine-resistant ambush-protected vehicles and 100 percent of our medium 
tactical vehicle fleet.
    Sustaining current combat operations has reduced the aggregate 
readiness of the nondeployed force. Nondeployed unit readiness is 
degraded and has been the ``bill payer'' for deployed unit readiness. 
We sacrificed readiness levels of our home station units to ensure 
marines in combat had the very best equipment. Through the support of 
the Congress over the past few years, we have received a good portion 
of the required funding for reset and have made significant progress at 
our depots in restoring and procuring required materiel. But there is 
more to do at our home stations. Thirty-three percent of nondeployed 
units report the highest-readiness levels for their designed mission, 
which leaves 67 percent of nondeployed units in a degraded state of 
readiness. The largest contributing factor to degraded readiness within 
nondeployed units is equipment supply. The nondeployed force provides 
the Nation depth in responsiveness and options when confronted with the 
unexpected. Our marines at home must be ``geared up'' and ready to be 
called at a moment's notice. Low levels of readiness within the 
nondeployed force increases risk in the timely and successful execution 
of a military response to crises or contingencies. Therefore, it is 
critical that the Marine Corps continues to receive congressional 
assistance on required funding to reset our equipment from the 
conflicts of the past decade.
    In January 2012, I signed the ``Marine Corps OEF Ground Equipment 
Reset Strategy'', rooted in the lessons learned from our successful 
redeployment and retrograde from Iraq. This strategy is helping to 
identify what equipment we will reset and what we will divest. It 
prioritizes investment and modernization decisions in accordance with 
the capabilities of our middleweight force construct, defining unit-
level mission essential tasks and equipment requirements to support the 
range of military operations, and equips to core capabilities for 
immediate crisis response deployment and building strategic depth. We 
have issued disposition instructions on 8,400 principal items 
associated with the initial draw-down of forces that will occur this 
fall. In Afghanistan, 35 percent of that equipment has entered the 
redeployment and retrograde pipeline. Initial shipments of equipment 
have arrived at home stations and depots, and are being entered into 
the maintenance cycle. We currently expect divestment of approximately 
21 percent of the total Afghanistan equipment density list as obsolete, 
combat loss, or otherwise beyond economical repair. These are combat 
capability items that must be replaced.
    The reset of our equipment after more than a decade of combat 
requires an unprecedented level of effort. Our Marine Corps depots will 
be asked to do more once again; they stand ready to do so. As our 
Nation looks to efficiencies in its Armed Forces, we must maintain a 
keen awareness of the role that depots play in keeping our country 
strong. The continued availability of our depot capacity both at 
Barstow, California and Albany, Georgia is essential to our ability to 
self-generate readiness and to respond when we must surge in response 
to wartime demand. Acknowledging fiscal realities, I directed, with the 
Secretary of the Navy's approval, the consolidation of the two Marine 
Corps depots under a single command with two operating plant locations. 
Consolidating our depots under a single commander is the right balance 
between fiscal efficiency and meeting the unique requirements of the 
Marine Corps. This consolidation will reduce costs, standardize 
processes between industrial plants, and increase efficiency.

Modernization
    In conjunction with our reset efforts, we are undertaking several 
initiatives to conduct only essential modernization of the Marine Corps 
Total Force. This will place us on a sustainable course to achieve 
institutional balance. We are doing so by judiciously developing and 
procuring the right equipment needed for success in the conflicts of 
tomorrow, especially in those areas that underpin our core 
competencies. As such, I ask for continued congressional support to 
modernize equipment and maintain a high state of readiness that will 
place us on solid footing in a post-Afghanistan security environment. 
While budgetary pressures will likely constrain modernization 
initiatives, we will mitigate pressure by continuing to prioritize and 
sequence both our modernization and sustainment programs to ensure that 
our equipment is always ready and that we are proceeding in a fiscally 
responsible manner. Modernization programs that require significant 
additional funding above current levels will be evaluated for continued 
operational requirement and capability/capacity modification.
    We recognize that our planned, force structure reduction following 
our commitment in Afghanistan will accommodate a level of decreased 
modernization investment due to a requirement for a smaller quantity of 
modernized equipment. However, any qualitative modernization reductions 
will impact our ability to respond to future adversaries and threats. 
The current baseline budget allows for equipment modernization on a 
reasonable timeline across the FYDP. Possible future reductions in the 
baseline budget will result in delays, modification or elimination of 
key modernization programs. Modernization in the following areas is 
critical to maintaining operational capabilities and readiness:
  --ground combat tactical vehicles;
  --aviation;
  --preparing for future battlefields;
  --amphibious and prepositioning ships;
  --expeditionary energy; and
  --intelligence, surveillance, and reconnaissance.

Ground Combat Tactical Vehicle Strategy
    The programmatic priority for our ground forces is the seamless 
maneuver of marines from the sea to conduct operations ashore whether 
for training, humanitarian assistance, or combat. Our ground combat 
tactical vehicle (GCTV) strategy is focused on achieving the right mix 
of assets, while balancing performance, payload, survivability, fuel 
efficiency, transportability, and cost. Vehicles comprising our GCTV 
strategy include our entire inventory of wheeled and tracked vehicles 
and planned future capabilities including the JLTV, amphibious combat 
vehicle (ACV) and the marine personnel carrier (MPC). Throughout 2011 
and informed by cost, we conducted a comprehensive systems engineering 
review of amphibious vehicle operational requirements. The review 
evaluated the requirements for water mobility, land mobility, 
lethality, and force protection of the future environment. The 
identification of essential requirements helped to drive down both the 
production and the sustainment costs for the amphibious vehicles of the 
future.
    We are conducting an analysis of alternatives on six ACV options, 
the results of which will help to inform the direction and scope of the 
ACV program. The MPC program is maturing as a wheeled armored personnel 
carrier and complements the ACV as a possible solution to the general 
support lift capacity requirements of Marine forces operating in the 
littorals.
    We are firmly partnered with the U.S. Army in fielding a JLTV to 
replace a portion of our legacy medium lift utility vehicles. Our long-
term participation in this program remains predicated on development of 
a cost-effective vehicle, whose payload integrates seamlessly with our 
expeditionary operations and likely amphibious and strategic lift 
profiles.\12\ The Joint Requirements Oversight Council has approved the 
JLTV Capability Development Document, and our combat development 
command in Quantico is leading the Army and Marine Corps effort to 
establish a program of record at Milestone B in the third quarter of 
fiscal year 2012. Our approach to JLTV is as an incremental 
acquisition, and our objective for Increment I currently stands at more 
than 5,000 vehicles. Factoring all the above considerations, the 
current pathway for our GCTV strategy includes the following actions:
---------------------------------------------------------------------------
    \12\ For two-axle combat vehicles, this equates to combat weights 
in the 18,000 to 19,000 lbs range, translating to empty vehicle weights 
in the range of 12,000 to 13,000 lbs.
---------------------------------------------------------------------------
  --develop a modern ACV;
  --develop and procure JLTV;
  --sustain HMMWVs through 2030 by utilizing an Inspect and Repair Only 
        As Necessary Depot Maintenance Program and a HMMWV Modification 
        Line; \13\
---------------------------------------------------------------------------
    \13\ HMMWV recapitalization does not meet Marine Corps requirements 
for those light vehicles with the most demanding missions. They cannot 
deliver reliability, payload, service life, mobility, the ability to 
fit on MPF shipping, and growth potential. The JLTV is the most cost-
effective program to meet capability gaps for those light combat 
vehicles with the most demanding missions.
---------------------------------------------------------------------------
  --initiate a legacy amphibious assault vehicle upgrade as a bridge to 
        ACV;
  --continue research and development in MPC through fiscal year 2014 
        to identify the most effective portfolio mix of vehicles; and
  --limit procurement of vehicles to reduced approved acquisition 
        objective estimates as identified.

Marine Corps Aviation
    Marine Corps Aviation is proud to celebrate its centennial of 
service to our Nation this year. Our priority for aviation is support 
of marines in Afghanistan and wherever marines are deployed. On 
average, more than 40 percent of our aviation force is deployed at any 
time with an additional 25 percent preparing to deploy. All told, this 
equates to two-thirds of Marine Aviation forces currently deployed or 
preparing to deploy. We are continuing a modernization effort that 
began more than a decade ago. Today, the Marine Corps is challenged to 
replace aging platforms that have reached the end of their service 
lives or suffered accelerated wear in harsh operating environments, 
thus reducing service life and resulting in the loss of critical war-
fighting capabilities. Our aviation plan is a phased multiyear approach 
to modernization that encompasses aircraft transitions, readiness, 
aircraft inventory shortfalls, manpower challenges, safety, and fiscal 
requirements.
    In an era of budgetary constraint and amidst calls for reductions 
in the collective aviation assets within DOD, it is important to 
understand that Marine air is not redundant with other services' 
capabilities. The U.S. Air Force is not designed to operate from the 
sea, nor are most of its aircraft suited for operations in the types of 
austere environments often associated with expeditionary missions. The 
Navy currently does not possess sufficient capability to operate their 
aircraft ashore once deployed forward on carriers--and yet history has 
shown that our Nation often needs an expeditionary aviation capability 
in support of both naval and land campaigns. The following programs 
form the backbone of our aviation modernization effort:
      F-35B.--As we modernize Marine fixed-wing aviation assets for the 
        future, the continued development and fielding of the short 
        take-off and vertical landing (STOVL) F-35B Joint Strike 
        Fighter remains the centerpiece of this effort. The capability 
        inherent in a STOVL jet allows the Marine Corps to operate in 
        harsh conditions and from remote locations where few airfields 
        are available for conventional aircraft. It is also 
        specifically designed to operate from amphibious ships--a 
        capability that no other tactical aircraft possesses. The 
        ability to employ a fifth-generation aircraft from amphibious 
        ships doubles the number of ``carriers''--11 CVN and 11 LHD/
        LHAs--from which the United States can employ fixed wing 
        aviation. Once fully fielded, the F-35B will replace three 
        legacy aircraft--F/A-18, EA-6B, and AV-8B--saving DOD 
        approximately $1 billion in legacy operations and maintenance 
        costs.
      The F-35B program has been a success story over the past year. 
        Due to the performance of F-35B prototypes in 2011, the program 
        was recently removed 12 months early from a fixed period of 
        scrutiny. The F-35B completed all planned test points, made a 
        total of 260 vertical landings (versus 10 total in 2010) and 
        successfully completed initial ship trials on USS Wasp. 
        Delivery is still on track; the first three F-35Bs arrived at 
        Eglin Air Force Base in January of this year. Continued funding 
        and support from the Congress for this program is of utmost 
        importance for the Marine Corps as we continue with a plan to 
        ``sundown'' three different legacy platforms.
      MV-22B.--The MV-22B Osprey has performed exceedingly well for the 
        Corps and the joint force. To date, this revolutionary 
        tiltrotor aircraft has changed the way Marines operate on the 
        battlefield, giving American and Coalition forces the maneuver 
        advantage and operational reach unmatched by any other tactical 
        aircraft. Since achieving initial operating capability (IOC) in 
        2008, the MV-22B has flown more than 18,000 hours in combat and 
        carried more than 129,000 personnel and 5.7 million pounds of 
        cargo. The MV-22B has made multiple combat deployments to Iraq, 
        four deployments with MEUs at sea, and it is currently on its 
        fifth deployment to Afghanistan. Our squadron fielding plan is 
        well under way as we continue to replace our 44-year-old, 
        Vietnam-era CH-46 helicopters. We must procure all required 
        quantities of the MV-22B in accordance with the program of 
        record. Continued calls for cancellation of this program are 
        ill-informed and rooted in anachronisms when measured against 
        the proven record of performance and safety this force 
        multiplier brings to today's battlefields in support of marines 
        and the joint force.
      CH-53K.--We are transitioning our rotary-wing assets for the 
        future. The CH-53K is a new build heavy-lift helicopter that 
        evolves the legacy CH-53E design to improve operational 
        capability, reliability, maintainability, survivability, and 
        cost. The CH-53K will be capable of transporting 27,000 pounds 
        of external cargo under high altitude/hot conditions out to 110 
        nautical miles, nearly three times the lift capacity of the 
        legacy CH-53E. It is the only marinized rotorcraft \14\ able to 
        lift 100 percent of Marine Corps air-transportable equipment 
        from amphibious shipping (MPF included). Our force structure 
        review validated the need for a CH-53K program of record of 
        nine CH-53K squadrons.
---------------------------------------------------------------------------
    \14\ The term ``marinized'' indicates that an aircraft meets naval 
aviation requirements for use and storage in a maritime environment. 
Aviation platforms used by the Navy and Marine Corps require special 
outfitting unique for use on and from naval vessels.
---------------------------------------------------------------------------
      UH-1/AH-1.--The H-1 program, comprised of the UH-1Y utility 
        helicopter and the AH-1Z attack helicopter, is a single 
        acquisition program that leverages 84-percent commonality of 
        major components, thereby enhancing deployability and 
        maintainability while reducing training requirements and 
        logistical footprints. Both aircraft are in full-rate 
        production. The H-1 procurement objective is 160 UH-1Ys and 189 
        AH-1Zs for a total of 349 aircraft. Currently, 131 H-1 aircraft 
        are on contract, with 51 UH-1Ys and 21 AH-1Zs delivered to 
        date. The UH-1Y has already deployed with the 13th MEU and has 
        supported sustained combat operations in OEF since November 
        2009. The AH-1Z achieved IOC in February 2011 and saw its first 
        deployment alongside the UH-1Y in November 2011 as part of the 
        11th MEU. The continued procurement and rapid transition to 
        these two platforms from legacy UH-1N and AH-1W assets in our 
        rotary-wing squadrons remains a priority.
      KC-130J.--The new KC-130J Hercules has been fielded throughout 
        our active component, bringing increased capability, 
        performance and survivability with lower operating and 
        sustainment costs to the Marine air ground task force. Using 
        the Harvest HAWK weapon mission kit, the KC-130J is providing 
        extended endurance close air support to our marines in harm's 
        way. Currently, we have procured 47 KC-130Js of the stated 
        program of record requirement totaling 79 aircraft. Continued 
        procurement of the program of record will allow us to fully 
        integrate our active and reserve force with this unique, 
        multimission assault support platform.

Preparing for Tomorrow's Fight
    The irregular battlefields of today, and those of tomorrow, dictate 
that operations be more distributed, command and control be 
decentralized, and forces be more dispersed. Using our force structure 
review as a guide, we are continuing to build the right capacity and 
capability to enable marines operate rapidly as befits the tempo of our 
role as a crisis response force. Several important areas to enable our 
operations are:
      Cyber.--The Defense Strategic Guidance rightly informs that 
        ``modern armed forces cannot conduct high-tempo, effective 
        operations without reliable information and communications 
        networks and assured access to cyberspace and space''.\15\ 
        Marines have been conducting cyber operations for more than a 
        decade, and we are in a multiyear effort to expand our capacity 
        via U.S. Marine Corps Forces Cyber Command as we increase our 
        cyber force by approximately 700 marines through fiscal year 
        2016. Given the fiscally constrained environment and complexity 
        of cyberspace, our approach is strategically focused on 
        ensuring efficiency in operations and quality of service. The 
        Marine Corps will aggressively operate and defend its networks 
        in order to enable critical command and control systems for 
        marines forward deployed around the world. Recent cyber 
        accreditations and readiness inspections validate our network 
        operations command and control processes and procedures. As we 
        transition to a Government-owned/operated network environment, 
        the Marine Corps will pursue efficiencies through automation, 
        consolidation, and standardization to ensure availability, 
        reliability, and security of cyber assets.
---------------------------------------------------------------------------
    \15\ Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense, January 2012, p. 5.
---------------------------------------------------------------------------
      Special Operation Forces.--As the Marine Corps contribution to 
        SOCOM, Marine Special Operations Command (MARSOC) maintains a 
        shared heritage and correspondingly strong bond with its parent 
        service as ``soldiers from the sea''. MARSOC will provide a 
        total of 32 employable Marine special operations teams in 
        fiscal year 2013 while establishing the staff of the Marine 
        special operations school, maintaining a targeted dwell ratio 
        and continuing creation of a robust language capability. Based 
        on our force structure review of last year and a programmed end 
        strength of 182,100 marines, I have authorized an increase of 
        821 marines in MARSOC.
      Command and Control.--Technology and network-based forces are an 
        essential part of modern operations. Our command and control 
        (C2) modernization efforts for the future build upon lessons 
        learned during combat operations in Afghanistan and Iraq. 
        Recent operations have shown that moving data to lower levels 
        (i.e. the digital divide) increases operational effectiveness. 
        We are mitigating the decision to cancel the ground mobile 
        radio by building on investments already made in tactical 
        communications modernization. We will continue efforts to 
        ensure C2 Situational Awareness convergence and 
        interoperability with the joint force.
      Advisers and Trainers.--In recognition that preventing conflict 
        may be easier than responding to it and that we can prevent it 
        through selective engagement and employment of advisers/
        trainers, we have invested in a new organization called Marine 
        Corps Security Cooperation Group that consolidates advisers 
        skills, training and assessment expertise focused on building 
        partnership capacity. We are investigating how we can 
        regionally focus the expertise of this organization.

Amphibious Warships and Maritime Prepositioning Shipping
    Our Service-level requirement to deploy globally, respond 
regionally, and train locally necessitates a combination of tactical 
airlift, high-speed vessels, amphibious warships, maritime 
prepositioning shipping, organic tactical aviation, and strategic 
airlift. Significant contributions to U.S. security are made by our 
rotational forces embarked aboard amphibious warships. These forces 
combine the advantages of an immediate, yet temporary presence, 
graduated visibility, and tailored, scalable force packages structured 
around the MAGTF. Rotational amphibious ready groups and Marine 
expeditionary units form together to provide forward-deployed naval 
forces in four geographic combatant command areas of responsibility. 
Not only do they provide the capability for crisis response, but they 
also present a means for day-to-day engagement with partner nations and 
a deterrent to conflict in key trouble spots.
    We maintain the requirement for an amphibious warship fleet for 
contingencies requiring our role in joint operational access. One 
Marine Expeditionary Brigade (MEB) assault echelon requires 17 
operationally available amphibious warships. The Nation's forcible 
entry requirement includes two simultaneously employed MEBs supported 
by one or more MPF-MEB to fight as a Marine expeditionary force from a 
sea base.
    Amphibious warships and the requisite number of ship-to-shore 
connectors provides the base-line needed for steady state operations 
and represents the minimum number of ships needed to provide the Nation 
with a sea-based power projection capability for full spectrum 
amphibious operations. As of January 2012, there were 29 ships in the 
Navy's amphibious fleet, with three scheduled for decommissioning and 
four new ships under construction in the yards. Within the coming FYDP, 
the inventory will decline in fiscal year 2014 before rising to an 
average of 30 amphibious warships over the next 30 years. The lack of 
amphibious warship lift capacity translates to risk for the Nation, 
particularly as it reorients to the Pacific.
    The continued procurement of scheduled amphibious warships and 
planning for MPF shipping is essential to ensure greater levels of risk 
are not incurred in coming years.
      San Antonio Class Amphibious Transport Dock.--The San Antonio 
        class landing platform/docks (LPDs) continue to gain stability 
        with overall warship performance improving. Through the 
        generosity of the Congress, the final two warships in this 
        program are fully funded, and we expect delivery of all 11 
        planned warships by fiscal year 2017.
      America Class Amphibious Assault Ship Replacement.--A growing 
        maritime threat coupled with aircraft/ground combat equipment 
        modernization dictates the need for continued optimization of 
        the America-class amphibious assault ship (LHA-6) hull form, 
        which is now 60-percent complete. As stated last year, delivery 
        of this amphibious assault warship is scheduled for fiscal year 
        2014. The earliest reasonable deployment after allowing time 
        for sea trials, crew training and other factors would be in 
        fiscal year 2017. Construction of LHA-7 is scheduled to 
        commence in early fiscal year 2013 but is not yet under 
        contract. The Marine Corps is grateful for and firmly supports 
        the Navy's plan to reintroduce a well deck in our large deck 
        amphibious assault ships, beginning with LHA-8 in fiscal year 
        2017 and fiscal year 2018 timeframe.
      2 x Maritime Prepositioned Squadrons.--Providing a significant 
        contribution to global coverage, forward presence and crisis 
        response, the MPF program exists to enable the rapid deployment 
        and engagement of a MAGTF anywhere in the world in support of 
        our National Military Strategy. This strategic capability 
        combines the capacity and endurance of sealift with the speed 
        of airlift. The current MPF program is comprised of 15 ships 
        divided into three Maritime Prepositioned Squadrons (MPSRONs) 
        located in the Mediterranean Sea, Indian Ocean (Diego Garcia) 
        and Pacific Ocean (Guam and Saipan). In fiscal year 2013, the 
        Department of the Navy (DON) plans to eliminate one of these 
        squadrons as an efficiency measure. We are currently reviewing 
        options to develop a balanced MPF posture and MPSRON 
        composition that supports geographic combatant commander 
        requirements, achieves approximately $125 million in savings 
        across the FYDP, attains a higher lift capacity of the MEB 
        requirement per MPSRON, and retains critical sea-basing 
        enabling capabilities. The continued support of the Congress 
        for the vital capabilities inherent in our MPF program is 
        essential to the overall warfighting readiness of the Corps.

Expeditionary Energy
    For marines, the term ``expeditionary'' is a mindset that 
determines how we man, train, and equip our force. We know that 
resource efficiency aids in combat effectiveness, and that our 
investments in reset and modernization will provide a force that 
operates lighter, faster, and at reduced risk. Likewise, our force will 
be more energy-efficient to support the type of operations expected of 
us in the future. To do this, we are changing the way we think about 
and use energy.
    Over the last 10 years of near continuous combat operations, our 
need for fuel and batteries on the battlefield has grown exponentially. 
Since 2001, we have increased the number of radios our infantry 
battalions use by 250 percent, and the number of computers/information 
technology equipment by 300 percent. The number of vehicles has risen 
by 200 percent with their associated weight increasing more than 75 
percent as a result of force protection requirements. In the end, our 
force today is more lethal, but we have become critically dependent on 
fuel and batteries, which has increased the risk to our logistics 
trains. Moreover, a 2010 study found that one marine is wounded for 
every 50 fuel and water convoys.
    To reduce our risk and increase our combat effectiveness, in March 
2011, I issued the ``Marine Corps Expeditionary Energy Strategy and 
Implementation Plan'' to change the way we think about and value 
energy. This is a ``bases-to-battlefield'' strategy, which means all 
marines will be trained to understand the relationship between resource 
efficiency and combat effectiveness. We will consider energy 
performance in all our requirements and acquisitions decisions. We are 
creating the tools to provide commanders the information necessary to 
understand their energy consumption in real-time.
    Over the FYDP, I have directed $350 million to ``Expeditionary 
Energy'' initiatives. Fifty-eight percent of this investment is 
directed toward procuring renewable and energy efficient equipment. 
Some of this gear has already demonstrated effectiveness on the 
battlefield in Helmand Province. Twenty-one percent of this investment 
is directed toward research and development of new capabilities, and 
the remaining investment is to support operations and maintenance. We 
expect this investment to improve the energy efficiency of our MEBs by 
9 percent. As such, we will enable ourselves to sustain longer and go 
further, incurring less risk. The MEB of 2017 will be able to operate 1 
month longer on the same amount of fuel that we plan to use today, and 
it will need 208 fewer fuel trucks, thereby saving 7 million gallons of 
fuel per year. This translates to a lighter, more agile, and more 
capable Marine Corps.

       PROVIDING CAPABLE BASES, STATIONS, AND SUPPORT FACILITIES

Fiscal Year 2013 Military Construction
    The Marine Corps maintains a commitment to facilities and 
infrastructure supporting both operations and quality of life. Our 
military construction and family programs are important to sustain our 
force structure and maintaining readiness. This fiscal year we are 
proposing a $761 million MILCON program to support warfighting, family 
housing, and infrastructure improvements. The focus of our efforts this 
fiscal year is the construction of Joint Strike Fighter and MV-22B 
support facilities, infrastructure improvements, and training and 
education facility improvements. Additionally, this budget request 
includes replacement of inadequate and obsolete facilities at various 
locations.
    Through the support of the Congress, between fiscal year 2008-
fiscal year 2012 we programmed 70 bachelor enlisted quarters (BEQ) 
projects resulting in 149 barracks buildings primarily located at Camp 
Lejeune, North Carolina; Camp Pendleton and Twentynine Palms, 
California; and Marine Corps Base, Hawaii. These BEQ projects were 
typically completed in 2 years, with most at or below cost. These 
facilities, that incorporated energy efficiency measures, have 
significantly improved the quality of life of our single marines, who 
for many years, lived in substandard, World War II-era barracks. Our 
fiscal year 2013 MILCON program includes a $49 million request for 
barracks, a motor pool, and other facilities to support the 
consolidation of Marine Corps Security Force Regiment assets at Naval 
Weapons Station, Yorktown, Virginia. This project was not a part of our 
original BEQ initiative but is necessary as the current facilities used 
by the Regiment at Naval Station Norfolk have been condemned.

Infrastructure Sustainment
    As resources and MILCON funds become more constrained, the Marine 
Corps will continue to rely on the sound stewardship of existing 
facilities and infrastructure to support our needs. In fiscal year 
2013, the Marine Corps will again program facilities sustainment 
funding at 90 percent of the DOD Facilities Sustainment Model, 
resulting in a facilities sustainment budget of $653 million.

Installation Energy Initiatives
    The fiscal year 2013 budget provides $164 million in operations and 
maintenance funding to continue progress in achieving mandated energy 
goals by 2015. This funding will target energy efficiency goals 
established by the Energy Independence and Security Act of 2007 aimed 
at reducing energy intensity by 30 percent from a 2003 baseline. This 
progress will be made by replacing older heating, cooling, lighting, 
and other energy-consuming building components with more efficient 
technologies. We will use this funding to achieve renewable energy 
goals established by the National Defense Authorization Act of 2007. 
Overall, the planned investments are intended to increase energy 
security on our installations while reducing the cost of purchased 
utilities.

         INVESTING IN THE EDUCATION AND TRAINING OF OUR MARINES

Courses and Facilities
    A broadly-capable middleweight force will meet future requirements 
through the integration of newly acquired and traditional operational 
competencies. To remain America's expeditionary force in readiness, the 
Marine Corps requires balanced, high-quality training and education at 
all levels. As history has repeatedly shown, wars are won by the 
better-trained force, not necessarily the larger one. In the midst of 
ongoing combat operations, we are realigning our education and training 
efforts to enable our marines and sailors to succeed in conducting 
distributed operations in increasingly complex environments against any 
threat. Training and education, with an emphasis on experimentation and 
innovation, will help our Nation maintain global relevance by 
developing solutions that continue to outpace emerging threats. These 
efforts include continued emphasis on our core values of honor, courage 
and commitment, and on building principled warriors who understand the 
value of being an ethical warrior. Moreover, in the post-Afghanistan 
security environment of reduced defense dollars, we will need to offset 
reductions in end strength with better educated and more capable 
marines and marine units. The current and future fiscal environment 
requires a selective, strategic investment in training and education . 
. . put another way, ``When you're low on money, it's a good time to 
think''.

Training
    Our current training is focused on preparing marine units for 
combat, counterinsurgency and stability operations in support of OEF. 
If anything, the past 10 years of combat have demonstrated that there 
is a positive correlation between quality training and education and 
individual/unit readiness; both directly translate to operational 
success. Therefore, as we draw-down from Afghanistan, our training will 
rebalance to support the execution of a wider range of operational 
capabilities. We will achieve this balance by leveraging competencies 
in entry-level and skills progression training and by re-emphasizing 
core competencies in combined arms and amphibious operations to include 
MEB level core capabilities. Training will also feature significant 
attention to irregular warfare, humanitarian assistance, and inter-
agency coordination. All our training programs will provide 
standardized, mission-essential, task-based training that directly 
supports unit readiness in a cost-effective manner.
    Specifically, future training will center on the MAGTF training 
program. Through a standardized training approach, the MAGTF training 
program will develop the essential unit capabilities necessary to 
conduct integrated MAGTF operations. Building on lessons learned over 
the past 10 years, this approach includes focused battle staff training 
and a service assessment exercise modeled on the current exercise, 
Enhanced Mojave Viper. Additionally, we will continue conducting large-
scale exercises that integrate training and assessment of the MAGTF as 
a whole. The MAGTF Training Program facilitates the Marine Corps' 
ability to provide multicapable MAGTFs prepared for operations in 
complex, joint, and multinational environments against hybrid threats.

Education
    We are making steady progress in implementing the recommendations 
of the 2006 Officer Professional Military Education (PME) Study (The 
Wilhelm Report) to transform the Marine Corps University (MCU) into a 
``World Class Institution''. There are two primary resource components 
in doing so--funding for military construction and for faculty and 
staff. These two components are not mutually exclusive. New facilities 
coupled with increases in resident student through-put require 
additional faculty and staff. We will remain engaged with the Congress 
over the coming years on the approximately $330 million in necessary 
funding for facilities, faculty, and staff as we continue the 
transformation of the MCU. This is a high priority for me. This year, I 
committed $125 million to get this initiative moving.
    We are widening opportunities for resident professional education 
by doubling available school seats in courses such as the Marine Corps 
Command and Staff College beginning in the academic year 2014. We are 
making adjustments to triple through-put at the Expeditionary Warfare 
School for our company grade officers. We are increasing enlisted 
resident PME courses as well and are adding more distance education 
learning opportunities and requirements, especially at the junior 
enlisted and noncommissioned officer level.
    As we look to ``whole of government approaches'' and the goal of 
improved integration in joint and combined operations, we are adding 
fellowships to allow more marines the opportunity to benefit from 
nontraditional education outside DOD institutions. In the past year, we 
have increased our number of marines assigned to the Department of 
State and the United States Agency for International Development 
through fellowships and the State-Defense Exchange Memorandum of 
Understanding. Later this year, we are adding fellowships at the 
Departments of Justice, Homeland Security, and the Treasury, as well as 
at Yale University. We are expanding the scope of training at existing 
institutions like the Marine Corps Center for Advanced Operational 
Culture Learning and the Center for Irregular Warfare Integration 
Division that focus on readying marines for engagement, security 
cooperation and partner capacity building missions. Our goal is to 
develop a corps of marines that have the skills needed to operate and 
engage effectively in culturally complex environments.
    Our education and training programs benefit from our relationships 
with allies and partners in the international community. Each year, 
hundreds of international military students attend Marine Corps 
training and education venues ranging from Marine Corps Command and 
Staff College to military occupation specialty producing schools. The 
International Military Education and Training (IMET) program and 
similar security assistance opportunities promote regional stability, 
maintain U.S. defense partnerships, and promote civilian control of the 
military in student home countries. Many military leaders from around 
the world have benefited from the IMET program. To better support DOD's 
goal of providing PME to international military students, we have 
created a blended seminar program where foreign officers participate in 
Marine Corps PME through a mix of nonresident online courses and 
resident instruction in the United States.

Training Enablers
    In order to fully realize these training and education 
enhancements, we will keep investing in the resources, technologies, 
and innovations that enable them. This investment includes modernizing 
our training ranges, training devices, and infrastructure to ensure 
quality resources are available to support the training of marines, 
individual to MAGTF. We will also leverage advanced technologies and 
simulation systems to create realistic, fully immersive training 
environments.

        KEEPING FAITH WITH MARINES, SAILORS, AND THEIR FAMILIES

Mission First, Marines Always
    We expect and require extraordinary loyalty from our marines and 
sailors--loyalty to country, family, and Corps. Our Nation has been at 
war more than a decade, placing unprecedented burdens on marines, 
sailors, families, wounded warriors, and the families of the fallen. 
They have all made tremendous sacrifices, many in the face of danger; 
we owe our complete loyalty back to them all.
    We will work to ensure the critical needs of our families are met 
during times of deployment and in garrison by providing the services, 
facilities, and programs to develop the strength and skills needed to 
thrive while facing the challenges of operational tempo. If wounded, 
injured or ill (WII), we will seek out every available resource to 
restore marines to health. We will enable the return to active duty for 
those seeking it. For those unable to do so, we will responsibly 
transition them to civilian life. We will support and protect the 
spouses and families of our wounded and those of our fallen marines. 
There are several areas and programs central to our tenet of ``keeping 
faith with marines, sailors and their families''.

Recruiting and Retention
    As first stated, the individual marine is our greatest asset; we 
will continue to recruit and retain the best and brightest of America's 
sons and daughters. Recruiting is the lifeblood of our Corps, and is 
our bedrock to ``Make Marines, Win Battles, and Return Quality 
Citizens''; citizens who, once transformed, will be marines for life. 
To operate and succeed in potentially volatile times, marines must be 
physically fit, morally strong, intelligent, and capable of operating 
advanced weapon systems using the latest technology. We will not 
compromise on these standards. Recruiting quality youth ultimately 
translates into higher performance, reduced attrition, increased 
retention, and improved readiness for the operating forces. We need 
your continued support in maintaining quality accessions.
    Our officer accessions mission has continued to decline over the 
past 2 years in light of a planned draw-down of forces. Our fiscal year 
2013 accession officer mission is 1,500 active duty and 125 reserve 
officers. For enlisted marines, the accession figures include 28,500 
regular (active component) and 5,700 reservists. We traditionally 
achieve 100-103 percent of our total accession goals, and expect to do 
so again in fiscal year 2013. We have continued to achieve 
unprecedented levels of enlisted and officer retention. This effort is 
critical to the proper grade shaping of the Marine Corps, regardless of 
force size. Combined officer, enlisted, and reserve retention efforts 
ensure the Marine Corps maintains essential operational experience and 
leadership. Although overall retention is excellent, shortages do exist 
in certain grades and skills within the officer and enlisted ranks, 
requiring careful management and innovative solutions. At a minimum, 
sustained congressional funding to incentivize retention is necessary 
to maintaining quality personnel in these critical skill sets.

Diversity
    Diversity, in both representation and assignment of marines, 
remains a strategic issue. The Marine Corps diversity effort is 
structured with the understanding that the objective of diversity is 
not merely to strive for a force that reflects a representational 
connectedness with the rich fabric of all the American people but to 
raise total capability through leveraging the strengths and talents of 
all marines. We are near completion of a new comprehensive campaign 
plan to focus our diversity effort in areas where improvement is most 
needed and anticipate release of this roadmap this year. The accession 
and retention of minority officers is an enduring challenge for our 
Corps. Mentoring and career development of all minority officers has 
become increasingly important in order to change officer profile 
projections. Since 2010, we have conducted leadership seminars, 
introducing diverse college undergraduates to Marine leadership traits 
and leadership opportunities in the Marine Corps, at various locations 
throughout our country, and are actively seeking out new communities 
within which to continue this effort. Overall, we seek to communicate 
the Marine Corps diversity mission through community outreach and 
recruit marketing; to ensure continued opportunities for merit-based 
development and advancement; and to optimize training and education to 
increase the understanding for all marines of the value that diversity 
brings to the total force.

Wounded Warrior Outreach Programs
    Through the wounded warrior regiment (WWR) and our ever-expanding 
outreach programs, the Marine Corps keeps faith with WII marines and 
their families. This enduring commitment includes full-spectrum care 
and support for WII marines from point of injury or illness through 
return to duty or reintegration to the civilian community. The WWR 
continues to enhance its capabilities to provide added care and support 
to WII marines. Whether WII marines are joined to the WWR or remain 
with their parent commands, they are provided nonmedical support 
through the recovery phases. Congressional funding for our WII marines 
allows us to provide robust, interconnected support in the following 
areas:
  --administrative support;
  --recovery care coordination;
  --transition assistance;
  --warrior athlete reconditioning programs;
  --integrated disability evaluation system support;
  --the Sergeant Merlin German Wounded Warrior 24/7 Call Center; and
  --our Hope and Care Centers.
    The challenging nature of the terrain in Afghanistan requires a 
greater level of dismounted operations than was the case in Iraq. This 
fact coupled with the prevalence of improvised explosive devices has 
caused a growing class of marines and soldiers to suffer catastrophic 
injuries--injuries involving multiple amputations that present 
significant quality-of-life challenges. Our Corps, the DON, DOD, the 
Department of Veterans Affairs (VA) and the Congress are concerned 
about this special group of wounded warriors must remain committed to 
supporting this special group of wounded warriors. To help the 
catastrophically injured (those who will likely transition to veteran 
status) and their families successfully meet these challenges, we must 
continue engaging in a high level of care coordination between our WWR 
advocates, the VA's Federal Recovery Coordinators, VA Liaisons for 
Healthcare stationed at DOD Military Treatment Facilities (MTFs), 
Operation Enduring Freedom/Operation Iraqi Freedom/Operation New Dawn 
Case Managers and medical providers to ensure all of our wounded 
marines' needs are met. This includes arranging for assistive 
technologies, adaptive housing, and all available healthcare and 
benefits (DOD and VA) they have earned. Additionally, WWR's Marine Corp 
Liaison assigned at the VA collaborates closely with VA Care Management 
team to resolve Marine Corp issues or care management needs.

Combat Health and Resiliency of the Force
    Marines, sailors, and their families have experienced significant 
stress from multiple deployment cycles, the rigors of combat, high 
operational tempos, the anxieties of separation, and countless other 
sources from a decade at war. We remain engaged in developing ways to 
reduce the traditional stigmas associated with seeking mental 
healthcare, but perhaps more importantly, we continue to add resources 
and access to care to meet the mental health needs of marines, sailors, 
and their families.
    Post-traumatic stress (PTS) will be a long-term issue for all DOD 
leadership, requiring close attention and early identification of those 
affected in every service. PTS is diagnosed as a disorder (PTSD) once 
the symptoms become distressful to a marine and his or her ability to 
function in the military environment is impacted.\16\ Although most 
marines with PTS symptoms will not develop PTSD, our leaders require 
the skills and training to identify and intervene earlier for those at 
the highest risk of developing PTSD, especially given that often there 
are long delays in the development of this condition. As such, we are 
empowering leaders to identify and intervene earlier through increased 
training and awareness using programs like our Marine Corps Combat 
Operational Stress Control program and embedded Operational Stress 
Control and Readiness teams in our ground units. We are employing 
better screening practices in our standard health assessments, 
establishing deployment health clinics (i.e., facilities not labeled as 
mental health clinics nor associated with a Military Treatment Facility 
in an overall effort to reduce stigma) and tracking those with 
significant injuries often leading to PTSD via our wounded warrior 
regiment.
---------------------------------------------------------------------------
    \16\ The current yearly rate of PTS diagnosis in active duty 
marines is less than 2 percent as compared to 3.5 percent in the 
civilian population. The percentage of marines who will be diagnosed 
over their lifetime with PTS is estimated to be 10-18 percent while the 
civilian population lifetime diagnosis is estimated to be 6.8 percent.
---------------------------------------------------------------------------
    We are engaged on multiple fronts to diagnose and treat those with 
a traumatic brain injury (TBI) including prevention, education, early 
identification, treatment, rehabilitation, and reintegration. We are 
actively implementing the requirements of DOD Directive Type Memorandum 
09-033 regarding mild TBI/concussion. Moreover, the Marine Corps, with 
Navy support, has established a Concussion and Musculoskeletal 
Restoration Care Center in-theater. This center provides front-line 
care to patients with mild TBI/concussion and has dramatically improved 
identification, diagnosis, treatment, outcomes, and return to duty 
rates. In concert with Navy Medicine, we are fielding a TBI module 
within the Medical Readiness Reporting System to track TBI exposures 
and diagnoses.

Suicide Prevention in the Force
    We continue to report a positive, steady decrease in the number of 
suicides within the Corps from high levels seen in 2009. While we 
cannot yet draw a conclusion between our prevention efforts and the 
reduced suicide rate, we are cautiously optimistic our programs are 
having a positive effect. However, reported suicide attempts have 
continued to increase. We suspect this increase in attempts may be due 
to improved surveillance--fellow marines recognizing the signs of 
suicide and intervening to stop attempts, and more marines reporting 
past attempts when coming forward for help.\17\ Regardless, we still 
need to do better because one suicide completed is one too many.
---------------------------------------------------------------------------
    \17\ There were 33 confirmed suicides and 175 attempts in the 
Marine Corps during calendar year 2011.
---------------------------------------------------------------------------
    Suicide is a preventable loss of life that diminishes readiness and 
deeply affects our Marine Corps family. We believe that suicide is 
preventable through engaged leadership, focused on efforts aimed at the 
total fitness of each marine to include physical, social, spiritual, 
and psychological dimensions. The marine corps is involved with five 
major studies to better understand suicide risk among servicemembers, 
contributing factors, and ways at prevention. This past year, we 
expanded our ``Never Leave a Marine Behind'' suicide prevention program 
for noncommissioned officers (NCO) and junior marines to the staff 
noncommissioned officer and commissioned officer ranks. Our DSTRESS 
hotline and Web site, implemented last year on the west coast as a 
pilot program, will be expanded to serve those across the Corps. We 
will remain engaged on multiple fronts to combat suicide in our ranks.

Sexual Assault Prevention and Response
    The key to preventing sexual assault is ensuring everyone 
understands his or her role and responsibilities in preventing it. A 
consistent, vigorous training and education element are crucial. 
Bystander intervention has been identified as a best practice for 
engaging marines in their role to prevent sexual assault and is being 
incorporated into our Sexual Assault Prevention and Response (SAPR) 
training. In January 2012, we launched the video-based NCO Bystander 
Intervention course, called ``Take A Stand''. This course was modeled 
after our successful, award-wining Suicide Prevention Program awareness 
campaign entitled ``Never Leave a Marine Behind''.
    We have initiated aggressive actions to elevate and highlight the 
importance of our SAPR program. Our victim-centric SAPR program focuses 
on:
  --preventing sexual assault;
  --improving a victim's access to services; and
  --increasing the frequency and quality of information provided to the 
        victim regarding all aspects of his or her case and expediting 
        the proper handling and resolution of a sexual assault case.
    We are credentialing our Sexual Assault Response Coordinators and 
Victim Advocates on victim advocacy. We have standardized training 
protocols for our 24/7 hotline, in use at all major bases and stations 
to provide information, resources, and advocacy of sexual assault. We 
have increased SAPR training at all levels for our judge advocates 
(JA). This year, mobile training teams from our Trial Counsel 
Assistance Program will continue to instruct Navy Criminal 
Investigative Service agents and JAs on sexual assault investigation 
and best practices at bases and stations in Japan, Hawaii, and on the 
east and west coasts.

Veteran Marines
    The concept of keeping faith also applies to our veteran marines. 
In 2011, the Marine Corps launched a comprehensive effort to anchor the 
legacy of our Montford Point Marines--20,000 African-American men who 
underwent segregated training from 1942-1949 and ultimately integrated 
the Corps--into our training and education curricula. The Montford 
Point Marine legacy will be used to educate and inspire all men and 
women who enter the Marine Corps today regardless of race, religion, or 
creed. We will teach the importance of varying perspectives, 
compassion, courage, perseverance, and self-sacrifice through the 
Montford Point Marine history. We are thankful to the Congress for 
recently conferring the Congressional Gold Medal on the Montford Point 
Marines, a fitting tribute to a pioneering group of marines who fought 
valiantly in some of the bloodiest battles of the Pacific and later 
went on to serve in Korea and Vietnam.

Family Readiness Programs
    As directed in my Planning Guidance issued to the Corps in October 
2010, we are in the final stages of a review of all family readiness 
programs to identify ways we can better assist and provide services to 
our families. Over the past year, Marine Corps Community Services 
conducted dozens of focus groups at bases and stations throughout the 
Marine Corps with active and reserve component marines, commanders, 
senior enlisted advisers and spouses. The focus groups, survey and 
prioritization results found that the top-rated programs conformed to 
the Commandant's Planning Guidance priorities or congressional 
mandates. These assessments revealed opportunities to increase program 
success in three areas:
  --defining future capabilities and sustainability standards that 
        correlate to the Commandant's Planning Guidance priorities, but 
        also recognized unique installation or command missions, 
        locations, or market conditions;
  --balancing available resources to support priorities and defined 
        capabilities; and
  --developing accountability and inspection processes to support 
        capability sustainment.
    Efforts are currently under way to apply these results and develop 
actionable program plans and supporting resource requirements to 
provide and maintain capabilities at the appropriate level for the 
right duration.
    With at least 50 percent of our Corps composed of unmarried men and 
women, this year we mandated that every battalion and squadron have a 
representative from the Single Marine Program serving on its unit 
family readiness command team. This will provide an advocate on behalf 
of single marines to ensure information, normally communicated solely 
from leadership to marine spouses and families, is shared with their 
parents and siblings.

Transition Assistance
    There are three things the Marine Corps does for our Nation:
  --make marines;
  --win our Nation's battles; and
  --return quality citizens.
    We are conducting a wholesale revision of our Transition Assistance 
Management Program (TAMP) to better meet the needs of our transitioning 
marines in support of returning quality citizens. We are integrating 
TAMP, as part of the Professional and Personal Development Program, 
into the lifecycle of a marine from recruitment, through separation or 
retirement, and through veteran marine status.
    We have transformed our Transition Readiness Seminar from a mass 
training event, in need of great improvement, into an individualized 
and practical learning experience with specific transition readiness 
standards that are effective and beneficial to marines. In January 
2012, we began holding a revised and improved Transition Readiness 
Seminar Pilot Program at four separate installations with full 
implementation scheduled for March 2012; early feedback on our pilot 
program has been very favorable. The revised 5-day Transition Readiness 
Seminar includes 2 days of mandatory standardized core curriculum with 
four well-defined military-civilian pathways:
  --university/college;
  --vocational/technical training;
  --employment; and
  --entrepreneurial endeavors.
    In this new system, a marine will choose the pathway that best 
meets his or her future goals and will have access to individual 
counseling services related to each pathway. The enhanced TAMP program 
will support improved reach-back and outreach support for those who may 
require more localized support in their hometowns with information, 
opportunities, or other specific needs. We are determined to make the 
Marine Corps TAMP program more value added for our departing marines.

Compensation
    The President's budget acknowledges the reality that military pay, 
allowances, and healthcare consume roughly one-third of the Defense 
budget. These costs cannot be ignored in a comprehensive effort to 
achieve savings. In my judgment, this budget achieves the appropriate 
balance in compensation, force structure, and modernization. It 
sustains the recruitment, retention, and readiness of the talented 
personnel that defend our Nation.
    The proposed compensation reforms are sensible. Basic pay raises in 
fiscal years 2013 and 2014 will match increases in the private sector. 
We propose more modest raises in later years--but no reductions, no 
freezes. TRICARE enrollment fees and deductibles increase for retirees, 
but they are tiered based on retired pay and remain significantly below 
market rates. Pharmacy co-pays will trend towards market rates for 
retail purchases but will be substantially lower for generic drugs and 
mail-order delivery.
    These changes are not intended to alter care services currently 
provided to our active-duty personnel and their families. Those who 
have been medically retired as a result of their service, particularly 
our wounded warriors, are also exempted. So are our Gold Star families. 
It is the right thing to do for those who have given so much.
    Finally, I endorse creating a commission to recommend reforms in 
retired pay. Any changes should grandfather benefits for those 
currently serving. We cannot break faith.

                                SUMMARY

    History has shown that it is impossible to predict where, when, and 
how America's interests will be threatened. What is known, however, is 
America cannot maintain a strong economy, cannot have a strong 
industrial base, cannot have access to overseas markets, and cannot 
assure its allies without security . . . at home and abroad. Looking 
ahead at the fiscal challenges we face as a Nation, our country will 
still need to respond to crisis and project power abroad, wherever and 
whenever needed. The optimum and most economical means to do so is 
through a multicapable force afloat that can also come ashore rapidly.
    The Navy and Marine Corps team is the Nation's risk mitigator for 
an unknown future and the crisis response force that will be ``the most 
ready when the nation is least ready''. There is a cost to maintaining 
this capability. But, with that cost, our Nation gains the ability to 
respond to unexpected crises, from humanitarian assistance and disaster 
relief efforts, to noncombatant evacuation operations, to the conduct 
of counterpiracy operations, raids, or strikes. This same force can be 
reinforced quickly to contribute to assured access anywhere in the 
world in the event of a major contingency. It can be ``dialed up or 
dialed down'' like a rheostat to be relevant across the range of 
military operations. No other force possesses the flexibility to 
provide these capabilities but yet can sustain itself logistically for 
significant periods of time, at a time and place of its choosing.
    Through the fidelity and support of the Congress, our marines and 
sailors in the fight have received everything necessary to ensure 
success over the past decade of near constant combat operations. Our 
combat forces' best interests and needs remain my number one focus 
until our national objectives in the long war have been achieved. 
However, as we rightfully begin to transition to the challenges and 
opportunities of the post-OEF world and reorient to the Pacific under 
our new Defense Strategic Guidance, the Marine Corps must begin to 
rebalance and modernize for the future.
    Through judicious choices, forward planning, and wise investments--
ever mindful of the economy in which we live--we have worked diligently 
to determine the right size our Corps needs to be and to identify the 
resources we will require to respond to crises around the world, 
regardless of clime or place. As we continue to work with the Congress, 
the Navy, and the DOD in maintaining the institutional pillars of our 
high state of readiness, you have my assurance that your Corps will be 
``ever faithful'' in meeting our Nation's need for military crisis 
response.

    Senator Mikulski. Thank you for your testimony and, of 
course, for your service.
    With Senator Inouye's absence, the way we are going to do 
this is we are going to turn to Senator Cochran first. I am 
going to call upon members in their order of arrival, and we 
are going to ask that we stick to the 5-minute rule because 
there are others, and we know there are multiple hearings going 
on.
    So, Senator Cochran, as the ranking member and a naval 
officer yourself, as I believe--weren't you a naval officer?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. I certainly was--one of the proudest 
periods of my life, on our heavy cruiser operating out of 
Boston, Massachusetts.
    Thank you. Let me join you, Madam Chairman, in welcoming 
this distinguished panel.
    We appreciate your service. We appreciate your leadership. 
We want to be sure that we understand the needs that are of 
highest priority to all of you as we endeavor to help assure 
that our Navy and Marine Corps are the strongest as any in the 
world, stronger than any in the world--and are fully prepared 
to protect our interests around the world and our safety and 
security here at home.

                           NAVAL FORCE NEEDS

    I know that one of the challenges that we face is keeping 
an up-to-date naval force with ships and equipment ready to be 
used in an emergency. And I wanted to ask Secretary Mabus, who 
is fully familiar with shipbuilding in our State of 
Mississippi, but in this new responsibility, all of the needs 
of the U.S. Navy, could you comment about how well we are or 
are not meeting the needs for an up-to-date, modern naval 
force?
    Mr. Mabus. Yes, Sir. And thank you, Senator Cochran. There 
is something about political figures from Mississippi serving 
on cruisers out of New England, since both Senator Cochran and 
I did that several years ago now.
    As I said in my opening statement, Senator, the Navy that 
was here in 2009 when I took office was 30 ships smaller, down 
from 316 ships on September 11, 2001, to 283 ships in 2009. We 
were down almost 47,000 sailors in that time. So, during one of 
the great military build-ups in America, the United States Navy 
actually got smaller.
    One of the primary focuses has been to rebuild the fleet 
and increase the size of the fleet. Today, we have 36 ships 
under contract to come into the naval fleet. And I do want to 
point out that they are all firm fixed-price contracts, that 
was one of the challenges that we faced was making sure we got 
the right price for our naval vessels.
    Going forward, we will--we have 285 ships in the battle 
fleet today. At the end of the FYDP, the end of the 5 years, we 
will again have at least 285 ships. And by 2019, we will again 
pass the 300-ship mark. We have done this by working with 
industry. We think that we owe industry certain things--a 
stable design, a mature technology, and some transparency into 
what ships we hope to build and when.
    In response, we think industry owes us some things--to 
invest in the infrastructure and the training that will be 
necessary; to have a learning curve so that every ship of a 
class, of the same type ship that the design does not change, 
that the number of man-hours and, thus, the cost goes down. And 
in all our shipyards today, in virtually all of our shipyards 
today, that this is the case.
    Your colleague sitting to your left, Senator Shelby, 
working with Austal in Mobile, we have a fixed-price contract 
for 10 LCSs from Austal, and the last one will be--the 10th 
ship will be significantly cheaper than the first ship.
    So I think that your fleet is positioned to do everything 
that the new defense strategy requires it to do. The CNO may 
want to comment because we are going to have to use our ships a 
little differently, forward deploy them so that one ship will 
do the job of many more that were--if they were kept in the 
United States. But the CNO, Commandant, and I have no doubt 
that this fleet that we have today and the one that we are 
taking forward will meet all the requirements of the new 
defense strategy and everything that we need to do to keep the 
United States safe and secure.
    Senator Cochran. Admiral Greenert.

                     NAVAL FORCE CAPABILITIES/NEEDS

    Admiral Greenert. Thank you. Thank you, Senator.
    What I would add, I am on the capabilities end of this, and 
I am very satisfied with the capabilities delivered.
    The Virginia-class submarine is the finest submarine in the 
world, and I have empirical data to attest to that. The DDG-51 
remains a multimission, very relevant ship. The LPD-17 class 
and the Makin Island are on deployment now, and they are doing 
fabulous. The LPD-17 is a quantum leap over its predecessor.
    As we bring in LCSs and the joint high speed vessels 
(JHSVs), these are relevant ships for a relevant future, and 
they resonate with the need out there. We will operate them 
forward, and I am very high on them getting the job done. 
Volume, speed, and modularity, that is the wave of the future.
    Thank you for the opportunity.
    Senator Cochran. Thank you very much.
    I will reserve my time and ask General Amos a question 
later, but yield to other members of the subcommittee.
    Senator Mikulski. Thank you.
    Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Madam Chairman.
    Senator Mikulski. Now, he is a West Point guy.
    Senator Reed. Senator Cochran, Secretary Mabus, and I have 
something in common. One of my predecessors at West Point was a 
Senator from Mississippi, Jefferson Davis. So it is a small, 
small world.
    Mr. Secretary, thank you, General Amos, thank you, Admiral 
Greenert, thank you for your service and your dedication to the 
sailors and the marines that you lead so well.
    I want to take off where you left off, Admiral, by saying 
that the Virginia-class submarine is the finest submarine in 
the world. I agree with that, and I am glad you do, too.
    I think it also has operational capabilities, particularly 
in the Pacific, where access is a critical issue. In regards to 
some of our surface systems, the submarine is far more capable 
of access and delivering fires and delivering personnel and 
getting intelligence, et cetera. And in that regard, your 
colleague, Admiral Willard, said essentially the same thing. 
And I just, for the record, I presume you agree with that. It 
has a special role in terms of access-denial situations.
    Admiral Greenert. Yes, Sir, I do.

                  VIRGINIA-CLASS SUBMARINE PROCUREMENT

    Senator Reed. For the Virginia-class submarine, we are 
doing two boats a year in fiscal year 2013. However, in fiscal 
year 2014, because of the budget constraints, a ship is being 
slipped back to fiscal year 2018.
    Given the capabilities, given the new mission in the 
Pacific particularly, with a big anti-access component, I think 
this is, as you said before, a budgetary decision, not a 
strategic or operational decision.
    Having said all that, and without getting into any specific 
negotiation, are you working on a plan with the contractor to 
see if there are ways that we can pull forward some 
construction so that the fleet does not lose a valuable asset 
for 6 years or so?
    Admiral Greenert. Yes, Sir, we are. We are looking for any 
fiscal means, if you will, acquisition means, and contractor 
performance incentives that we could. As you know, we have a 
block-buy of 9, and if we could get to a block-buy of 10 during 
those years 2014 through 2018, that would be terrific. And by 
all means, we will work by any means capable to do that.
    Senator Reed. And that would require, I presume, some help 
by this subcommittee in that regard?
    Admiral Greenert. Yes, Sir, it would.

                      OHIO-CLASS SUBMARINE PROGRAM

    Senator Reed. So I, for one, would be very happy to help 
because I think this is important for the Navy and for the 
Nation.
    There is another aspect of the submarine program, and that 
is the replacement of the Ohio class. And that has been slipped 
2 years in terms of proposed construction. Design work is going 
on. We have a partner with the British.
    And one of the issues that always comes to mind when we 
talk about the Ohio-class replacement in its ballistic missile 
role is that this is really, in my view, a DOD asset, not just 
a Navy asset.
    So, Mr. Secretary, have you had discussions with DOD in 
ways that they can help you ensure that this slippage is 
temporary, and not a sign of failure to fund the program?
    Mr. Mabus. Senator, I can assure you that the slippage is 2 
years, and that is it. We have also, as you pointed out, we 
have been in discussions with our British counterparts to make 
sure that the schedule meets up with their requirements as 
well. And as you know, we have committed a substantial amount 
of money now for the research, development, and engineering 
work that will be necessary to begin the build in 2021.
    I think that this most survivable leg of our triad, this 
strategic weapon that we have in the Ohio-class replacement, 
that a discussion needs to be had on exactly how we do pay for 
that. That discussion would not only include DOD but also the 
Congress in how that is best to be handled. Because the flip 
side of that is that our industrial base for the rest of 
shipbuilding during the time that the SSBN(X), the Ohio-class 
replacement, is being built could be seriously harmed, 
including our attack submarine industrial base during that 
time. And I don't know of anyone anywhere that would want to do 
that.
    Senator Reed. No, I hope not. Just a quick follow-on, and 
it is probably more of a comment than requiring a comment from 
you, is that as we go forward there is a larger issue, which is 
the nuclear triad--how it is going to be constituted; what 
elements might be bulked up; what elements might not. And that 
is in the context both of budget and strategic policy and 
nonproliferation policy.
    And my view is that the submarine has always seemed to be 
the most significant part of this in terms of its 
invulnerability, relatively speaking, its ability to deploy, 
its stealthiness, et cetera. And so, in those conversations 
about the future of the triad, I would hope that the submarine 
would be in the forefront.
    Thank you. Thank you all.
    Senator Mikulski. Senator Coats.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Thank you, Madam Chairman.
    Mr. Secretary, first I want to start by thanking you for 
visiting the Naval Surface Warfare Center at Crane, in Indiana. 
People say, ``What in the world is the Navy doing in Indiana, 
the center of Indiana?'' But as you have found out and it is 
expressed to me, that it is a little gem out there. Not so 
little, but it is a gem out there in terms of electronic 
warfare, special missions, a whole number of pretty cutting-
edge stuff that is important to not only the Navy, but the 
Marines, Army, and Air Force. So we thank you for that visit.
    And I would extend that to Admiral Greenert and General 
Amos because what happens there affects both of your services. 
And we will throw in an Indiana University basketball game if 
we can get our timing right. I would be happy to travel with 
you for that visit.
    But that really doesn't go to my question. My question is 
this. Shortly after the conclusion of Desert Storm I, I was 
flying back from Indianapolis with then-Secretary Cheney. And 
we spent the entire flight talking about how the history of the 
Congress's support and military readiness has gone through the 
ups and downs of postconflict drawdowns.
    And I asked him, and this was in response to a question I 
asked, it was, ``What is your biggest challenge now that we 
have had this success?'' And he said, ``Avoiding hollowing out 
or drawing down too fast, too far. That is the biggest 
challenge in front of me.''
    And you know, you go all the way back to World War I and 
the hollowing out afterward, and the cost that it was to our 
country to rebuild to be prepared to address World War II. And 
then, following that, we thought we had solved the world's 
problems, and Korea came along. And following that, Vietnam, 
Desert Storm, and so forth. And it just seems like, well, I 
guess I just really reacted, General Amos, when you said 
history has shown it is impossible to predict the how, when, 
and where of what might come next. Except history tells us it 
is coming somewhere and to be prepared.
    So my question is this. The military has stepped up to the 
plate relative to nearly $500 billion of cuts over a 10-year 
period of time. And you discussed some of that in terms of how 
we get there.
    My concern is the potential impact, given the kind of 
conflicts that we can potentially predict in the future. But 
there is always the unpredictable.

                          SEQUESTRATION IMPACT

    But my question to you is this. We have this sequester 
sitting there, about to add an additional $500 billion unless 
the Congress addresses this before the end of the year. That 
was presented as something that would never happen because it 
would force decisions relative to how we deal with our budget. 
But the ``never'' did happen.
    And so, my question to all three of you really is what is 
your reaction to this possibility? And what would it mean for 
the ability to be prepared and not to be so hollowed out that 
we are not prepared for that next how, when, and where?
    Mr. Mabus. I will quote the Secretary of Defense, who said, 
``It would be a disaster if sequestration happens, not only in 
terms of the amount of money that would be taken out of 
defense, but also in the way it would be taken out.''
    The $487 billion in cuts during the next 10 years, the DOD 
has worked very hard over the course of several months to make 
sure that this was done carefully, to make sure that we avoided 
hollowing out the force, in your term, to make sure that we had 
the training, to make sure we had the manning, to make sure 
that our force structure could be maintained, and that it was 
an effective and lethal force structure that we continued 
forward.
    Because of the very nature of sequestration, what you would 
have is automatic percentage cuts to everything, without regard 
to strategy, without regard to importance, without regard to 
any sort of setting priorities. And so, both those items would 
make sequestration, I think, a very difficult and, again in the 
words of Secretary Panetta, a disastrous occurrence.
    Senator Coats. Admiral Greenert, do you want to tell us how 
it would affect the Navy?
    Admiral Greenert. Sir, the way, as Secretary Mabus said, 
you know, this going into each and every account, we would have 
to prepare for such a thing, probably a few months ahead of 
time. And I am just talking about the mechanics of trying to 
figure out how to recoup pay, so we can pay our people, pay our 
civilians, then get contracts which would, I assume, we would 
be in breach because, all of a sudden, there is no funding for 
commitments that we have made--the Federal Government has made.
    And so, my point is we would have our people distracted for 
months, just to do the execution of such a thing to meet the 
requirements that the Federal Government is held to.
    And that bothers me a lot. I mean, we talked in the past 
about, you know, when we have had a threat of a Government 
shutdown, and we stopped everything for a few weeks to prepare 
for such a thing. This would be that to the nth degree.
    And so, I think that is just really not understood. As I 
sit down and think about just the mechanics of this, the 
amount, we need a totally new strategy for an amount of this 
kind. And we can never do what we are doing today under those 
kinds of funding. We would need a new strategy, as our bosses 
have testified.
    Thank you.
    Senator Coats. General Amos.
    General Amos. Senator, thank you for asking that question. 
That is a tough one and one we have talked about often within 
the DOD, as you are well aware.
    I would like the subcommittee to believe that where we sit 
today, and I can speak for my service, we have built a force, 
as we come down from 202,000, which is where we sit today, down 
to 182,100, we will do that by the end of 2016. That force will 
be very capable. It will be anything but a hollow force.
    That force will be--the readiness will be high. The manning 
will be high. The equipment readiness will be high. So that 
force that we have built with this Budget Control Act of 2011 
is anything but a hollow force. So I want to put--allay any 
fears there.
    To go beyond that into sequestration, it is my 
understanding that it could happen a couple of ways. One, it 
can come with either we are going to preserve manpower and not 
take any cuts out of the manpower account, in which case that 
leaves only two other areas that you can really--that the cuts 
will come from. They will come from procurement, things: ships, 
equipment. They will come from my reset of the equipment that I 
spoke about in my opening statement, after 10 years of combat. 
It will stunt, if not completely negate, my ability to reset 
the Marine Corps.
    So, if the manpower account is set aside, it is procurement 
of things, and then it is operations and maintenance. And what 
that means to the subcommittee is that is training. That is the 
ability to go to, in my case, Twentynine Palms, to go to the 
ranges in the Philippines to train with the Filipinos, to be 
able to train with the Australians, to be forward deployed and 
forward engaged, to buy fuel, to buy ammunition, to buy the 
kind of equipment that we need to train with.
    So training and readiness will become what I consider to be 
almost a recipe for a hollow force, if we end up in 
sequestration.
    If you leave manpower in it and you say we are going to 
just take a percentage cut across manpower, operations and 
maintenance, and the procurement of things, then you are going 
to end up with a force that is significantly less dense than 
the one we have today. And what that means is less capable. We 
will have to go back in, redo the strategy, because the 
strategy that we have developed for the last 6 months is a 
strategy based on the current budget.
    Senator Coats. Well, I thank all three of you.
    Madam Chairman, my time has expired, but I think it is a 
good reminder to all of us that we have got a pretty big 
challenge laying ahead here between now and the end of the 
year.
    Senator Mikulski. And that was an excellent question. I 
think all of the questions have been very good, but yours, I 
think, is the one that we all wanted to ask. So, thank you.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you.
    Mr. Secretary, welcome.
    Mr. Secretary, you know all of this stuff, the JHSV, which 
is the Navy's vessel. I believe it is a valuable addition to 
the Navy's fleet. Just for the record, it has an expansive 
mission bay of some 20,000 square feet, which enables the ship 
to move 600 tons of cargo at more than 35 knots--that is 
moving--while carrying more than 300 combat-ready troops.

                  JOINT HIGH SPEED VESSEL PROCUREMENT

    The Navy's budget request for fiscal year 2013 stops 
production of the JHSV at 10 ships, rather than continuing to 
build toward the 21 ships that was projected. I know budgets 
are tight. We really know that. But it seems it is a pretty 
good price. And as you know, the more you build, the better 
price you have been able to get in this environment.
    What drove the Navy's decision to reduce the JHSV buy? And 
is that a decision that we could revisit as the ships enter 
service if you see the needs there?
    Mr. Mabus. A couple of things drove this decision, Senator. 
One was, as you said, finances. We had to find money, 
particularly out of procurement accounts, to meet the $487 
billion cut over 10 years.
    Second is that when you look at our war plans, you look at 
the requirements for these JHSVs; the 10 that we have under 
contract today will meet all those requirements.
    And third, as we were looking at ships to defer, we first 
looked at support ships like the JHSV, instead of combat ships 
like the LCS.
    And so, given that combination of factors, we thought that 
stopping the buy at 10 in this FYDP would make sense. The thing 
that we give up is engagement capability, using the JHSV to go 
around places like Africa or South America to do partnership 
training engagement and those sorts of things.
    The final thing that we looked at was the health of the 
industrial base. And since the JHSV is made in the same 
shipyard that the version 2 of the LCS is made, and since the 
gear-up of that workforce is going to require the hiring of at 
least 2,000 more people during the next couple of years, we 
thought that it was a very healthy industrial base, and that at 
least for this 5 years, that contract could be ended at 10 
without any harm there.
    Senator Shelby. You mentioned the LCS earlier. The Navy had 
to move two LCS ships out of the 5-year shipbuilding plan. I 
hope we can work together. I know the Navy has said good things 
about them.

             LITTORAL COMBAT SHIP MISSION MODULE READINESS

    I am concerned that issues relating to LCS mission modules 
have delayed sea trials for the vessel, and that is very 
important. How do you plan on dealing with the troubles 
affecting the module program?
    Mr. Mabus. Right now, Senator, the module program is on 
schedule, exactly where we thought it would be.
    Senator Shelby. Okay.
    Mr. Mabus. It has always been a spiral development. We are 
doing, in fact, testing today off Panama City on the unmanned 
underwater system for LCS. We are using the LCS 2 to do that 
testing. And we are absolutely confident that----
    Senator Shelby. You feel good about where you are.
    Mr. Mabus. I feel very good. Yes, Sir. And I think the CNO 
does, too.
    Senator Shelby. Admiral.
    Admiral Greenert. Yes, Sir. You know, we took Freedom, the 
mission modules weren't ready. The surface module was going to 
come out first. So we took Freedom, and we said, well, we will 
go on down to the Gulf of Mexico. And we needed to shake the 
ship down and figure out the concept of operations. So she got 
involved in drug operations and took part in two busts.
    Then we sent her over to Rim of the Pacific (RIMPAC), and 
we have had a lot of inquiries about this ship, this new ship 
that you brought. That has, I think, subsequently led to, 
although I cannot be completely sure it was because of RIMPAC, 
but the Singapore Government offered us, invited us to bring 
Freedom--in fact, encouraged us to bring Freedom to Singapore 
to operate there. And we are going to do that in about a year.
    And so, we are moving out with what we call ``sea frames'' 
because we have got a lot of work to do to get the concept 
down. At the same time, as Secretary Mabus said, the mission 
modules move apace, as we need them to be integrated.
    Senator Shelby. Good.
    Thank you, Madam Chairman.
    Senator Mikulski. Thank you.
    Senator Murkowski, and then Senator Kohl.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Madam Chairman.
    And gentlemen, welcome. And I, too, join with my colleagues 
in expressing my appreciation for your leadership to our 
country. Greatly, greatly appreciated.

                           ARCTIC OPERATIONS

    Secretary, I want to ask you some questions about the 
North. It is probably not going to be a surprise to you. But 
with the discussion about the shifting focus within the 
military toward Asia and the Pacific, when you look at Alaska, 
we are sitting right up there on top. We have got a larger 
interface with the Asia-Pacific theater than any other State 
out there.
    We have 5,580 miles of coastline that touch the Pacific and 
the Arctic Oceans. And as we all know, this coastline is 
becoming certainly more accessible. It presents great 
opportunities, but it clearly presents some real challenges as 
well.
    Can you inform me what the Navy has been doing over this 
past year to essentially get up to speed on the changing Arctic 
and what the near-term future holds for Navy involvement?
    Mr. Mabus. Senator, in 2009, the Navy laid out the road map 
for the Arctic, things that we plan to do. And we are following 
that road map.
    Last year, almost exactly at this time, I was at the Ice 
Exercise (ICEX) off the coast of Alaska, where we set up a 
camp, as you know, to do scientific work, but also bring last 
year two submarines up through the ice to do exercises in the 
Arctic.
    We also operate with our Canadian allies in Operation 
Nanook. We have at least three operations on an ongoing basis, 
on a routine basis, in the Arctic.
    The one area that we have said before that would be helpful 
to us is for the United States to become a signatory to the Law 
of the Sea Treaty because it would make dealings in the Arctic, 
it would give us easier--it would give us a seat at the table. 
It would allow us to state claims on the outer continental 
shelf that are certain under the Law of the Sea.
    And as we go forward, because the Arctic, as you pointed 
out, as the Arctic will become ice free, it appears, within the 
next quarter century, at least in the summer, there will be 
increased shipping. There will be increased tourism. There will 
be increased commerce of all types through there. The naval 
requirements in things as diverse as search-and-rescue, as well 
as purely military functions, will increase every year.
    And we are very focused on our responsibilities in the 
Arctic. And I will just repeat, one thing that would help us 
would be the Law of the Sea.
    Senator Murkowski. Well, I would certainly concur. We want 
to be able to work with you to try to advance it. I believe it 
is critically important.
    I am concerned, though, that while other Arctic nations are 
moving forward with policies that build out infrastructure, 
that provide assets, that we are not prioritizing it to the 
extent possible. But I appreciate your commitment.
    It is amazing to me to see the volume of shipping traffic, 
the cruise ships that are traveling through these northern 
waters. And we recognize that there is not a lot up there if 
there were an incident. So it is something that we need to 
remain vigilant.
    I wanted to ask, I have got a host of different questions, 
but I don't know whether we will have a chance to go to a 
second round.

                   SEXUAL ASSAULT PREVENTION PROGRAMS

    But I do want to ask about an article that was in 
yesterday's news. And this relates to a new Federal lawsuit 
where eight members of the military, seven of whom who served 
in the Navy and the Marine Corps, have made allegations of 
sexual assault. And the allegations contained in at least the 
report that I read are pretty serious--a high tolerance for 
sexual predators in the ranks, fostering a hostile environment 
that discourages victims of sexual assault from coming forward, 
and punishing them when they do.
    What are we doing, not only within the Navy, but what are 
we doing within the military to ensure that there is a level of 
safety? That if, in fact, one is a victim, that they are not 
further victimized by retribution when they come forward? Are 
we making any headway on this?
    Mr. Mabus. One of the things that I committed to when I 
took this job and one of the things that I have focused on the 
most intently is sexual assault in the Navy and Marine Corps. 
It is a crime. It is an attack. It is an attack on a shipmate.
    And we have a force that is willing to lay down its life 
for other shipmates. This should be no different. We have to 
make sure that the force understands the severity of this and 
is willing to intervene to stop this before it happens. I will 
give you some specific things that we have done.
    I set up a sexual assault prevention office that reports 
directly to me, and I get reports on a very routine basis. And 
that office has been going around the fleet, around the Marine 
Corps to, number one, find out exactly the size of the problem 
and what we can do about it.
    Some of the things that have come out of that is that now 
in boot camp--coming out of boot camp, we found that programs 
inside boot camp were not that effective because there are just 
too many things coming at people when they were at basic 
training, but that every sailor going to ``A'' School, and 
every sailor does go to ``A'' School, they will get three 90-
minute sessions on sexual assault, on how to prevent it, on how 
to intervene.
    Second, I announced Monday of this week that we are 
undertaking a major initiative called 21st century sailor and 
marine that has five different areas in it. And one of them is 
that people should feel safe.
    Some of the things we are doing there is doing everything 
we can to remove the stigma of reporting, including--and this 
is a DOD-wide effort--some Federal forms that you have to fill 
out now for things like security clearances, you would have to 
put down counseling that you received after an attack. We have 
got to end that requirement. Including, if the victim wants to 
go to another command immediately, that person can go to 
another command immediately to get away from any sexual 
predators that they may have come in contact with.
    And the one that got the most press was, we are instituting 
breathalyzer for alcohol on duty stations coming aboard our 
ships, coming to work at our surface locations. And the reason 
we are doing this is because alcohol has been shown to be the 
common factor in sexual assault, in domestic violence, in 
suicide, in fitness, in readiness.
    And we have run a pilot program with Pacific submarines 
(SUBPAC) in Washington State, and we have also run a pilot 
program at the U.S. Naval Academy using these breathalyzers. 
The incidence of sexual assault, the incidence of domestic 
violence, of everything across the board has gone down 
dramatically when we have done that.
    And I just thought if we have that opportunity and we know 
that sort of--we could get that sort of response in these pilot 
programs, that we had an obligation to put this in fleet-wide 
to guard against any not only sexual assault, but also the 
other risks that sailors and the marines face.
    Senator Murkowski. Well, I appreciate that, and the 
attention and the focus on the safety.
    I look forward to welcoming you to Anchorage this summer 
when the USS Anchorage is commissioned. We are looking forward 
to that visit.
    Thank you.
    Mr. Mabus. We were at least bright enough to do that in the 
summer.
    Senator Murkowski. Much better weather and good fishing.
    Thank you, Madam Chairman.
    Senator Mikulski. Thank you, Senator Murkowski.
    Before I turn to Senator Kohl, I just want to add and 
amplify the gentlelady's remarks and yours, Secretary Mabus.
    All of the women in the Senate--and we don't have a caucus, 
we just come together on where we can find common ground--are 
very concerned about women in the military, their ability to 
serve and to be promoted and utilized in every capacity.
    But this issue of alcohol is something that runs through 
all of the services. And for having the Naval Academy in 
Maryland, I am on the Board of Visitors, one of the things we 
find, because there is unwanted sexual--there is a continuum, 
the unwanted sexual contact, which would be very aggressive 
coming-on, but it is not assault, it is not harassment--to 
harassment, all the way up to a violent, violent situation like 
rape.
    In 90 percent of those situations at the Academy, again, it 
is alcohol, alcohol, alcohol. We would hope that the 
Secretaries of all the service academies would look at alcohol 
on their campuses the way the Naval Academy is looking at 
theirs, lessons learned from civilian universities.
    But I really want to encourage you to look at this. We are 
not prohibitionists. We understand human behavior, et cetera, 
that people are people, and human beings are human beings. 
There are two things that contribute to the kind of climate 
that Senator Murkowski raised. One, a cultural climate of 
hostility. And I think the military has dealt with that and has 
been dealing with that for more than 20 years and certainly 
this administration and, I believe, Secretary, President Bush 
did as well.
    But this alcohol thing is big. And it also impedes the 
ability to serve and to be fit for duty.
    So we just want to encourage you on that. I wanted to just 
congratulate the gentlelady for raising that question because 
it was going to be one of mine as well.
    So, having said that, I am going to turn to Senator Kohl 
from Wisconsin.

                     STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you very much.
    Secretary Mabus, the Navy's budget fully funds the current 
plan to split the purchase of 20 LCSs evenly between the 
variants built in Wisconsin and Alabama. I support this 
approach and commend you for requesting the funding necessary 
to carry it out.

                LITTORAL COMBAT SHIP PROCUREMENT PROGRAM

    However, the Navy's 5-year budget window cuts two LCS ships 
after the 20-ship purchase plan is complete. In light of that 
proposed cut in future years, does the Navy still support long-
term plans to purchase 55 LCSs?
    Mr. Mabus. Absolutely, Senator. The two ships, and it goes 
from three to two each year, we lost one ship in 2016, one ship 
in 2017, but it was just slid to the right.
    We want to build out the 55 ships as quickly as we can. We 
still believe in that number and that need for our fleet.
    Senator Kohl. Good.
    Just to push it to a final comment from you, if the 
Congress were to delay the Navy's plans to bring these ships 
into the fleet, the Navy's effectiveness would be hurt. I hope 
you would agree with that. We understand that the LCS is going 
to replace an aging fleet of frigates and minesweepers and that 
Navy readiness would suffer without them.
    Is that true? And what will happen if the LCS is delayed?
    Mr. Mabus. Yes, Sir, the LCS is one of our--one of the 
backbones of our fleet today and for the future. As the CNO 
mentioned a little bit earlier, Singapore has invited us not 
only to bring the first LCS there next year, but also to 
forward deploy LCSs in Singapore in the future. And that is 
something that we are certainly planning to do and certainly is 
going to be one of the prime capabilities that we have in the 
Pacific.
    Senator Kohl. All the hopes that you had for LCS are on 
plan and following, moving along as you guys had discussed?
    Mr. Mabus. Yes, Sir. We are--it is an amazingly capable 
ship, shallow draft, very fast. But also I think it is one of 
the ships of the future because of its modularity.
    Because every time the technology improves, every time we 
get a different weapons system, we don't have to build a new 
ship. We simply pull out the weapons system or the whatever 
system off the ship, put in a new one, a different one, and go 
back to sea.
    And I think that capability, the first three systems, as 
you know, are anti-surface, anti-sub, anti-mine, and if you 
look at some of the things that we are facing in the world 
today, that we are relying, as you pointed out, on patrol boats 
and minesweepers, or mine-countermeasure ships to do, we need 
this capability very badly.
    Senator Kohl. And you are pleased that you are building two 
variants on that LCS?
    Mr. Mabus. Yes, Sir, I am. I think that they give us a 
wider range of options for our operators. As you know, and 
thanks to this subcommittee and the Congress, we were able to 
buy both variants at a greatly reduced rate.
    Both variants are on firm fixed-price contracts. The price 
is going down for each successive ship. And we are very pleased 
with the shipyards that are building them. We are very pleased 
with the product that is coming out.
    Senator Kohl. Thank you very much, Mr. Secretary.
    Senator Mikulski. Senator Collins.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you very much, Madam Chairman.
    I apologize for being late. The Armed Services Committee is 
having a hearing with Secretary Panetta on Syria, even as we 
are meeting today. And I clearly need a clone, but I have yet 
to figure that out.
    Senator Mikulski. We will support that.
    Senator Collins. Mr. Secretary, first of all, it is good to 
see you again.

                            DDG-1000 PROGRAM

    As you know, Bath Iron Works is building the first two 
Zumwalt-class destroyers and will commence construction of the 
third DDG-1000 later this year. The first ship was 60-percent 
complete when the keel was laid. The construction rework rate 
is less than 1 percent, which is astonishing for the first ship 
of a new class. And the Navy retired a significant portion of 
the program's cost risk during the last year.
    I think it would be helpful for the record, in light of the 
department's commitment to maintaining combat capability in 
anti-access/area denial environments, if you would comment on 
the combat capabilities that you expect these three DDG-1000 
ships to bring to the fleet.
    Mr. Mabus. I will be happy to, Senator. And I would also 
like to ask the CNO to follow along after I do.
    These ships, with their new stealth technology, with the 
fire support for ground troops that they bring, with their 
anti-air, anti-surface, anti-submarine capabilities certainly 
fit very precisely into the anti-access/area denial areas that 
we have planned to use these ships in.
    As you know, because of the truncation from 10 ships to 3, 
a Nunn-McCurdy breach occurred, but it was solely because the 
number of ships went down. At that time, the program was 
recertified as crucial to national security, and the building, 
the fabrication, at Bath has gone along very well. And I am 
happy that we now have the further two, 1001 and 1002, now 
under contract so that we can move forward with them to join 
the fleet.
    Senator Collins. Thank you.
    Admiral, is another advantage the smaller crew size that 
can be used on these ships, given the high cost of personnel?
    Admiral Greenert. Yes, Senator. We are talking 100 less on 
a ship of a comparable capability, 150 versus 250, for example, 
the DDG-1000 being 150.
    We don't talk a lot about its undersea capability. It has a 
dual-frequency sonar capability, which means it can be 
searching for long-range underwater vehicles, submarines, but 
at the same time tracking something closer. Eighty-cruise 
missile capability, not a lot of people talk about that. That 
is extraordinary.
    So it has a good land attack mode, the long-range gun, 
which we are really excited about, what it will bring--two of 
them, advanced long-range projectiles--and it also maintains 
three drones. We are going unmanned. It is very important. So 
it can employ three unmanned systems, vertical take-off and 
landing tactical unmanned air vehicle (VTUAV) Fire Scout or 
Fire-X, as well as a helicopter. So it is quite capable. And on 
radar, it looks like a fishing boat.

                             DDG-51 PROGRAM

    Senator Collins. Mr. Secretary, your strategy to introduce 
competition into the restart of the DDG-51 program earlier than 
planned reaps some significant savings for the taxpayer, and I 
applaud you for that effort. In addition, it is my 
understanding that the Navy estimates that it could save up to 
$1.5 billion by exercising multiyear procurement authority for 
the DDG-51 program during the next 5 years.
    I understand that Senator Reed mentioned some possible uses 
for those savings. So I would be remiss if I did not also 
follow that line of questioning.
    That amount, as luck would have it, would be sufficient to 
procure one additional DDG-51 in the 5-year budget window. And 
currently, the Navy intends to procure nine ships during the 5 
years. But the Navy's own requirements, plus the fragility of 
the industrial base, call for an absolute minimum procurement 
rate of two large surface combatants per year.
    So, Mr. Secretary, if the Navy does reap the savings 
expected from the multiyear procurement authority and the 
increased competition and you have the opportunity to reinvest 
that funding, would adding an additional destroyer in the 5-
year budget window also be one of your priorities?
    Mr. Mabus. Senator, we will certainly be requesting 
multiyear authority for the DDG-51. I think it is exactly the 
type program, and your numbers are accurate in terms of the 
savings that we forecast.
    What we have done, however, is we have already used those 
savings to get the nine ships. Without a multiyear, we would 
only be able to procure eight. And so, we have taken the 
savings that we anticipate from the multiyear to procure the 
ninth ship.
    Senator Collins. I am concerned particularly, and I realize 
my time has expired, but particularly with the focus on the 
Asian Pacific, that we are not going to have enough ships to 
really do the job. And I hope that is something that we can 
focus on as we set priorities.
    Also for the record, I will be, with the chairwoman's 
permission, submitting some additional questions involving 
investment in our public shipyards. There is a long, long 
backlog, which the Government Accountability Office (GAO) has 
documented.
    And unfortunately, there, I believe, is only one new 
military construction project identified in this year's budget 
request, for Norfolk. And the needs are great at the Portsmouth 
Naval Shipyard and elsewhere. So that is something we need to 
look at as well.
    Mr. Mabus. Madam Chairman, if I could.
    Senator Mikulski. Sure.

                     NAVY FLEET SIZE AND CAPABILITY

    Mr. Mabus. Just in terms of numbers of ships, you and I 
share the concern, even though the fleet we have today is far 
more capable than any fleet we have had before. But one of the 
things that I think is important to note is that at the end of 
this 5 years, this FYDP, we will have the same size fleet, in 
spite of some early retirements of ships, in spite of the 
requirements of the Budget Control Act of 2011, in spite of 
having to defer the building of some ships, and that by 2019 we 
will be back at 300 ships. We will build the fleet to 300 ships 
because at some point, as we have discussed, quantity becomes a 
quality all its own.
    So, thank you, Senator.
    Senator Collins. Thank you. Thank you very much.
    Senator Mikulski. Senator Collins, and also to other 
Senators, I know their staffs are here, the record will remain 
open for subsequent questions of members, and also Senator 
Inouye will be submitting his questions for the record.
    I have some questions of my own. I really wanted to be at 
this hearing because we in Maryland, we are a Navy State. We 
are not just a Navy State. We love our Army presence, whether 
it is the National Security Agency at Fort Meade or Aberdeen or 
its bases. We love the Air Force because of being there at 
Andrews.
    But we are crazy about the Navy. We have the Naval Academy, 
Naval Bethesda.
    Mr. Mabus. Your ardor is returned, Senator.
    Senator Mikulski. Well, we will get to that--Naval 
Bethesda, Pax River, the Office of Naval Intelligence.

                        USNS COMFORT RELOCATION

    And we think we offer a fantastic set of home ports. We are 
the home port to the Constellation. We are the home port to the 
10th fleet, the dynamic, cyber 10th fleet that has no aircraft 
carrier, submarines, or whatever, but is defending the fleet. 
And we are also the home to the Comfort.
    Now, we feel real bad that we are going to lose the 
Comfort. And in fact, we feel so bad in Maryland that it has 
the same magnitude, if you were in Baltimore when we heard the 
Comfort was going to leave us, we have had the same feeling as 
when the Colts left us.
    And I am not joking. We love the Comfort, the hospital ship 
that we have watched since 1987 steam down the bay for really 
significant missions, serving the Nation, whether it has been 
to respond to Desert Storm, and we were there along with the 
hospital ship Mercy, whether it was responding to 9/11 off the 
coast of New York, where Senator Collins and I stood side-by-
side looking at the wreckage and the debris, and so on.
    So I want to know how we can keep the Comfort in Baltimore?
    Mr. Mabus. Senator, the decision to move Comfort was a 
purely financial one. The pier in Baltimore is a private pier 
that we pay a little more than $2 million a year to keep the 
Comfort berthed there. The pier that it will be moving to is a 
Navy pier. So we will save in excess of $2 million a year to 
move the Comfort.
    Two other things went into the decision. One was the 
facilities at the new pier for the ship and its permanent crew, 
the 57 permanent crew members. And the other was that, as 
Comfort is manned by medical professionals----
    Senator Mikulski. You have two mannings. You have those who 
keep the ship afloat and operational, and then you have this 
extraordinary medical team that is just amazing.
    Mr. Mabus. Me, too. And that manning has changed over the 
years so that most of those health professionals now--doctors 
and nurses--come out of Portsmouth, Virginia, the hospital 
there, instead of the way they used to, out of Bethesda.
    And so, those were the things that went into the decision. 
But it was primarily financial.
    Senator Mikulski. Well, I have a couple of questions about 
that.
    First of all, let us go to the pier part of it. And I 
understand we are in a frugal environment. That has been the 
point of the testimony and many of your comments as you support 
the Secretary of Defense and the President's initiative to have 
a more frugal but still muscular defense. We understand cost.
    But tell me about this pier. Don't you have to build a new 
pier for the Comfort?
    Mr. Mabus. No, ma'am. We upgraded the pier----
    Senator Mikulski. And how much did that cost?
    Mr. Mabus [continuing]. To provide for the Comfort. Three 
and a half million dollars.
    Senator Mikulski. So it cost $3.5 million to upgrade it?
    Mr. Mabus. Yes.
    Senator Mikulski. Now, let us go to the mission. And I 
understand the fact that the manpower used to be at Naval 
Bethesda. So I don't dispute that.
    But have you looked at the hurricane impact? Let me be 
specific so this isn't a trick question.
    The Comfort, since the Comfort has deployed since 1987, I 
think, 9 or 10 times, two-thirds of that has been during 
hurricane season. Literally, when it went down the bay, it has 
been hurricane season. What Norfolk has to do when hurricanes 
come is they have to go to sea.
    Okay. So the President says send the Comfort to wherever. 
It has been to Haiti, you know, and God knows what lies ahead, 
given the turmoil in the world.
    So, have you looked at the hurricane impact statement, that 
while it is berthed at Norfolk, you are in a hurricane, the 
Comfort is out at sea riding it out, but you have to get ready 
to deploy? Have you looked at the hurricane impact?
    Admiral Greenert. I can't tell you that we have, Senator. 
What we would do is we would sortie the ship, like we do with 
the others. And I think that is your question, the cost to 
sortie----
    Senator Mikulski. I don't know the military lingo. I just 
know----
    Admiral Greenert. We would get underway. The ship gets 
underway----
    Senator Mikulski. Because while we are looking at Norfolk 
during the hurricane, we are up the coast at Ocean City, and so 
on.
    Admiral Greenert. Right.
    Senator Mikulski. So we are all kind of in it together. So, 
go ahead.
    Admiral Greenert. I have to take it for the record, so that 
I--because I would want to make sure I understand your 
question.
    I believe this ship will have to get underway like the 
other ships in Norfolk do when there is a hurricane in the 
region. And so, have we accommodated that factor, as opposed to 
remaining in Baltimore, the number of times ships sortie 
because of weather in Norfolk versus weather in Baltimore? I 
think that is your question, Senator.
    Senator Mikulski. Yes.
    Admiral Greenert. I have to get back to you on that and see 
what that would be.
    Senator Mikulski. Well, Admiral, I would really appreciate 
this.
    Admiral Greenert. Sure.
    [The information follows:]

    After revising our cost estimates to account for hurricanes, the 
case for moving USNS Comfort to Norfolk remains cost effective. The 
Navy will still save approximately $2 million annually. Details are as 
follows:
    USNS Comfort has not conducted a weather sortie from her berth in 
Baltimore in the past 10 years, while Navy ships homeported in Norfolk 
have conducted two weather sorties during this period. If USNS Comfort 
was berthed in Norfolk, each weather sortie would incur operational 
costs of $0.5 million (assumes a 5-day sortie at a cost of $100,000/
day). Over a 10-year period, two sorties would thus cost $1 million (2 
 $0.5 million) or an average of $0.1 million/year.
    Despite the potential operational cost for USNS Comfort to conduct 
weather sorties, the decision to berth her in Norfolk remains cost 
effective. Our report to the Congress on the Cost Benefit of Relocation 
of USNS Comfort estimated a $2.1 million/year savings. Factoring in the 
contingency of weather sorties reduces this estimate by $0.1 million to 
$2 million/year in savings. Also, the location in Norfolk would reduce 
the transit time to open ocean by 12 hours compared to a Baltimore 
berth.

    Senator Mikulski. You know, it is my job to fight to keep 
the Comfort----
    Admiral Greenert. I understand.
    Senator Mikulski [continuing]. Both for economic reasons 
and jobs, and yet we have developed just an affectionate 
relationship. And I think the crew of the Comfort feels the 
same, that we are a welcoming home port.
    So, Mr. Secretary, with the cooperation of the Admiral, I 
would like you to look at that impact and see if it affects 
your judgment so we get to keep the Comfort.
    If we cannot, if we cannot--and facts must speak for 
themselves--would you also take the opportunity to look and see 
if there are other home port opportunities for us? Because we 
have a 50-foot channel, we now have port capacity that is going 
to welcome the new ships coming through the Panama Canal. And 
if we can welcome these new ships from the canal, we sure would 
like to welcome a vessel from the United States Navy.
    We have the Constellation, the older ship. We would welcome 
a new ship, and we would love to keep the Comfort.
    Would you take a look at----
    Mr. Mabus. We would be happy to look at both of those. Yes, 
Ma'am.
    Senator Mikulski. Senator Cochran.
    Senator Cochran. Madam Chairman, thank you.
    General Amos, there is one question that I omitted asking 
for the record to you, and it relates to our amphibious warship 
fleet lift capacity.

                      AMPHIBIOUS SHIP REQUIREMENTS

    What I would like to have for the record is what is the 
current inventory of amphibious ships in the fleet? And what is 
the maximum lift requirement? And are there operational 
readiness concerns? And are you aware of any unmet combatant 
commander demands for amphibious ships?
    General Amos. Senator, I can answer, I think, all of those 
or at least get a head start on those things, and we will come 
in on the record for the rest of it.
    But I believe the current inventory--and John, Admiral 
Greenert can just keep me honest here--I think our current 
inventory is at 29 today, amphibious ships.
    We have a few decommissions coming underway. We have some, 
as you know, new construction. I made a comment about 2 weeks 
ago that the agony that the CNO and the Commandant and the 
Secretary of the Navy went through in this FYDP cycle to cut 
Solomon's baby, to try to determine, what ships, you know, 
where are we going to spend our money was, I think, very 
responsible.
    And I think, from my perspective, I mean, I would like to 
add 55 amphibious ships, but we can't afford it. My sense right 
now is that I am very satisfied with what we have done inside 
this FYDP.
    There is going to be an effort underway over the next 
little bit to take a look at what is our real requirement? We 
know how much it takes to put a marine expeditionary brigade on 
a ship. That takes 17 amphibious ships. So if you just say, 
okay, let's put one of these brigades onboard, what is it going 
to take? It is 17.
    Well, our Nation has an agreed-upon requirement for two of 
these in a forcible entry operation. Well, that is a lot of 
ships, and we can't afford that.
    [The information follows:]

    Question. What is the current inventory of amphibious ships in the 
fleet?
    Answer. There are currently 28 amphibious warships in the fleet.
    Question. What is the maximum lift requirement?
    Answer. The Department of the Navy has identified a requirement of 
38 amphibious warships to lift two Marine Expeditionary Brigade assault 
echelons. Compelled by fiscal realities, we have accepted risk down to 
33 ships. Thirty operationally available ships is the baseline number 
to support day-to-day operations.
    Question. Are there operational readiness concerns?
    Answer. We currently have 27 operationally available amphibious 
warships in the inventory. With the commissioning of the USS San Diego 
(LPD 22) during May 2012, the number of operationally available 
amphibious ships will rise to 28. The current inventory does not 
support operational plan (OPLAN) lift requirements and defers critical 
warfighting capability to follow-on-shipping, and increases closure 
time. Additionally, it does not fully support single-ship deployer 
requirements requested by combatant commanders to meet their theater 
engagement plans. Last, there is little flexibility in the amphibious 
warship inventory, limiting the Navy's ability to provide a ``reserve'' 
in the case of a catastrophic casualty to a ship or class of ship.
    Question. Are you aware of any unmet combatant commander demands 
for amphibious ships?
    Answer. Specific demand signals are classified and can be provided 
in a separate venue; however, the overall delta between global 
combatant command demand of Amphibious Ready Group/Marine Expeditionary 
Units and what has actually been sourced for fiscal year 2012 is 53 
percent. For independent amphibious warship deployers, less than 10 
percent of global combatant command demand is sourced.

    General Amos. So we are working right now, you know, what 
is it we can't afford? What are the elements of risk, as you 
come off of the number? And then how do you mitigate that risk? 
Because there are ways that you can mitigate risk.
    But as the Secretary said, quantity has a quality all its 
own. It does reach a point, there is a knee in the curve where 
we want to make sure that we have the ability to be able to put 
these, deploy this forcible entry force. Hard to imagine that 
it could ever happen. It is almost out of the realm of our 
imagination. But let me give you a sense for magnitude.
    When we surrounded the town of Fallujah in the fall of 
2003--excuse me, 2004, we put 5 marine infantry battalions 
around there, 3 Army battalions, and 2 Iraqi battalions--10 
infantry battalions. What we are talking about here for this 
forcible entry capability for the entire United States of 
America are basically six battalions, or two brigades worth of 
marines coming ashore.
    So when you think of relativity, it is a pretty nominal 
capability for a nation that is a global power, that somewhere 
down the road may have to exercise its forcible entry 
capability.
    Does that answer your question, Sir?
    Senator Cochran. It does. Thank you very much.
    Senator Mikulski. Mr. Secretary, General Amos, and Admiral 
Greenert, first of all, I think the subcommittee really wants 
to thank you for your service and for your leadership. In 
thanking you, we want to thank all the men and women who serve 
in the Navy and the Marine Corps.
    So, for those who are active duty, Reserves, and part of 
our civilian workforce that supports the Navy, we really just 
want to say thank you in every way and every day.

                    FORCE SIZE AND DEPLOYMENT IMPACT

    I want to ask a question really that then goes to 
deployment and our families. One of things we know that the 
health and vitality of our military personally--the individual 
soldier, sailor, airman, and marine--often depends on the 
frequency of the deployment.
    With the drawdown of personnel and the fact that we are 
still in combat, my question to you is, given this current 
manpower that is being recommended in the appropriations, how 
do you see this affecting the deployments? Will they deploy 
more frequently? Will they deploy less? What is your view on 
that?
    Admiral, can we start with you, and then go to General 
Amos?
    Admiral Greenert. Yes, Senator.
    The demand signal which defines our deployment is called 
the global force management allocation plan. It is the 
distribution, the allocation of forces around the world. And 
one of the in-going foundations, if you will, or givens, for 
our budget as submitted and that we signed up to was what we 
call--my process is called the fleet response plan. And I 
respond to the global force management allocation plan.
    We established what that is, and I am comfortable that we 
can--and it will be less deployments than today, subject to the 
world voting and things changing.
    The thing, the key in this is the combatant commanders' 
having a request for forces. This is a supplemental to the 
plan, if you will. Today, we are living with a fairly extensive 
number of requests for forces. These are deployments over and 
above what the budget is laid out to give. And due to the 
generosity, if you will, the support of this subcommittee and 
the Congress through the overseas contingency operations (OCO) 
appropriation, we are able to reconcile that.
    So what I am telling you, Senator, is with the plan, the 
global force management plan that is laid out there, I am 
comfortable. If we are unable to, if you will, sustain that 
appetite for additional forces, then there is going to be a 
stress on that, and we are going to be deploying more than what 
is assumed in this budget. And that will be difficult.
    Senator Mikulski. General.
    General Amos. Senator, several years ago, I remember 
answering your question about what would be the ideal what we 
call deployment-to-dwell ratio. And that is----
    Senator Mikulski. That is exactly what I am trying to also 
get at.
    General Amos. Right. And it is deployment-to-dwell. And 
that was at the height of when the Marine Corps, my service, 
was essentially almost on a 1-to-1. So you are gone 7 months, 
and you are home 7 months. And while you are home at 7 months, 
you are training and you are doing all these things. So it is 
not like you are home in your house for 7 months. But that 
becomes a 1-to-1.
    We are sitting today in our infantry battalions, which is 
the standard unit of measure in the Marine Corps--everything 
else is built around an infantry battalion--at about 1 
deployment to 1.5, which means you are gone for 7 months and 
you are home for 10, 11.
    Now, I will tell you that is going to change dramatically 
this year. As the Marine forces come down, as that surge force 
comes down in Afghanistan that we have talked about, our 
deployment-to-dwell ratio will increase. In other words, we 
will have more time at home.
    So, as I look at a post-Afghanistan world, and I think 
about now being forward deployed and forward engaged in the 
Pacific, and being in Okinawa and being in Guam and being down 
in Australia, and doing all the things that marines do, my 
sense is that even at a 182,000 force--in other words, that 
force that we are going to go down to--that we will, when it is 
all said and done, we will settle down to something more than a 
1-to-2 deployment-to-dwell.
    So it will probably be--we will have some units that are 1-
to-3. In other words, you are gone, we will get out of the 7-
month deployments. We will get back to 6. You are gone 6 
months, then you are home 18 months. And marines get bored. And 
quite honestly, they like to deploy, and they like to be out at 
the cutting edge. So that is the 1-to-3 that we would probably, 
as a Nation, like our services to all kind of be at.
    Are we going to ever see that again? I don't know. Will I 
be happy if I see 1-to-1.2, as a Commandant? Yes. Will the 
marines be happy? I think so. I think we are going--that is 
where we are headed. So I think if we are just patient for 
about another year, we will get this recocked and reset back to 
I believe where you would like to see it, Senator.
    Senator Mikulski. Well, what I would like to see is that I 
know that our Marines and our Navy like to fight. That is why 
they join the military. I mean, like to be ready to protect and 
defend, and we love them for it. We really do.
    And part of that love for them is to protect them while 
they are protecting us. Our job is to protect them. And 
deployment and the rate of deployment, the ratio of deploy-to-
dwell has a dramatic, demonstrable effect now. We know this 
from our experiences on their physical and mental health.
    So I am for them. And I know you are. God knows, I know you 
are. And so, I want to be sure that, as we look at the forces 
that we are going to have, we protect them as they protect us.
    And Mr. Secretary, and I would hope the Service Secretaries 
and the Secretary of Defense also speak out at hearings, that 
if we are going to reduce the number of our military, we need 
to be careful with our rhetoric about where we want to just 
send them. So just know that. I think all of us want to work 
with you on it.

                   SERVICEMEMBER TRANSITION PROGRAMS

    And then that goes to my last question. After they serve 
and they are ready to be discharged, I worry that they have 
jobs. I just worry about that. And I know many of the Members 
do. The women have talked about this. So, often when they are 
discharged, is there an actual plan that helps them sort out 
where they can work?
    And also, it was something, I think, Mr. Secretary, you in 
your old hat as a Governor said, sometimes they had these 
fantastic skills in the military and serve us so well and 
bravely, but it doesn't count toward licensing in their home 
State. So we have heard about just wonderful people that have 
done incredible Medical Corps service in the most grim and 
violent of circumstances, where their performance has been 
amazing to prevent mortality and morbidity, and then it didn't 
count for anything when they came home to get a job, where we 
have a civilian workforce shortage--EMTs, nursing, et cetera.
    Could I ask you, Mr. Secretary, and so I know I am going 
over my time, really, first of all, I think their service ought 
to count, and I think it ought to count in every State in the 
United States of America. Are you looking at that? And then, 
also, can you tell me about the discharge planning that goes on 
so that we help them be able to find their way in the civilian 
workforce?
    Mr. Mabus. I would very much like to talk about that.
    In terms of credentialing, whether it is for things like 
nurses or other things, two things spring to mind. One is the 
First Lady's initiative to make sure that every State in the 
Union signs up to accept credentials from particularly military 
spouses. Because we ask our military to move a lot. Military 
spouses who are nurses or realtors or anything else that 
requires a certificate or a license sometimes have to wait 6 
months or a year when they get there.
    Second, for the members of the service, we have a thing 
called Navy COOL, which is Credentialing Opportunities On-Line.
    Senator Mikulski. ``Cool,'' like ``You are a cool guy?''
    Mr. Mabus. You are a cool guy.
    Senator Mikulski. Okay. Is it C-O-O-L----
    Mr. Mabus. I think that is why they picked it. No, it is C-
O-O-L, Navy COOL. And what it will----
    Senator Mikulski. I notice it is not ``CNO.''
    Mr. Mabus. Well, he is a pretty cool guy, too.
    Senator Mikulski. Yes. You all are.
    Mr. Mabus. Navy COOL allows sailors to go online, get the 
certificate that they need to match the job they are doing in 
the military with a civilian credential. And we have this lined 
up with every naval job, what is a comparable civilian job and 
if you need a credential. And if you are leaving the Navy, we 
will pay for the things that you need to do to get that.
    Senator Mikulski. Get that credential.
    Mr. Mabus. Get a credential.

                  SERVICEMEMBER TRANSITION ASSISTANCE

    The other things I want to talk about, and CNO and 
Commandant may want to give some more detail, too, as people 
separate from either the Navy or the Marine Corps, we are 
taking that transition very seriously. We are giving one-on-one 
counseling. We are doing things like, if you want to go to a 
job fair anywhere in the United States, we will pay for you to 
go there.
    If you are overseas when you are being separated, we 
guarantee you 60 days back in the United States before that 
separation. The marines have a four-door process of ``Tell us 
where you want to aim for.'' Do you want to aim for more 
education? Do you want to aim for apprenticeship? Do you want 
to aim for a certificate? Or do you want to aim to go right 
into the job market? And we will send you through the 
preparation to do that.
    And the last thing I would like to say is that the Navy 
itself has taken it very seriously. Last year, we hired in the 
Navy almost 13,000 former sailors and marines to come in as 
civilians once their service was finished because they have a 
lot of the skills that we need. So far this year we have hired 
almost 3,000.
    And we feel a special obligation to our wounded warriors. 
We have had two hiring conferences with private employers for 
wounded warriors, both of which all three of us have spoken at.
    The second thing, though, is that the Department of the 
Navy, through Naval Sea Systems Command, NAVSEA, had a goal 
last year of hiring at least one wounded warrior per day for 
the entire year, and we exceeded that. We hired more than 400 
wounded warriors into NAVSEA.
    Senator Mikulski. Mr. Secretary, I am going to ask you not 
only for the record, but for me personally, if I could have 
whatever your policy papers are on this, because I want to talk 
to my colleagues about how we can promote the First Lady's 
initiative not only in the budget. And I know both the Admiral 
and General could elaborate, but the hearing is getting longer.
    [The information follows:]

    Prior to 2009, the Department of the Navy (DON) had several 
initiatives and programs for hiring wounded warriors, but these efforts 
were consolidated under Executive Order 13518, ``Employment of Veterans 
in the Federal Government'' which DON now follows as its guiding 
policy. DON utilizes the Defense Outplacement Referral System (DORS) to 
help wounded warriors find employment opportunities within the 
Department of Defense (DOD). Wounded warriors who register in DORS have 
the opportunity to upload their resumes which are then available to 
hiring managers across DOD. DON is committed to recruiting and 
employing veterans, and our HR Wounded Warrior Coordinators help 
qualifying veterans register in DORS; 976 wounded warriors have been 
hired in fiscal year 2012.
    In compliance with Executive Order 13518, DON provides the required 
veterans' employment training via human resources reference guides, 
online education tools, and in-person seminars. DON also recently 
published a wounded warrior reference guide for the use of employers, 
managers, and supervisors which provides information on how to 
successfully support veterans who have transitioned to the civilian 
workplace.

    Senator Mikulski. And then I think there will be some of us 
who will want to take this on ourselves. You know, when World 
War II ended, we had a tremendous demand for workers and so on. 
And again, as part of it, if you are going to get out there and 
protect and defend us and be in the front line, we don't want 
them on the unemployment line.

                     ADDITIONAL COMMITTEE QUESTIONS

    And so, we would like to work with you to really, really 
ensure that. I would like to have the policy papers and do 
that.
    So, Mr. Secretary, Admiral Greenert and General Amos, we 
want to thank you for your testimony and for your service. 
Senator Inouye also said to please commend his regards to you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                 Questions Submitted to Hon. Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye

                        END-STRENGTH REDUCTIONS

    Question. Secretary Mabus, as part of the fiscal year 2013 budget 
proposal, the Department of Defense (DOD) has put forward a plan to 
reduce the size of the active duty Navy by 6,200 sailors and Marine 
Corps by 20,000 marines over 5 years. What is the plan for reducing the 
force beginning in fiscal year 2013, and what are the risks associated 
with this downsizing?
    Answer. Navy and Marine Corps end-strength reductions are a result 
of DOD Strategic Guidance released January 2012. This guidance 
emphasizes a smaller, leaner force structure that is agile, flexible, 
ready, innovative, and technologically advanced. This quality force is 
fully capable of executing its assigned missions, and is a force with 
capabilities optimized for forward-presence, engagement, and rapid 
crisis response. It also balances capacity and capabilities across our 
forces while maintaining the high levels of readiness on which the 
Nation relies.
    Navy end-strength reductions are primarily the result of changes in 
force structure, such as ship decommissionings. To manage these 
reductions, the Navy will primarily rely on voluntary measures and 
attrition, before resorting to involuntary actions. The challenge is to 
shape and balance the force to achieve a mix of officers and enlisted 
personnel that ensures the right person, with the right skills is in 
the right job at the right time.
    Marine Corps end-strength reduction result from right-sizing the 
Marine Corps to meet the anticipated security environment and needs of 
the Nation after the drawdown in Afghanistan, and the impacts of the 
Budget Control Act of 2011 on DOD budgets. This force adjustment 
follows the Marine Corps growth of 27,000 marines in 2006 and 2007. The 
force funded in the fiscal year 2013 President's budget request is 
fully capable of executing all assigned missions in the new strategic 
guidance, and is a force with capabilities optimized for forward-
presence, engagement and rapid crisis response. It balances capacity 
and capabilities across our forces while maintaining the high levels of 
readiness for which the Nation relies on the Marine Corps.
    The Commandant of the Marine Corps (CMC) has approved the use of 
several force shaping tools as we reduce Marine Corps end strength by 
approximately 5,000 marines per year beginning in fiscal year 2013. The 
Marine Corps will accomplish the drawdown by maximizing the use of 
voluntary measures such as attrition and early separation/retirement 
authorities. This reduced level of end strength creates some additional 
risk in capacity as the operating force manning levels will go from 99 
percent for both officer and enlisted ranks to 95 percent for officers 
and 97 percent for enlisted; however, it is a manageable and affordable 
solution that maintains a ready, capable, and more senior force in 
support of the new strategic guidance.
    This enduring strength level and force structure ensures that the 
Marine Corps retains the necessary level of noncommissioned officer and 
field grade officer experience and war-fighting enablers to support the 
future security environment. The Marine Corps drawdown plan ensures the 
Marine Corps remains the Nation's expeditionary force in readiness 
while simultaneously keeping faith with our marines and their families 
who have excelled during the last 10 years of combat operations.

                                BIOFUELS

    Question. Secretary Mabus, I am encouraged by the administration's 
proposal on biofuels and your leadership in DOD on alternate energy and 
biofuels in particular. I have heard concerns raised questioning the 
rationale for DOD's participation in this initiative. Can you comment 
on the national security justification for DOD's involvement in the 
biofuels project? Furthermore, does the administration still support 
this tri-Agency initiative?
    Answer. By continuing to rely on petroleum fuels, DOD is subject to 
price volatility in the global petroleum market and bears potential 
exposure to foreign supply disruptions. Last year after the Libyan 
crisis occurred, the price per barrel charged by the Defense Logistics 
Agency (DLA) energy increased $38 to $165 per barrel. With this 
increase in the price of a barrel of oil, the Department of the Navy 
(DON) realized a $1.1 billion increase in our fuel bill. These midyear 
increases equate to less flying hours, less steaming hours, and less 
training, ultimately impacting readiness. Additionally, national 
security is threatened by the potential to be physically cut off from 
foreign sources of petroleum.
    Because of the imperative for energy and national security, DON 
believes the United States must reduce its dependence on petroleum but 
especially foreign oil. DON is making investments in the American 
biofuels industry because this is vital to our operations. This effort 
can help to dampen price volatility while also developing an assured 
domestic source for tactical fuels. Currently, the Navy uses about 50 
percent of its tactical fuels stateside, and 50-percent deployed 
overseas. The stateside portion is where most of our crucial training 
and readiness events take place. When petroleum prices exceed budget 
forecasts or supplies constrained, the amount of training can get 
reduced. To ensure the Navy is ready to serve national interests, this 
training must not be subject to the vagaries of the petroleum market. 
Domestically sourced and produced advanced alternative fuels could 
provide energy security for training and readiness and more budgetary 
certainty as alternative fuel prices will not move directly with the 
petroleum prices. The need to find cost competitive alternative fuels 
has never been greater. Unrest in Libya, Iran, and elsewhere in the 
Middle East drove up the price of a barrel of oil by $38, which 
increases Navy's fuel bill by more than $1 billion. Because every $1 
rise in a barrel of oil is effectively a $30 million unbudgeted bill to 
the Navy, in fiscal year 2012 the Navy is facing a $1 billion 
additional fuel cost because the price has risen faster than that 
estimated when the budget was passed.
    The administration is 100 percent behind this ``tri-Agency 
initiative''. Currently, the three agencies participating (U.S. 
Department of Agriculture, Department of Energy, and DON) expect to 
contribute $170 million each to the effort for a total of $510 million. 
There is a minimum requirement that industry provides a 1-to-1 cost 
share, resulting in a total investment of at least $1 billion.
    With the total investment, DON anticipates that multiple integrated 
biorefineries could be constructed through new builds and retrofits. 
This investment, combined with a strong demand signal for alternative 
fuels from the military and commercial sector, will be the impetus 
necessary to sustain the overall alternative fuels industry sector. 
Creating a strong, domestic fuel market that insulates the United 
States from foreign oil and price volatility has been, and continues to 
be, a goal of the current administration.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

             BROAD AREA MARITIME SURVEILLANCE--GLOBAL HAWK

    Question. Secretary Mabus, as you know, the Air Force has decided 
to cancel the Global Hawk Block 30 program and announced it does not 
intend to procure the last three assets appropriated in the fiscal year 
2012 National Defense Authorization Act (NDAA). It is expected this 
will have a negative effect on the supplier base and will more than 
likely increase the unit price given the reduction of units procured.
    Given the Navy's Broad Area Maritime Surveillance (BAMS) program is 
based upon the Global Hawk airframe, do you think the unit cost will 
increase now that the Air Force has decided to cancel the Global Hawk 
Block 30 and has decided not to procure the last three assets 
appropriated in the fiscal year 2012?
    Answer. The cancellation of the Global Hawk Block 30 adds risk of 
some cost increases to the BAMS program. The unit cost impact will 
primarily affect the System Demonstration Test Articles (SDTA) and Low 
Rate Initial Production Lot 1 since these procurements are below the 
minimum sustaining production rate of four aircraft per year.
    Question. Do you anticipate a break in the production line?
    Answer. There is risk of a production line break if North Atlantic 
Treaty Organization Alliance Ground Surveillance does not procure an 
aircraft in at least 1 of the slots planned for Global Hawk lot 11.
    Question. How will a break in production affect the Navy's BAMS 
program?
    Answer. Exact cost impacts to BAMS Unmanned Aircraft Systems (UAS) 
are being discussed with the prime contractor. If a production line 
break is avoided and only a delay occurs, costs are estimated to 
increase by at least $40 million for the SDTA lot with additional 
potential cost for low rate initial production (LRIP) 1 lot. However, 
if a production line break occurs then the costs are estimated to be 
closer to $220 million, $140 million immediate impact plus $80 million 
across total production for lost learning. The most significant impacts 
are felt if a supplier business fails; work to identify impacts at this 
subtier supplier level is ongoing.
    Question. If you anticipate an increase in unit cost, will the Navy 
still be able to procure the 68 aircraft you intend to buy?
    Answer. The Navy does not anticipate the BAMS UAS unit cost to 
increase above the current Acquisition Program Baseline estimate 
developed at Milestone B. Therefore, it is anticipated that the Navy 
will continue with plans to procure all 68 aircraft.

                          JOINT STRIKE FIGHTER

    Question. This past January 20, Defense Secretary Leon E. Panetta 
announced ``there had been enough progress in fixing technical problems 
on the Marine variant that he could reverse the decision by his 
predecessor, Secretary Robert M. Gates, to put the plane on a 
probationary testing status. However, the President's fiscal year 2013 
budget slowed the acquisition of the Joint Strike Fighter by 69 
previously planned aircraft to outside the Future Years Defense Program 
(FYDP) to save $15.1 billion in savings. Lockheed-Martin has stated 
they have fixed their production and suppliers issues and are ready to 
accelerate their production line. It is a well-known fact that in order 
to achieve economies of scale you need to maximize your production 
capacity and supplier base to get the best price and yet that is 
exactly opposite of what we are doing here.
    Mr. Secretary, in your opinion based on the testing data known to 
date, is the Joint Strike Fighter mechanically sound given its current 
design?
    Answer. Yes. The three F-35 variants are encountering the types of 
development problems historically encountered on highly sophisticated 
state-of-the-art high performance aircraft development programs at this 
stage of maturity. While risks do remain in the balance of the 
development and flight test program, there are no known design issues 
that cannot be overcome by effective engineering. The program's 
management over the past year has put in-place the right fundamentals 
and realistic plans using sound systems engineering processes, and we 
are monitoring and tracking performance using detailed metrics. 
Additionally, the Acting Under Secretary of Defense for Acquisition, 
Technology and Logistics (USD(AT&L)) commissioned an internal/
independent quick look review (QLR) of the F-35 program during 2011. 
This USD(AT&L) review also found that while risks remain in the program 
the overall F-35 design is sound.
    Question. If it is--what is the projected cost comparison of buying 
the 69 aircraft within the FYDP and retrofitting the necessary changes 
as compared to delaying the 69 and potential increased unit cost?
    Answer. The cost to retrofit 69 aircraft within the FYDP is 
approximately $10 million each (fiscal year 2013-fiscal year 2017). The 
cost of delaying the aircraft procurement increases the average 
aircraft unit recurring flyaway (URF) cost over the total buy profile 
by $4-$6 million depending upon the variant.
    Question. What is the new projected unit cost if the 69 aircraft 
are delayed?
    Answer.

                           PRESIDENT'S BUDGET FOR FISCAL YEAR 2013 (SAR 11 REPORT) URF
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                    Buy year                         2013         2014         2015         2016         2017
----------------------------------------------------------------------------------------------------------------
Conventional take-off and landing (CTOL).......        127.3        118.0        104.4         94.5         90.6
Carrier-variant (CV)...........................        148.4        138.2        118.4        108.0        104.2
Short take-off and vertical landing (STOVL)....        163.9        149.9        137.1        125.1        118.8
----------------------------------------------------------------------------------------------------------------

    Question. Will Lockheed-Martin request contract consideration for 
reducing the number of aircraft procured, if yes how much?
    Answer. No. The impact of the fiscal year 2013 President's budget 
will be incorporated into the respective negotiated and awarded LRIP 
contracts at the outset. Therefore, Lockheed-Martin will not have a 
basis to request ``consideration'' against any negotiated contract.
    Question. Will this unit cost increase induce another Nunn-McCurdy 
Breach?
    Answer. No. The Nunn-McCurdy calculation is heavily influenced by 
the total aircraft buy. There has been no reduction to the total 
planned Department of Defense aircraft procurement.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                              USNS COMFORT

    Question. The Congress authorized the Navy $10 million in fiscal 
year 2011 military construction funding (P862) to modify Norfolk Naval 
Station Pier 1 to serve as a permanent berth for USNS Comfort (T-AH 
20). USNS Comfort has been homeported in Baltimore since 1987 and is a 
crucial tool of America's ``smart power'' strategy and its ability to 
achieve its missions must not be impacted for relatively small savings. 
Since 1987, the USNS Comfort has deployed nine times, six of those have 
occurred during hurricane season (National Oceanic and Atmospheric 
Administration defines hurricane season as June 1 to November 30).
    Did the Navy consider the increased risk of berthing the USNS 
Comfort in Norfolk during the hurricane season?
    Answer. The risk associated with both locations was carefully 
considered. During hurricane season, potential storms are tracked 
throughout their lives. U.S. Navy ships at storm-hardened piers or 
ships that are unable to meet underway timelines remain at the pier and 
weather the storm. On the east coast, there is normally plenty of 
advance warning to a hurricane making landfall in order to prepare 
ships for sea. If the fleet were to sortie from Hampton Roads, 
depending on the pier hardening for USNS Comfort's pier, she may not be 
required to sortie. For example, Military Sealift Command's (MSC) 
prepositioning ships berthed at Newport News CSX at storm-hardened 
piers do not necessarily sortie when the Atlantic Fleet sorties.
    We recognize that each hurricane situation will be different. We 
understand that hurricane tracks are notoriously unpredictable. Should 
a storm track take an unexpected turn, the ability for USNS Comfort to 
quickly sortie into open ocean from a Norfolk berth was considered in 
our risk assessment. The Atlantic Fleet has sortied twice in the last 5 
years. If USNS Comfort were required to crew and sortie every year, 
there would still be significant cost savings by departing from Norfolk 
vice her commercial berth in Baltimore. If a hurricane were to threaten 
Norfolk, USNS Comfort could get underway within 72-hours notice for 
hurricane evasion when required and be able to quickly steam to safer 
open waters offshore away from the storm. In summation, we consider 
USNS Comfort being berthed in Norfolk to significantly decrease risk to 
her and her ability to carry out her mission during hurricane seasons.
    Question. How can the USNS Comfort respond to posthurricane 
disaster relief mission if it has to sortie to avoid an impending 
hurricane?
    Answer. The ideal situation is to load medical equipment and 
personnel onboard USNS Comfort prior to sortie. Otherwise, USNS Comfort 
would sortie to a modified load out port and then proceed to the relief 
mission. In the case of a scenario like Hurricane Irene heading up the 
east coast last year, USNS Comfort would sortie out to sea and then 
return to a load-out port unaffected by the storm before responding to 
the disaster area. (Normally, official notification to deploy for a 
disaster relief mission is not provided until several days after a 
hurricane occurs and a Presidential Declaration is given or until a 
formal request for assistance is requested from a foreign nation).
    Question. Would having to first sortie from Norfolk to avoid the 
hurricane storm significantly delay the USNS Comfort's response time in 
providing disaster relief and humanitarian assistance?
    Answer. No. While USNS Comfort sorties, the required provisions, 
supplies, and manning could be directed to a selected load out port. 
From the time of the order to sortie, USNS Comfort would be in open 
waters much more quickly, ready to respond to further orders if she was 
berthed in Norfolk. Steaming the ship to the selected load-out port 
while simultaneously preparing the load-out cargo at that port would 
allow the most flexible and efficient response. This is the normal 
process for responding to combat mission taskings as well, and was 
utilized for USNS Comfort's response to Hurricane Katrina.
    Question. What would have been the impact on the USNS Comfort 
mission to New York City in September 2001 if the ship had been 
stationed in Norfolk and the base was responding in a defensive, 
heightened security posture?
    Answer. The response would have improved. The civil service mariner 
(CIVMAR) manning of the USNS Comfort crew would be sourced from the 
manpower pool onboard the naval base, and cargo and supplies for onload 
would be facilitated by the cargo handling equipment and facilities 
resident on the Norfolk Naval Base. Personnel responding from the 
Portsmouth Naval Hospital would have less direct travel time to the 
ship if she was berthed in Norfolk, Virginia.
    Question. Did the Navy undertake a cost-benefit analysis based on 
the cost to sortie the USNS Comfort while also attempting to prepare 
and provide disaster and humanitarian relief assistance?
    Answer. Hurricane sortie risk was taken into consideration. 
Avoiding the 12-hour Chesapeake Bay transit time offers a cost savings 
when comparing Baltimore to a coastal port.

                  UNITED STATES MARINE CORPS DRAWDOWN

    Question. The Marine Corps has requested a reduction of 20,000 
marines by fiscal year 2017. For many servicemembers, returning home 
and transitioning into civilian life will be challenging. The 
percentage of veterans in poverty increased significantly in recent 
years, rising from 5.4 percent in 2007 to nearly 7 percent in 2010. 
Across periods of service, those veterans who have served since 
September 2001, have the highest poverty rate. In 2010, 12.4 percent of 
post-9/11 veterans lived in poverty, compared with 7.9 percent of Gulf 
War I veterans and 7.1 percent of Vietnam era veterans.
    As the Marine Corps prepares to drawdown troop levels, what is the 
Department of the Navy (DON) doing to ensure soon-to-be veterans do not 
end up in poverty?
    Answer. The Marine Corps provides support to veterans throughout 
the Nation. Our Marine For Life program will support improved reach-
back and outreach support for those veteran marines who require 
localized support in their hometowns with information, opportunities or 
other specific needs. We are enhancing our Marine for Life program and 
its nationwide network of Hometown Links, both of which are integral 
parts of our ``cradle-to-grave'' approach of Transition Assistance. 
These assets help veterans develop and maintain local networks of 
marine-friendly individuals, employers, and organizations and present a 
proactive approach to help marines before problems arise.
    Question. How does this budget address the unacceptably high-
unemployment rate for veterans?
    Answer. The Marine Corps does three things for our Nation:
  --it makes marines;
  --it wins our Nation's battles; and
  --it returns quality citizens.
    We are improving our transition assistance program in order to 
better meet the needs of our transitioning marines and return quality 
citizens. Our program will be integrated and mapped into the lifecycle 
of a marine from recruitment, through separation or retirement, and 
beyond as veteran marines. There will be several ``touch points'' that 
are mapped into a marine's career. Because 75 percent of our marines 
will transition from active service after their first enlistment, these 
contact points are focused on the first term of a marine.
    Our initial step in this planned process to improve transition 
assistance is our revised Transition Readiness Seminar (TRS). The 
revised week-long TRS includes a mandatory core curriculum with four 
well-defined military-civilian pathways:
  --university/college education;
  --vocational/technical training;
  --employment; or
  --entrepreneurship.
    A marine will choose the pathway that best meets his or her future 
goals and will have access to individual counseling services within 
each pathway. Additionally, pre-work requirements will be expected from 
each attendee to maximize the efficiency and effectiveness of the 
seminar. This tailored approach to the TRS will greatly reduce 
information overload and target the individual circumstances and needs 
of the marine.
    Question. Many marines find it difficult to translate what they 
have done in their military occupations to civilian workforce, what is 
DON doing to ensure the skills our troops have developed while in the 
Marine Corps can be applied to civilian workforce?
    Answer. The Verification of Military Experience and Training 
(VMET), DD form 2586, document is an overview of a marine's military 
career. The military experience and training listed on the VMET is 
verified as official. The purpose of the VMET document is to help 
marines create a resume and complete job applications. In addition, 
they can elect to show the VMET document to potential employers, 
employment/government agencies or to educational institutions. In some 
cases, it can be used to support the awarding of training or academic 
credit. Along with VMET document, marines can use DD Form 214s, 
performance and evaluation reports, training certificates, military and 
civilian transcripts, diplomas, certification, and other available 
documentation to achieve the best results in these endeavors. Military 
Occupation Specialty (MOS) Crosswalk is an activity that is conducted 
in our revised Transition Readiness Seminars (TRS).
    The marine will be trained to use their VMET document to do a gap 
analysis between their work experience, education, available jobs and 
Labor Market Information in order to help marines choose the 
appropriate pathway:
  --university/college education;
  --vocational/technical training;
  --employment; or
  --entrepreneurship.
    We teach these online tools in our TRS:
  --O*NET Online (Department of Labor):
    --Find occupations;
    --Apprenticeship programs; and
    --MOS Crosswalk.
  --My Next Move for Vets (Department of Labor):
    --Military Skills translator;
    --Bright outlook jobs (high growth jobs over the next 5 years);
    --Green jobs; and
    --Department of Labor-registered apprenticeship programs.
  --Hire 2 Hero (Department of Defense):
    --Job search, military occupational codes military skills 
            translator; and
    --Can submit resumes online to employers.
  --VetSuccess (Department of Veterans Affairs):
    --Military skills translators; and
    --Can view and apply for jobs by geographic locations.
  --Career One Stop (Department of Labor):
    --Explore careers;
    --Job searches;
    --Resumes and interviews; and
    --Salary and benefits.
    Question. Is the Marine Corps partnering with the private sector to 
assist in the transition to civilian life?
    Answer. The purpose of the Marine for Life program is to develop 
and maintain a network of marine-friendly employers, organizations, and 
individuals in order to provide all marines with a reach back 
capability and ongoing support in finding employment, pursuing 
educational opportunities and realizing life goals. These partnerships 
currently encompass more than 1,300 employers nationwide with a 
demonstrated interest in employing marines as they leave active duty. 
In addition, Marine for Life works closely with national level, 
nonprofit organizations including the Marine Corps League, the Marine 
Corps Executive Association, and the American Legion in leveraging 
their members to assist transitioning marines with employment, 
educational goals, and relocation.

                        F-35 TEST AND EVALUATION

    Question. A Pentagon study on the F-35 recently reported that the 
aircraft had completed only a small percent of its developmental test 
and evaluation program. The report listed problems with the program 
including the inability to land on an aircraft carrier. The Congress, 
in the Weapons Systems Acquisition Reform Act in 2009, established in 
title 10, a stronger developmental test and evaluation office inside 
the Office of the Secretary of Defense (OSD) to provide better 
oversight to correct deficiencies on new systems before they enter 
operational test and evaluation.
    Does OSD provide DON with the proper levels of resources and 
authority to be effective in its mission to correct deficiencies on new 
systems before they enter operational test and evaluation?
    Answer. In general, DON has adequate resources and authority to 
ensure known deficiencies are identified and corrected prior to a 
system entering operational test and evaluation.
    With regard to F-35, since the 2010 Nunn-McCurdy breach (and the 
resulting Technical Baseline Review), the program has undergone 
significant reorganization and has been appropriately resourced to 
address future deficiencies. As part of the program reorganization, 
test, and evaluation (T&E) processes have now been better integrated 
with operational test (OT) involvement. Resource requirements are being 
further refined to support updated requirements that will be defined in 
a new F-35 Test and Evaluation Master Plan (TEMP/Rev. 4). This TEMP 
revision is currently being drafted and due to be signed in early 
fiscal year 2013. Additionally, a Joint Operational Test Team (JOTT) 
has been established and is actively involved with identifying 
deficiencies of the F-35 weapon system on an on-going basis. The JOTT 
does this through the conduct of Operational Assessments, as well as 
via an integrated test process now in place, to provide continuous 
feedback to the Program Executive Officer for the Joint Strike Fighter 
(PEO(JSF)) and the warfighter/acquisition communities. PEO(JSF) is 
directly involved in Ready-to-Test processes which culminates in an 
Operational Test Readiness Review prior to test. All deficiencies and 
the maturity of corrective action will be assessed as key criteria for 
OT readiness to enter test. As the F-35 program further matures, and OT 
begins to receive aircraft, it is expected that all of these processes 
will continue to improve resulting in even a better understanding of 
the F-35 Weapon System and insights to the PEO and the Department's 
test community oversight activities.
    Question. How can OSD provide better oversight and guidance as DON 
develops new weapon systems?
    Answer. Current OSD oversight and guidance is adequate for DON to 
develop new weapon systems. On-going OSD efforts to gain efficiencies 
in application of existing guidance should be continued.
    With regard to F-35, OSD has been directly involved at all phases 
of T&E planning. Specifically, Defense Operational Test and Evaluation 
(DOT&E) leadership and action officers (or their designated 
representatives) are present at all meetings and actively 
participating. In the recent years there has been an increased presence 
of design, development, test, and evaluation (DDT&E) representatives at 
all key test and evaluation meetings as well.
    Question. Do you believe prime contractors have assumed too much 
responsibility for the execution of developmental test and evaluation 
on large weapons systems?
    Answer. The responsibility for developmental test is assigned, not 
assumed, and the level of developmental test conducted by the prime 
contractor is determined by the program manager and the Component 
Acquisition Executive as the developmental test strategy is formulated 
to ensure the system under development is adequately engineered and 
tested to meet the requirements set out by DON. This strategy is vetted 
with appropriate stakeholders and overseen by the Deputy Assistant 
Secretary of Defense for Development Test and Evaluation (DASD(DT&E)).
    In the case of the F-35 program, the prime contractor was assigned 
responsibility for the execution of DT&E. Due to the misapplication of 
Total System Performance Responsibility (TSPR) authority, there was 
inadequate communication from the prime contractor about interim 
capabilities and interim performance of the overall air-system--which 
led to systems engineering solutions that differed from the intended 
requirements and sometimes falling short of the Services original 
desires. For DON, Aviation Developmental Test (DT) is robust and has a 
well established community of interest. A more tightly integrated 
testing strategy with Government DT and Operational Test Authority 
(OTA) involvement earlier in the program might have better served in 
sustaining the original service requirements. These processes are now 
in-place today and PEO(JSF) and the Prime Contractor (Lockheed-Martin) 
are actively responding to government OTA inputs and guidance.
    Question. How does the fiscal year 2013 DON budget provide for the 
right balance between Government oversight on testing and contractor 
execution of acquisition programs?
    Answer. The fiscal year 2013 DON budget provides a balanced mix 
between contractor and Government in the T&E workforce. We utilize 
Government personnel to conduct inherently governmental oversight 
functions and contractor personnel in technical support and surge 
roles. The fiscal year 2013 budget includes all the necessary funding, 
both contractor and Government, for the approved test strategies that 
have been developed by program managers and approved by leadership for 
their respective programs.
    For F-35, there is an integrated test force of Government and 
contractor personnel and operational test is adequately resourced to 
support all planned T&E program activities. As the U.S. Air Force 
Operational Test and Evaluation Command (AFOTEC) is the lead test 
organization, DON is using AFOTEC processes to conduct OT. Future F-35 
resources requirements are subject to formal review and approval by DON 
leadership and are currently being refined to ensure OT's active 
participation through the entire F-35 Initial Operational Test and 
Evaluation program. Operational test personnel are also funded to 
participate in DT activities to provide insights and understanding of 
accomplishments during developmental test and to allow them to 
leverage, rather than repeat, DT tests.

                  ULTRA HIGH FREQUENCY SATELLITE FLEET

    Question. The existing satellite fleet providing ultra high 
frequency (UHF) capacity for U.S. Government agencies is nearing the 
end of its lifespan. The Mobile User Objective System (MUOS) satellite 
program will ultimately replace the existing satellite fleet by 2015. 
However, the initial MUOS satellite orbits are not projected to cover 
North and Latin America which creates a capability gap, especially if 
one the aging satellites fail. Furthermore, apparently an existing UHF 
capacity exists today, industry experts claim that only 10 percent to 
20 percent of requests are filled.
    What is the status of the MUOS-1 advance waveform terminal program; 
to include:
  --when the terminals will be available for global deployment;
  --how long the U.S. military will need to rely on legacy UHF 
        satellite services; and
  --what are the intentions of our allies and partners regarding 
        adopting the advanced waveform or is there a security issue 
        associated with their use of this new platform?
    Answer. The Joint Tactical Radio System Network Enterprise Domain 
(JTRS NED) program office is projecting Formal Qualification Testing 
(FQT) of the MUOS Waveform v3.1 (a.k.a. Red/Black Waveform) in August 
2012, which would enable it to be ported to the JTRS Handheld, Manpack, 
Small Form Fit (HMS) Manpack radio by February 2013. This would mean 
that an operationally representative user terminal would be available 
in time for the MUOS Developmental Testing (DT)/Operational Testing 
(OT) period in early fiscal year 2014.
    Navy intends to buy 202 JTRS HMS Manpack radios across the FYDP, 
including 50 radios in fiscal year 2013 to support MUOS testing, as 
part of an inventory objective of approximately 450.
    Statistical reliability analysis conducted by the Navy has shown 
that the MUOS satellite launch schedule anticipated by the Navy (actual 
launch dates will be set by the Air Force Current Launch Schedule 
Review Board) will meet or exceed the legacy UHF satellite 
communications (SATCOM) requirements set by the Joint Requirements 
Oversight Council (JROC) through 2018. The new MUOS Wideband Code 
Division Multiple Access (WCDMA) capability will be operationalized 
with the launch and completion of on-orbit testing of the MUOS-2 
satellite, projected in the late calendar year 2013, and will reach 
full operational capability by the end of 2016, at which time the JROC 
mandated requirement for legacy UHF SATCOM is retired. Legacy 
capability will continue to be maintained beyond 2018, although at 
lower capacity levels, to allow time for remaining users to transition 
to the new WCDMA capability.
    The National Security Agency (NSA) currently restricts the MUOS 
WCDMA waveform from being released outside of the United States 
Government.
    Question. What is the status of the Navy's UHF satellite fleet; 
include data on how many, in percentage terms, are within 12 months of 
their nominal design life?
    Answer. Seventy-five percent of the eight UHF follow-on (UFO) 
satellites currently on orbit are at or beyond their 14-year design 
life. The remaining two have been on orbit for 12.3 and 8.3 years, 
respectively. The Navy's UHF satellite fleet (eight UFO satellites and 
two fleet satellites), with the help of actions taken by the Navy to 
mitigate unplanned losses of UHF communications satellites, the launch 
of the MUOS-1 legacy payload, and the projected launches of MUOS-2 
through MUOS-5, are projected to meet the Legacy UHF SATCOM requirement 
through 2018. Legacy capability will be maintained beyond 2018 to 
continue to facilitate the shift of remaining users to the WCDMA 
capability and support coalition operations but not at the currently 
required capacity.
    Question. Even with the launch of MUOS-1, what is the risk that 
current UHF satellites will fail? What would be the training and 
mission impact if UHF satellites fail?
    Answer. As noted above, statistical reliability analysis conducted 
by the Navy has shown that the launch schedule anticipated by the Navy 
for MUOS satellites (actual dates will be set by the Air Force Current 
Launch Schedule Review Board) will maintain the legacy UHF SATCOM 
requirements set by the JROC through 2018.
    In an effort to reduce the risk of an unplanned loss of a UHF 
satellite to acceptable levels, the Navy has aggressively implemented 
several mitigation activities to extend the service life of the 
existing constellation and increase on-orbit capacity. As a result, the 
current legacy UHF SATCOM capacity provides the warfighter with 
approximately 459 more accesses (111 more channels) worldwide than 
required by the stated Chairman of the Joint Chiefs of Staff (CJCS) 
capacity requirement. This additional capacity is equivalent to three 
UFO satellites, provides a buffer against unplanned losses in the 
future, and minimizes the training and mission impact to a manageable 
level.
    Question. The U.S. Government made the decision in 2010 to partner 
with the Australians on a commercially provided, UHF hosted payload in 
the Indian Ocean region. Now that the private sector intends to launch 
an identical payload into the Atlantic Ocean region, what are the 
United States and Allied plans to take advantage of this capability?
    Answer. DOD partnered with the Australian Minister of Defense (not 
the commercial provider) for access to 250 kHz of UHF Narrowband SATCOM 
on a commercial satellite payload that Australia is leasing over the 
Indian Ocean Region from 2012 to 2027. In exchange, the United States 
will provide the Australians access to 200 kHz of spectrum over the 
Pacific and 50kHz of spectrum globally from 2018-2033. DOD has 
additional commercial UHF SATCOM capacity through leases the Navy has 
procured on Leased Satellite (LEASAT) 5 and Skynet 5C and an agreement 
with the Italian Government for access to a UHF SATCOM channel on 
Sistema Italiano per Comunicazioni Riservate ed Allarmi (SICRAL) 1B.
    As noted in preceding questions, the Navy is maximizing technical 
and fiduciary efficiencies through a combination of the implemented gap 
mitigation actions, commercial leases, international partnerships, and 
the MUOS legacy payloads, to ensure the warfighter has access to legacy 
UHF SATCOM capacity that meets the CJCS requirements and provides a 
buffer against unplanned losses. Since all DOD requirements for UHF 
SATCOM capacity are currently projected to be met over the Atlantic 
Ocean region through 2018, DOD is not planning to take advantage of 
this commercially provided UHF hosted payload in the Atlantic Ocean 
region or any additional commercial UHF SATCOM capacity at this time.
    The Navy will continue to monitor the health of the current UHF 
SATCOM constellation for any signs that it is degrading more rapidly 
than currently projected. If it appears the level of legacy UHF SATCOM 
service will fall below CJCS requirements, the Navy will revisit all 
options, including commercial leases and hosted payloads, to maintain 
the current level of legacy service to the warfighter until the 
transition to the MUOS WCDMA capability is complete.
    Additional details are available in the Report to the Senate Armed 
Services Committee on ``Ultra High Frequency (UHF) Satellite 
Communications (SATCOM) Requirements and Options for Additional 
Capacity'' signed on March 19, 2012, by the Assistant Secretary of the 
Navy for Research, Development, and Acquisition in response to the 
fiscal year 2012 Senate Armed Service Committee Report 112-26.
    Question. How does the fiscal year 2013 DON budget provide for 
increased demand for UHF SATCOM both in the field and during training? 
Does the Navy have a multitiered approach towards ensuring the U.S. 
military has adequate UHF satellite access? If so, what is that 
approach?
    Answer. Current and future DOD Narrowband SATCOM requirements will 
be met by the MUOS program through 2026. CJCS sets requirements for 
Narrowband MILSATCOM for all DOD users based on warfighter needs and 
the Navy fills those as the DOD Acquisition Agent for Narrowband 
SATCOM. The current CJCS requirements are captured in the MUOS 
Capabilities Production Document dated January 15, 2008, and the MUOS 
program is on track to meet all key performance parameters given in 
that document. Increased capacity requirements, combined with inherent 
limitations of the military UHF SATCOM spectrum, drive the need to move 
beyond legacy UHF waveforms found in current military and commercial 
UHF SATCOM systems to the new WCDMA capability found in MUOS. Finally, 
instead of a multitiered approach, MUOS reliability and availability 
requirements are met by launching a fifth MUOS satellite as an on-orbit 
spare.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                     LHA 8 AMPHIBIOUS ASSAULT SHIP

    Question. Secretary Mabus, Senate Report 112-77 which accompanied 
the Senate's version of the Defense appropriations bill for fiscal year 
2012 included language about building the LHA 8 Amphibious Assault Ship 
in the most cost-effective manner. Specifically, the subcommittee 
directed the Navy ``to fully fund advance planning and design of LHA 8 
and work with industry to identify affordability and producibility 
strategies that will lead to more efficient construction of a large 
deck amphibious assault ship to best meet combatant commander needs''. 
Can you please provide the subcommittee details on efforts being 
undertaken by the Department of the Navy (DON) to comply with this 
direction?
    Answer. The Navy intends to engage industry via two Early Industry 
Involvement contracts that are focused on affordability and 
producibility. The goal is to have these contracts in place by the end 
of the calendar year. The contracts will utilize technical instructions 
(tasks) to focus industry involvement on areas that have the potential 
to reduce acquisition and life-cycle costs. These tasks will range from 
assessing select technologies for their potential to be integrated into 
the ship, such as Flexible Compartment Infrastructure, to more 
production-friendly design requirements and arrangements, to evaluating 
alternative C5I acquisition strategies. An Industry Day will be held 
prior to the release of the Early Industry Involvement contracts to 
ensure potential industry partners completely understand our 
expectations for their assistance in reducing the cost of LHA(R) Flight 
1 ships.
                                 ______
                                 
              Question Submitted by Senator Susan Collins

                                 DDG-51

    Question. Last year, your strategy to introduce competition into 
the DDG-51 program earlier than planned reaped significant savings for 
the taxpayer, and I applaud you for that effort. In addition, the Navy 
estimates that it could save up to $1.5 billion by exercising multiyear 
procurement authority for the DDG-51 program during the next 5 years 
for a nine ship buy over that period. I appreciated your description 
during the hearing of how the multiyear procurement authority pending 
before the Congress would result in savings for the DDG-51 program 
during the next 5 years.
    As I have stated in the past--based upon the Navy's own 
requirements and the fragility of the industrial base--we need to 
sustain an absolute minimum procurement rate of two large surface 
combatants per year. However, you did not comment specifically on the 
Navy's interest in procuring an additional DDG-51 in the multiyear 
procurement if the Navy was provided authority to reinvest unexpected 
savings from previous DDG-51 competitions or future competitions. I 
would like to provide you an opportunity to clarify your view regarding 
this matter. If the Navy were to take advantage of savings from 
previous DDG competitions and to realize savings above those projected 
for the upcoming multiyear procurement, would adding an additional 
destroyer as part of the multiyear procurement be at or near the top of 
your priority list?
    Answer. Thank you for your strong support of our Navy and 
especially our shipbuilding industry. As we build the future fleet, we 
continually strive to maximize competition which will result in savings 
that can be applied to purchasing additional ships.
    In evaluating the merits of a multiyear contract for the fiscal 
year 2013 through fiscal year 2017 DDG-51s, the Navy projected $1.5 
billion in savings for nine ships across that time period. The 
President's budget request has leveraged these savings in the 
procurement of the nine ships. As you pointed out in your letter, the 
Navy has achieved significant savings in previous competitions on the 
DDG-51 program. There are savings in the DDG-51 budget line in prior 
years. These savings alone are not adequate to procure an additional 
DDG-51 as part of the multiyear.
    However, if the Navy had the authority to reinvest savings from 
previous destroyer competitions and were to achieve savings beyond what 
was projected on this upcoming competition, the Navy would certainly 
like to take advantage of the opportunity to procure an additional ship 
in the fiscal year 2013 through fiscal year 2017 DDG-51 Multiyear 
Procurement Program. In order to provide maximum flexibility, the Navy 
intends to request pricing for nine or ten ships in the solicitation. 
The Navy believes that this is the most affordable path to meet our 
surface combatant requirements while also addressing industrial base 
concerns.
    The Navy looks forward to working with the Congress to maximize the 
numbers of ships that we buy under these competitive multiyear 
contracts. Again, thank you for your continued support for Navy 
shipbuilding.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski

                           ENERGY INITIATIVES

    Question. Each of our armed services is a significant consumer of 
energy and each is leading in its own way in addressing the challenges 
of diminished fossil fuel supplies and increased costs. How is the Navy 
leading in its efforts to diversify its fuel sources?
    Answer. Because of the imperative for energy and national security, 
the Department of the Navy (DON) believes the United States must reduce 
its dependence on foreign oil. DON is making investments in the 
American biofuels industry because this is vital to our operations and, 
therefore, the security of the Nation. Currently, the Department of 
Agriculture, Department of Energy, and DON have entered into a 
Memorandum of Understanding for this Alternative Fuels Initiative that 
will be using the Defense Production Act title III authority. The three 
agencies are expecting to contribute $170 million each to the effort--
$510 million total. There is a minimum requirement that industry 
provides a 1-to-1 cost share, resulting in a total investment of no 
less than $1 billion.
    With the total investment, DON anticipates that 3-5 integrated 
biorefineries could be constructed through new builds and retrofits. 
This investment, combined with a strong demand signal for alternative 
fuels from the military and commercial aviation, will be the impetus 
necessary to sustain the overall alternative fuels industry sector.
    The Navy has nearly completed the test and certification process 
for hydrotreated renewable (HR) fuels and is moving on to evaluate 
drop-in alternative fuel products from additional production pathways, 
such as alcohol-to-jet and pyrolysis. Navy plans to have HR fuel in the 
fuel specification by the end of fiscal year 2012.
    In July 2012, the U.S. Navy will be demonstrating its Green Strike 
Group, which is a carrier strike group comprised of a carrier, two 
destroyers, and a cruiser, all operating on alternative fuels. The 
destroyers, cruiser, and the airwing on the carrier will be using a 50/
50 blend of fossil fuel and biofuel. This demonstration will be a part 
of the Rim of the Pacific exercise off the coast of Hawaii. In 2016, we 
plan to deploy this Great Green Fleet overseas. These aggressive 
efforts are a major part of the Secretary of the Navy's broader energy 
goals.
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham

                   NEXT GENERATION ENTERPRISE NETWORK

    Question. Mr. Secretary, I understand that the Navy is weeks if not 
days away from issuing the request for proposal (RFP) for its Next 
Generation Enterprise Network (NGEN)--a highly complex information 
technology (IT) program that involves transitioning the Navy's largest 
and most secure network to a new contract. The Navy's acquisition 
strategy for NGEN has been much maligned. In addition to frequent 
criticism of the pass/fail technical requirements/lowest price 
selection from acquisition authorities, the U.S. Government 
Accountability Office (GAO) issued its 2012 annual report on 
``Opportunities to Reduce Duplication, Overlap and Fragmentation, 
Achieve Savings, and Enhance Revenue'' strongly suggest that NGEN 
should receive further scrutiny.
    How can you convince us that the current course on NGEN will be the 
best approach for the Navy and for the taxpayer? Is there value in 
considering a more straightforward recompete of your current services 
contract cost/performance trade-off since it apparently meets your 
needs, and should be well understood by those who will be evaluating 
proposals? If this lower-risk alternative is not being considered, why?
    Answer. NGEN is a continuation of the Navy Marine Corps Intranet 
(NMCI) 2010 under the Continuity of Services Contract (CoSC). The 
current strategy is to competitively select either one or two vendors 
for the two main segments of the network (Transport and Enterprise 
Services) using a lowest price technically acceptable (LPTA) source 
selection; a best value determination in accordance with Federal 
Acquisition Regulation (FAR) Part 15.101-2. This approach for NGEN has 
been endorsed as appropriate at the Office of the Secretary of Defense 
(OSD) level via a robust oversight process that included multiple 
Overarching Integrated Product Team (OIPT), OSD Peer and Milestone 
Decision Authority (MDA) reviews. LPTA is considered appropriate when 
the requirement is well-defined, price control is paramount, and the 
risk of nonperformance is low. The performance requirement for NGEN is 
NMCI as it performed on September 30, 2010. It is well understood. As 
the network operates today, there is no development under NGEN. The 
major changes in requirements are for increased Government Command and 
Control (C2), enhanced Information Assurance (IA) and Government 
ownership of the network infrastructure; there are no significant 
changes in the technology required or how the contractor executes the 
contract. Furthermore, the technologies integral to NGEN are widely 
used Commercial-Off-the-Shelf (COTS) technologies. Finally, the 
Department of the Navy (DON) has determined that there are no clear 
discriminators for which the Government would be willing to pay more, 
and, given that there are several companies that are capable of 
delivering this service in accordance with the DON's requirements, 
price was determined to be the overriding factor.
    While a straight-forward recompete would continue to provide the 
required level of service, it would not give the DON the needed insight 
into the elements that make up an enterprise network. Under NGEN, the 
38 services to be delivered are individually priced and available to be 
recompeted separately or collectively as part of a FAR Part 15 
contract; different from CoSC which was a FAR Part 12 contract that did 
not give insight into pricing or allow for severability of services or 
segments. This construct enables evolutions like the Joint Information 
Environment, enterprise email, Data Center Consolidation and other 
Department of Defense-level efficiencies without the burden of 
recompeting the entire enterprise contract. Increased competition will 
drive future innovation and price reduction without sacrificing 
performance or security of the DON's network.
                                 ______
                                 
          Questions Submitted to Admiral Jonathan W. Greenert
           Questions Submitted by Senator Barbara A. Mikulski

               ELECTROMAGNETIC AIRCRAFT LAUNCHING SYSTEM

    Question. Among the revolutionary changes in the USS Gerald R. 
Ford-class aircraft carrier is a new electromagnetic aircraft launching 
system (EMALS). The Navy continues to test a variety of aircraft on the 
system, including the F-35 Joint Strike Fighter. The question is 
whether that technology will be ready in time, in order to avoid either 
costly delays to the program--or an even more costly redesign of the 
first ship of class.
    What is the status of EMALS development and testing?
    Answer. EMALS continues to meet its development and test 
objectives. To date, the system has successfully completed 134 aircraft 
launches (including F/A-18E clean and with stores, C-2A, T-45C, E-2D, 
and F-35C) and more than 1,800 operationally representative deadload 
launches. Concurrent environmental qualification testing, including 
extensive aircraft, weapons, and personnel electromagnetic 
compatibility testing at the component and system level, have 
demonstrated EMALS suitability for use.
    All deliveries to date of CVN 78 shipboard EMALS hardware have met 
ship construction need dates. All future EMALS component deliveries are 
likewise projected to meet shipyard need dates.
    Question. Considering the criticality of this new technology, is 
the Navy considering building a second test facility at Naval Air 
Station Patuxent River to ensure the Navy has built in redundancy so 
that the USS Gerald R. Ford-class aircraft carrier delivers on 
schedule?
    Answer. The Navy has no plans to build a second test facility at 
the Naval Air Station Patuxent River in support of the Ford-class 
aircraft carrier program.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                     SHIPBUILDING PRODUCTION RATES

    Question. Admiral Greenert, the new Strategic Guidance for the 
Department of Defense highlights the importance of Nation's maritime 
presence and calls for increasing our posture in the Pacific. However, 
when compared to the last budget submission, this request reduces ship 
procurement from 57 to 41 ships. Admiral, if the Navy had additional 
resources in fiscal year 2013 or 2014, what ships would the Navy 
procure?
    Answer. If appropriate fiscal resources were available in fiscal 
year 2013 and/or 2014 the Navy would likely allocate more funding to 
shipbuilding. The first priority would be restoring the attack 
submarine (SSN) removed from fiscal year 2014 in our budget submission. 
There will be a significant shortfall in ``SSN-years'' in the 2020s 
that can be best addressed by sustained submarine procurement. Our 
second priority would be restoring a destroyer (DDG) removed from 
fiscal year 2014 in our budget submission. A shortfall of DDGs will 
develop late in the 2020s that can be best addressed by sustained DDG 
procurement. Both of these actions would require advance procurement 
(AP) funding in fiscal year 2013; further, these changes would also 
contribute immensely to a more stable industrial base.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                   JOINT PACIFIC ALASKA RANGE COMPLEX

    Question. One of the contributions to our national security that 
Alaska is proudest of is the Joint Pacific Alaska Range Complex 
(JPARC). Alaskan Command reminds me that it is a unique national asset 
because it is in every respect a joint range. The Navy participates in 
exercises on the JPARC from platforms in the Gulf of Alaska (GOA). How 
does the Navy's participation in exercises utilizing the JPARC add 
value from a national security standpoint?
    Answer. Since the 1990s, the Navy has participated in major joint 
exercises in the GOA involving each of the services in the Department 
of Defense and the Coast Guard. Participants report to a unified or 
joint commander who coordinates the activities of the forces. Services 
are able to demonstrate and be evaluated on their ability to 
participate in a joint force in simulated conflict and carryout plans 
in response to a national security threat.
    Given the unique training environment provided by the JPARC, the 
range contributes to Navy readiness by:
  --Supporting U.S. Pacific Command training requirements.
  --Supporting Joint Task Force Commander training requirements.
  --Providing realistic, expansive areas to replicate actual 
        operations.

                                BIOFUELS

    Question. I wonder if you might address the Navy's interest in 
biofuels. Has the Navy determined that the benefits of biofuels 
(potential decreased price volatility, diversified suppliers) 
outweighed the costs (research and development investment, uncertain 
future price of biofuels)?
    Answer. Our alternative fuel initiative is an important investment 
for the Navy. It addresses a core concern of our national strategic and 
military operational need for energy security and energy independence. 
Investing in sustainable future technologies is critical to Navy's 
ability to remain the world's premier maritime force.
    Navy is pursuing multiple paths to achieve a future less dependent 
on petroleum and the fiscal effects of rising energy costs. The current 
price volatility of oil increases the complexity of adequately funding 
our global operations. Already in this fiscal year, unanticipated fuel 
price increases have caused our operations accounts to become 
underfunded by approximately $900 million. To technologically hedge 
these execution year risks, the Navy will spend nearly $16 million on 
laboratory capabilities to examine, test, and certify alternative 
fuels. This expenditure positions us to validate the safe use of a wide 
variety of drop-in replacement fuels in the future. Although the Navy 
must pay a premium price to obtain biofuel for research and 
development, as well as for test and certification purposes, the Navy 
cannot and will not purchase alternative fuels for operations unless 
the price is competitive with conventional fossil fuels.
    Question. How has this comparison been done between biofuels and 
the traditional fossil fuels?
    Answer. There are a number of studies that state the case that 
biofuels will be cost competitive as early as the 2018-2025 timeframe 
without Government investment. A large majority of alternative energy 
firms also believe that the infusion of capital (from Defense 
Production Act title III or other investment sources) will measurably 
speed up the timeline.
    Question. How can a robust biofuel industry domestically change 
that balance?
    Answer. With a strong demand signal from the military and 
commercial aviation, there could be enough pull to entice more 
companies to enter this market. From the supply side, there are many 
feedstocks, numerous pathways, and multiple processes being identified 
for use in the alternative fuel industry. No single solution alone will 
reduce our reliance on foreign sources of liquid fuel. With many 
domestic biofuel companies in the market taking advantage of continued 
research, the costs for biofuels will eventually be competitive with 
conventional sources of petroleum.
    Question. I understand that the Navy is quite interested in hybrid 
power and other fuel conservation efforts. Can you elaborate some on 
these efforts?
    Answer. Navy is very interested in energy-efficiency efforts both 
afloat and ashore. It is the ``first fuel'' because what we don't 
consume or use directly enhances Navy's combat capability by extending 
the range and on-station time, in the air, on the water, or over land. 
The logistics tether of resupply has been exploited by the likes of al 
Qaeda in both Iraq and Afghanistan, but it is also a vulnerability at 
sea. By reducing fuel consumption for ships and aircraft, Navy reduces 
its reliance on a vulnerable logistics chain and improves its agility 
to meet the mission.
    Initiatives range from simple lighting changes that are more energy 
efficient and last much longer than fluorescent bulbs to more efficient 
engines and a hybrid electric drive (HED) that drastically reduces fuel 
consumption for DDG-51. Below are some examples of energy initiatives 
that Navy is implementing in fiscal year 2013.
  --A HED is in development for use in the DDG-51. The proof of concept 
        is scheduled to be installed in fiscal year 2013.
  --The Navy replaced the steam boilers on USS Makin Island (LHD 8) 
        with gas turbines and an Auxiliary Propulsion System or HED. 
        This propulsion system saved approximately $2 million in fuel 
        cost during her transit from Pascagoula, Mississippi to San 
        Diego, California. Over the ship's lifetime the Navy expects to 
        save more than $250 million. This system will be installed on 
        the LHA 6 class ships.
  --Installation of ship-wide, energy consumption monitoring systems 
        that compute the power usage and operating conditions of 
        energy-consuming systems on the ship and display this 
        information for leadership. Estimated efficiency gain is 2,179 
        Bbls/ship/yr.
  --Replacement of fluorescent and incandescent lamps aboard DDG-51, 
        CG-47, LSD 41/49, and LHD 1 class ships with more efficient 
        solid-state lighting. Estimated efficiency gain is 100-500 
        Bbls/ship/yr.
  --Development and installation of stern flaps on LHD 1 and LSD 41/49 
        class ships for improved hydrodynamics as demonstrated on USS 
        Kearsage (LHD 3). The USS Kearsage will have an annual fuel 
        reduction of 6,241 Bbls/yr. Overall estimated efficiency gain 
        is 4,000-5,000 Bbls/ship/yr through the LHD 1 and LSD 41/49 
        classes.
  --Replacement of obsolete fuel-air mixture monitors for main 
        propulsion boilers on LHA 1 and LHD 1 class ships with a new 
        automated system to control the fuel air mixture to increase 
        efficiency. Estimated efficiency gain of >3,000 Bbls/ship/yr.
    Intelligent Heating Ventilation Air Conditioning and Refrigerating 
(HVAC&R): HVAC&R plants on Military Sealift Command T-AKE ships consume 
approximately 36 percent of the total ship's power generated and lack 
the ability to be optimized to variable demands. Modifications to 
improve efficiency will increase HVAC&R systems efficiency by 30-40 
percent which translates into more than 4,000 Bbls/ship/yr.
                                 ______
                                 
              Question Submitted to General James F. Amos
            Questions Submitted by Senator Daniel K. Inouye

                       AMPHIBIOUS COMBAT VEHICLE

    Question. General Amos, the amphibious combat vehicle (ACV) is a 
part of the Marine Corps integrated and complementary portfolio of 
combat vehicles critical to the future expeditionary Marine Air Ground 
Task Force Operation. Last year, the Marine Corps terminated the 
expeditionary fighting vehicle because it was too expensive. Since then 
you have stated the need to deliver the ACV within 4 years as well as 
be more affordable and sustainable. What measures are being taken to 
ensure this vehicle meets the cost and schedule goals set forth?
    Answer. The Marine Corps acquisition and requirements communities 
are working side-by-side to ensure that capabilities and requirements 
for the ACV are developed with an understanding of the costs associated 
with each. We have conducted upfront systems trade studies to drive 
technically feasible and affordable requirements decisions. We have 
conducted an extensive Systems Engineering Operational Planning Team 
that evaluated various system concepts to better define capability 
versus affordability trade space. As part of the ongoing analysis of 
alternatives we will conduct an affordability analysis to ensure the 
selected system meets life-cycle affordability targets. All of these 
efforts will ensure that cost goals are met, and if feasible and 
affordable, will deliver a prototype capability in 4 years.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski

                   MARINE CORPS COLD WEATHER TRAINING

    Question. The Army takes great pride in the fact that Alaska's 
training grounds produce ``Arctic tough'' soldiers. In fact the Web 
site of the Army's Northern Warfare Training Center at Fort Wainwright 
displays this inspirational message, ``A Soldier trained in winter is 
also a good summer fighter; trained only in summer he is helpless in 
the winter!'' This is something we've not discussed with the Corps 
before. I'm wondering how the Marine Corps trains to operate in cold 
climates and whether Alaska's ranges and training grounds might offer 
some value to the Corps.
    Answer. The Marine Corps trains to operate in cold weather and 
alpine environments in medium to high-altitude aboard the Marine Corps 
Mountain Warfare Training Center (MCMWTC) in Bridgeport, California.

                                MISSION

    MCMWTC conducts unit and individual training courses to prepare 
Marine Corps, Joint, and Allied Forces for operations in mountainous, 
high-altitude and cold weather environments; and the development of 
warfighting doctrine and specialized equipment for use in mountain and 
cold weather operations.

                         HISTORY AND BACKGROUND

    MCMWTC is one of the Corps' most remote and isolated posts. The 
Center was established in 1951 with the mission of providing cold 
weather training for replacement personnel bound for Korea. After the 
Korean conflict the name was changed to the Marine Corps Cold Weather 
Training Center. As a result of its expanded role it was renamed the 
Marine Corps Mountain Warfare Training Center in 1963.
    The Center occupies 52,000 acres in the summer and 62,000 acres in 
the winter of Toiyabe National Forest under management of the U.S. 
Forest Service (USFS). A letter of agreement between USFS and the 
Marine Corps permits the use of the area to train marines in mountain 
and cold weather operations.
    The Center is sited at 6,762 feet, with elevations in the training 
areas ranging to just under 12,000 feet. During the winter season 
(October-April) snow accumulation can reach 6 to 8 feet. Of note, 
severe storms can deposit as much as 4 feet in a 12-hour period. Annual 
temperatures range from -20 degrees to +90 degrees Fahrenheit.
    Marines at the Center are also involved in testing cold weather 
equipment and clothing, and developing doctrine and concepts to enhance 
our Corp's ability to fight and win in mountain and cold weather 
environments.

                             UNIT TRAINING

    The premier training evolution aboard MCMWTC is a 35-day exercise 
called Mountain Exercise (MTNEX). The Center trains an infantry 
battalion and its attachments and enablers from across the Department 
of Defense (DOD). MCMWTC averages six MTNEXs per year with two being 
conducted in the winter and four conducted in the summer. A MTNEX 
trains elements of the Marine Air Ground Task Force (MAGTF) across the 
warfighting functions for operations in complex, compartmentalized, and 
mountainous terrain utilizing military mountaineering skills in order 
to enhance a unit's ability to shoot, move, communicate, sustain, and 
survive in mountainous regions of the world.
    The winter MTNEX focuses on over the snow mobility by way of 
instructing a battalion on survival ski techniques, snowshoe 
application, short- to long-range movements via both methods, survival/
field skills, and sustained operations in a cold weather environment. 
The winter and summer training conducted at the MCMWTC is designed to 
provide individuals and units the requisite technical skills to gain a 
tactical advantage. Survival in extreme cold temperatures, maneuvering 
long distances in snowshoes or skis to defeat an enemy force, and using 
rope systems and climbing techniques, all of which allow a maneuver 
commander to achieve surprise through unsuspected routes and to 
maintain the initiative in complex, compartmentalized, mountainous 
terrain.

                          INDIVIDUAL TRAINING

Winter Mountain Leaders Course
    The Winter Mountain Leaders course is designed to train marines to 
become subject-matter experts to a high degree in cold weather 
operations on ice and snow covered terrain. The mountain operations 
cold weather skills will enable enhanced movement, control of fires, 
intelligence gathering, sustainment, and force protection in complex 
snow and ice-covered terrain that is inaccessible to untrained marines.
    Students are taught avalanche awareness, over the snow mobility to 
Military Skier level, survivability, bivouac routine, mountain patrol 
techniques, tactical considerations, weapons employment, fire support 
considerations, the necessary skills to plan, organize, and lead 
mountain/cold weather operations; to act as Scout Skier element leaders 
on ridgeline flank security, picketing and recon patrols; to train 
their units for mountain/cold weather operations; and advise MAGTF or 
MAGTF element commanders and staffs.

Mountain Scout Sniper Course
    The purpose of this course is to train Scout Snipers to be 
tactically and technically proficient in a mountainous environment. 
This course includes instruction in advanced marksmanship at high 
angles with the M40A3 sniper rifle, M82A3 Special Application Scoped 
Rifle (SASR), M16A2 service rifle, and combat marksmanship with the M9 
service pistol. Instruction in high angle marksmanship includes range 
estimation, determining slope angle and flat line distance, effects of 
vertical and angular distortion, effects of elevation, and effects of 
extreme weather. Instruction in field craft includes stalking and 
concealment techniques in a mountain environment, man tracking, 
counter-tracking, over snow mobility, mountain communications, and 
mountain survival. Tactical instruction includes employment 
considerations for scout snipers in a mountainous environment, detailed 
mission planning, preparation and conduct of patrolling, and collecting 
and reporting information.

Cold Weather Medicine
    The purpose of this course is to give operating forces medical 
personnel the knowledge needed to support their units in a cold 
weather, mountainous environment. This course of instruction is 
designed to bring the students to a high standard of tactical and 
medical proficiency peculiar to a cold weather environment. The course 
subjects cover movement, survival, bivouac routine, leadership, 
diagnosing, treating, and preventing high altitude, cold-weather-
related illness and injuries, and techniques of transporting casualties 
in a snow covered mountainous environment.

Mountain Command, Control, Communications Course
    This course is designed to train communicators in the employment of 
communications assets in a cold weather/mountainous environment. It 
also covers communications planning for command posts and disaggregated 
units in highly complex, compartmentalized terrain. Additionally, 
graduates can be used by their parent units to train more marines in 
basic principles of mountain communications. Instruction is provided in 
wave theory and propagation, field expedient antennas, and re-
transmission operations, advantages/disadvantages of varied radio 
equipment, planning for coverage through the use of all communication 
assets available and speed.

Mountain Operations Staff Planners Course
    This course is designed to provide staff officers and staff 
noncommissioned officers academic instruction and field application in 
planning, conducting, and supporting combat operations in complex, 
compartmentalized, mountainous terrain. MWTC staff sections provide 
additional in-depth instruction relating to all aspects of operations 
and support functions in mountain warfare. Historical case studies and 
guest speakers play a key role in highlighting numerous lessons 
learned. Students then conduct operations in the local training area to 
familiarize them with operating in mountainous terrain. The course 
builds towards an intensive staff planning exercise and a follow on 
field combat operations center operations and tactical exercise without 
troops. This course is conducted once a year with an abbreviated 
version conducted during MTNEX for the training battalion.

                                 ALASKA

    Alaska provides ample opportunities for cold weather training 
however there are limiting factors that restrict the Marine Corps from 
conducting training in Alaska. The elevation at the Black Rapids 
Training Site starts at 440 feet above sea level and the terrain is not 
true complex, compartmentalized terrain that marines will operate in. 
Additionally the opportunity for the Marine Corps to train in Alaska is 
cost prohibitive due to military air for movement of units by Naval Air 
Logistics Operations being extremely limited, lack of an equipment 
allowance pool for a marine unit to fall in on, and the training area 
being 365 miles from the nearest port. Transportation of things and 
transportation of personnel to include civilian labor costs to run the 
ammunition supply point are additional cost factors.

                                SUMMARY

    As it has since being established in 1951, the Marine Corps 
Mountain Warfare Training Center provides the individual and collective 
training opportunities necessary to ensure the Marine Corps is prepared 
to operate in cold weather and mountain environments.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The Department of Defense subcommittee 
will reconvene on Wednesday, March 14 at 10:30 a.m., and we are 
going to hear from the Department of the Air Force.
    This subcommittee stands in recess.
    [Whereupon, at 12:18 p.m., Wednesday, March 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
